<html>
<title> - CURRENT AND FUTURE WORLDWIDE THREATS TO THE NATIONAL SECURITY OF THE UNITED STATES</title>
<body><pre>[Senate Hearing 113-571]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 113-571

 CURRENT AND FUTURE WORLDWIDE THREATS TO THE NATIONAL SECURITY OF THE 
                             UNITED STATES

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 11, 2014

                               __________

         Printed for the use of the Committee on Armed Services

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


        Available via the World Wide Web: http://www.fdsys.gov/
                               __________

                         U.S. GOVERNMENT PUBLISHING OFFICE 

93-412 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001













  

                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

JACK REED, Rhode Island              JAMES M. INHOFE, Oklahoma
BILL NELSON, Florida                 JOHN McCAIN, Arizona
CLAIRE McCASKILL, Missouri           JEFF SESSIONS, Alabama
MARK UDALL, Colorado                 SAXBY CHAMBLISS, Georgia
KAY R. HAGAN, North Carolina         ROGER F. WICKER, Mississippi
JOE MANCHIN III, West Virginia       KELLY AYOTTE, New Hampshire
JEANNE SHAHEEN, New Hampshire        DEB FISCHER, Nebraska
KIRSTEN E. GILLIBRAND, New York      LINDSEY GRAHAM, South Carolina
RICHARD BLUMENTHAL, Connecticut      DAVID VITTER, Louisiana
JOE DONNELLY, Indiana                ROY BLUNT, Missouri
MAZIE K. HIRONO, Hawaii              MIKE LEE, Utah
TIM KAINE, Virginia                  TED CRUZ, Texas
ANGUS KING, Maine

                    Peter K. Levine, Staff Director

                John A. Bonsell, Minority Staff Director

                                  (ii)

  





















                            C O N T E N T S

                               __________

                           february 11, 2014

                                                                   Page

Current and Future Worldwide Threats to the National Security of 
  the United States..............................................     1

Clapper, Hon. James R., Jr., Director of National Intelligence...     5
Flynn, LTG Michael T., USA, Director, Defense Intelligence Agency    27
Questions for the Record.........................................    81

                                 (iii)

 
 CURRENT AND FUTURE WORLDWIDE THREATS TO THE NATIONAL SECURITY OF THE 
                             UNITED STATES

                              ----------                              


                       TUESDAY, FEBRUARY 11, 2014

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:33 a.m. in room 
SD-G50, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Reed, Nelson, 
Manchin, Shaheen, Blumenthal, Donnelly, Kaine, King, Inhofe, 
McCain, Chambliss, Ayotte, Fischer, Graham, Vitter, Lee, and 
Cruz.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. The committee 
meets this morning to hear testimony on current and future 
worldwide threats to the U.S. national security. We welcome 
James R. Clapper, Jr., the Director of National Intelligence 
(DNI), and Lieutenant General Michael T. Flynn, USA, the 
Director of the Defense Intelligence Agency (DIA). Gentlemen, 
thank you for coming today. Your testimony is especially 
important at a time of diverse and complex national security 
threats and an era of fiscal pressures.
    The Department of Defense (DOD) faces difficult choices 
about how to allocate scarce resources in this environment of 
reduced budgets. Although the recently adopted budget agreement 
provides some relief, that relief is partial and temporary. 
Today's testimony will, I hope, illuminate the dangers our 
Nation faces and underscore the continuing urgency of reaching 
an agreement to fully and permanently deal with the threat of 
sequestration to our Nation's interests.
    Perhaps foremost among the diverse challenges we face is 
our effort to prevent Iran's acquisition of nuclear weapons. We 
look forward to updated information on the status of the 
Iranian nuclear program and the impact of the interim agreement 
reached by the P5+1 powers late last year.
    In Afghanistan, we face an insurgency whose terror tactics 
continue to be deadly. I believe the situation in Afghanistan 
has been fundamentally improved by efforts to build the 
Afghanistan National Army (ANA) and Afghanistan National Police 
(ANP). Those forces met or exceed expectations as they took 
over the lead on almost all military operations during the 2013 
fighting season, and they retain control over the areas where 
the vast majority of the Afghan population lives. The Afghan 
army, and increasingly the ANP, have the support of the Afghan 
people, who overwhelmingly oppose a return to Taliban rule.
    Without the conclusion of a bilateral security agreement 
(BSA), our military will not be able to continue, even in small 
numbers, to support the Afghan security forces after the end of 
this year. President Karzai has so far refused to sign the BSA 
that he himself agreed to, and has made a series of statements 
so inflammatory that they are undermining public support in the 
United States for continuing efforts in Afghanistan.
    Whoever the next Afghan president is, he is likely to be 
more reliable than President Karzai, and his signature is 
likely to instill more confidence than would Karzai's 
signature. With 2 months to go in the presidential campaign, I 
hope our witnesses will tell us if they agree that the United 
States, and the coalition of which we are a part, would be 
better off waiting for Karzai's successor to sign the agreement 
that the Afghan people favor, as reflected by the consensus of 
the 3,000-member loya jirga.
    In Iraq, the disturbing seizure by al Qaeda-affiliated 
militants of control in portions of Fallujah and Ramadi 
reflects in part the failure of an increasingly sectarian-
influenced Maliki Government to reach out to disenfranchised 
Sunni groups. We would appreciate hearing your assessment of 
the current situation in Iraq and of how best we can support 
the Iraqi people without empowering the Maliki Government to 
further the narrow agenda that it has too often pursued.
    In Syria, the world witnessed the horror of the Assad 
regime using chemical weapons against its own people, killing 
hundreds of civilians, including women and children. In 
response to the U.S. threat of using limited force against 
Assad's chemical capability, the international community 
reached agreement with Syria on a plan to eliminate Syria's 
chemical weapons program by the middle of this year. Since 
then, Syria's chemical weapons mixing and filling capabilities 
have been eliminated and the first shipments of Syria's most 
dangerous chemicals have been transported to a port for removal 
from Syria.
    However, Syria has missed two important deadlines to remove 
the rest of the chemicals, and we want to know the prospects 
for completing the elimination of Syria's chemical weapons this 
year and the impact of this effort on the Assad regime. In 
light of the continuing horrific assaults by the Assad regime 
against its own people, I hope our witnesses will also give us 
their assessment of additional steps that we could take to 
effectively train and equip members of the vetted opposition in 
Syria.
    We face a different, but no less complex, series of 
challenges in the Asia-Pacific region. North Korea has 
continued its cycle of provocations and belligerence, 
heightening tensions on the Korean Peninsula and among our 
allies and partners in the Pacific. Last year, the North Korean 
regime conducted a nuclear weapon test and engaged in cyber 
attacks against South Korea. The new North Korean leader is 
inexperienced and unpredictable, creating instability in the 
region. We also look forward to hearing whether the recent 
willingness of North Korea to facilitate family visits signals 
any significant change in their policy.
    China's activities in the South China and East China Seas 
have also raised concerns, especially among our friends in 
Southeast Asia. China's recent declaration of an air defense 
identification zone (ADIZ), that overlaps with South Korea's 
ADIZ and includes the air space over the Senkaku Islands, 
failed to follow international norms and increases probability 
of miscalculations which could destabilize the region. I look 
forward to the testimony of our witnesses as to how we can 
appropriately respond to these actions.
    China's sustained and growing campaign to penetrate our 
computer networks, both for military purposes and to steal 
intellectual property for commercial purposes, also poses a 
threat to our security and our relationship.
    The cyber threat is not unique to China. Russia also 
possesses formidable cyber capabilities and Iran and North 
Korea have also demonstrated a willingness to initiate 
aggressive actions in cyber space against the United States and 
our allies. However, China poses perhaps a unique threat 
because of the combination of sophisticated cyber capabilities 
and a lack of restraint and respect for limits on the theft of 
American technology, including production of counterfeit 
productions. A large number of colleagues have said that 
China's massive cyber industrial espionage campaign is an 
intolerable threat to our long-term national economic 
prosperity and security.
    We look forward to the views of our witnesses on these and 
many other issues. I now call upon Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    I do agree with the comments you made on cyber and some of 
the other things, so I won't address them. But I am really 
concerned, I think as everyone is up here, about our national 
security. Two weeks ago I returned from a trip through Africa, 
Afghanistan, South Asia, and Europe. It was clear from talking 
to the troops, the diplomats, and the foreign partners that the 
global security environment is more precarious and complex as 
any time in memory and is growing more dangerous every day.
    Director Clapper, you stated last year before Congress--and 
I have quoted this several times: ``In almost 50 years in 
intelligence, I don't remember when we've had a more diverse 
array of threats and crisis situations around the world to deal 
with.'' Based on what we've seen since then, I think you're 
exactly right.
    The reality is that our national security is worse off 
today than it was 10 years ago. Around the world, as American 
leadership and military capabilities decline, we're seeing the 
threats to our security rise. From the Middle East to Africa to 
East Asia, our allies don't trust us and our enemies don't fear 
us.
    In Iran, a recent interim agreement has done nothing to 
stop the regime's enrichment activities. In fact, I want to 
submit for the record a Reuters article that was dated just 
yesterday talking about how ``Iran's military successfully test 
fired two new domestically made missiles, the defense minister 
said on Monday, according to state television. Brigadier 
General Hossein Dehqan said one of them was a long-range 
ballistic missile with radar-evading capabilities.''
    It goes on to talk about what they're doing. They're not 
really hiding that at all.
    [The information referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
      
    Senator Inhofe. Let me remind our colleagues that our 
intelligence reports continue to say that Iran will have this 
capability--by capability I mean the weapon and the delivery 
system--as early as 2015, less than a year away.
    Further, the administration continues its head-in-the-sand 
approach to terrorism by pushing the false narrative that al 
Qaeda is on the ropes and on the run. The facts on the ground 
don't tell that story. The reality is that al Qaeda now 
operates in more countries and more territory than ever before 
and poses a greater threat to American interests.
    In the Asia-Pacific region, our vaunted strategic rebalance 
is being undermined by massive budget cuts at a time when our 
security interests in the region have never been more 
pronounced. China's military buildup continues to dominate the 
region's dynamics, as our chairman just stated. North Korea is 
continuing its long history of erratic and reckless behavior, 
threatening stability on the Korean Peninsula and the broader 
region. Just last week, we learned that North Korea has 
restarted enrichment activities at some of its nuclear 
facilities and is pushing forward with the development of a 
road-mobile missile system, and of course, they admit this.
    In the face of all of this, we're forcing our military, the 
backbone of our Nation's security, to endure a steep and 
damaging drop in capabilities and readiness. Drastic budget 
cuts, some $487 billion over the last 5 years, have resulted in 
our naval fleet falling to an historic low level of ships, the 
Air Force being the smallest in history, and potentially 
shrinking the Army to a force not seen since the beginning of 
the 20th century.
    Readiness is plummeting. Commanders now use the term 
``hollow'' to define the ability of their forces to defend the 
United States. In recent guidance issued to the Services, the 
Secretary of Defense even acknowledged this stark reality and 
wrote: ``Near-term hollowness is acceptable, but the force must 
be balanced at end state.'' This is deeply concerning to me. 
It's an admission, given that the threats we face aren't likely 
to wait until our force is rebuilt at some time in the future.
    So without meaningful sequester relief to reverse these 
reckless national security cuts, our military will accept a 
greater risk. When you talk about greater risk you're talking 
about loss of lives.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Inhofe.
    Director Clapper.

 STATEMENT OF HON. JAMES R. CLAPPER, JR., DIRECTOR OF NATIONAL 
                          INTELLIGENCE

    Mr. Clapper. Chairman Levin, Ranking Member Inhofe, and 
distinguished members of the committee: General Flynn and I are 
here today to present the Intelligence Community's (IC) 
worldwide threat assessment, as we do every year. I'll cover 
about five topics in approximately 11\1/2\ or 12 minutes, 
followed by General Flynn's statement.
    As DNI, this is my fourth appearance before this committee 
to discuss the threats we face. As Senator Inhofe noted, I have 
made this next assertion previously, but it is, if anything, 
even more evident and more relevant today. Looking back over my 
now more than half a century in intelligence, I have not 
experienced a time when we've been beset by more crises and 
threats around the globe.
    My list is long. It includes the scourge and 
diversification of terrorism, loosely connected and globally 
dispersed, to include here at home, as exemplified by the 
Boston Marathon bombing; and by the sectarian war in Syria, 
including its attraction as a growing center of radical 
extremism and the potential threat this poses now to our 
Homeland.
    Let me briefly expand on this point. The strength of the 
insurgency is now estimated at somewhere between 75,000 to 
80,000 on the low end and 110,000 to 115,000 on the high end. 
They are organized into more than 1,500 groups of widely 
varying political leanings. Three of the most effective 
insurgent groups are the Al-Nusra Front, Ahrar Al-Sham, and the 
Islamic State of Iraq and the Levant (ISIL), whose numbers 
total more than 20,000. Complicating this further are the 
7,500-plus foreign fighters from some 50 countries who have 
gravitated to Syria. Among them are a small group of 
Afghanistan/Pakistan al Qaeda veterans from the Afghanistan-
Pakistan area who have aspirations for external attack in 
Europe, if not the Homeland itself.
    There are many other crises and threats around the globe, 
to include the spillover of the Syrian conflict into 
neighboring Lebanon and Iraq, the destabilizing flood of 
refugees in Jordan, Turkey, and Lebanon, now almost 2.5 
million, a symptom of one of the largest humanitarian disasters 
in a decade.
    The implications of the drawdown in Afghanistan. This year, 
as the chairman noted, is a crossroads, with the drawdown of 
the International Security Assistance Force (ISAF), the 
presidential election, and whether the BSA is signed. Key to 
sustaining the fragile gains we have made is sustained external 
financial support.
    The deteriorating internal security posture in Iraq, with 
al Qaeda in Iraq (AQI) now in control of Fallujah and violence 
across Iraq at very high levels. More than 5,000 civilians were 
killed in Iraq in 2013, which made that year Iraq's deadliest 
since 2007.
    The growth of foreign cyber capabilities, both nation-
states as well as non-nation-states.
    The proliferation of weapons of mass destruction (WMD).
    Aggressive nation-state intelligence efforts against us.
    An assertive Russia.
    A competitive China.
    A dangerous, unpredictable North Korea.
    A challenging Iran, where the economic sanctions have had a 
profound impact on Iran's economy and have contributed to the 
P5+1 joint plan of action (JPA).
    Lingering ethnic divisions in the Balkans.
    Perpetual conflict and extremism in Africa, particularly in 
Mali, Nigeria, the Central African Republic, and South Sudan.
    Violent political struggles in, among others, Ukraine, 
Burma, Thailand, and Bangladesh.
    The specter of mass atrocities.
    The increasing stress of burgeoning populations.
    The urgent demands for energy, water, and food.
    The increasing sophistication of transnational crime.
    The tragedy and magnitude of human trafficking.
    The insidious rot of invented synthetic drugs.
    The potential for pandemic disease occasioned by the growth 
of drug-resistant bacteria.
    I could go on with this litany, but suffice to say we live 
in a complex, dangerous world. The statements for the record 
that we've submitted, particularly the classified version, 
provide a comprehensive review of these and other daunting 
challenges.
    My second topic is what has consumed extraordinary time and 
energy for much of the past year in the IC, in Congress, in the 
White House, and, of course, in the public square. I'm 
speaking, of course, about potentially the most massive and 
most damaging theft of intelligence information in our history 
by Edward Snowden and the ensuing avalanche of revelations 
published and broadcast around the world.
    I won't dwell on the debate about Snowden's motives or his 
legal standing or on the supreme ironies occasioned by his 
choice of freedom-loving nations and beacons of free expression 
to which he fled and from which he rails about what an 
Orwellian state he thinks his country has become.
    But what I do want to speak to as the Nation's senior 
intelligence officer is the profound damage that his 
disclosures have caused and continue to cause. As a 
consequence, the Nation is less safe and its people less 
secure. What Snowden stole and exposed has gone way, way beyond 
his professed concerns with so-called domestic surveillance 
programs. As a result, we've lost critical intelligence 
collection sources, including some shared with us by valued 
partners.
    Terrorists and other adversaries of this country are going 
to school on U.S. intelligence sources, methods, and 
tradecraft, and the insights they're gaining are making our job 
in the IC much, much harder. This includes putting the lives of 
members or assets of the IC at risk, as well as those of our 
Armed Forces, diplomats, and our citizens. We're beginning to 
see changes in the communications behavior of adversaries, 
particularly terrorists, a disturbing trend which I anticipate 
will continue.
    Snowden for his part claims that he's won and that his 
mission is accomplished. If that's so, I call on him and his 
accomplices to facilitate the return of the remaining stolen 
documents that have not yet been exposed to prevent even more 
damage to U.S. security.
    As a third related point, I want to comment on the ensuing 
fallout. It pains me greatly that the National Security Agency 
(NSA) and its magnificent workforce have been pilloried in the 
public commentary. I started in the intelligence profession 
over 50 years ago in signals intelligence. Members of my 
family, my father, father-in-law, brother-in-law, and wife and 
I have all worked at NSA, so this is deeply personal to me.
    The real facts are, as the President noted in his speech on 
January 17, that the men and women who work at NSA, both 
military and civilian, have done their utmost to protect this 
country and do so in a lawful manner. As I and other leaders in 
the community have said many times, NSA's job is not to target 
the emails and phone calls of U.S. citizens. The agency does 
collect foreign intelligence, the whole reason that NSA has 
existed since 1952, performing critical missions that I'm sure 
the American people want it to carry out.
    Moreover, the effects of the unauthorized disclosures hurt 
the entire IC, not just NSA. Critical intelligence capabilities 
in which the United States has invested billions of dollars are 
at risk, and will likely be curtailed or eliminated, either 
because of compromise or conscious decision. Moreover, the 
impact of the losses caused by the disclosures will be 
amplified by the substantial budget reductions we're incurring.
    The stark consequences of this perfect storm are pretty 
evident. The IC is going to have less capacity to protect our 
Nation and its allies than we've had in the past.
    In this connection, I'm also compelled to note the negative 
morale impact that this perfect storm has had on the IC 
workforce, which are compounded by sequestration, furloughs, 
the shutdown, and salary freezes.
    This leads me to my fourth point: We're thus faced 
collectively--and by ``collectively'' I mean this committee, 
Congress at large, the executive branch, and, most acutely, all 
of us in the IC--with the inescapable imperative to accept more 
risk. It's a plain, hard fact and a circumstance that the 
community must and will manage, together with you and those 
whom we support in the executive branch. If dealing with 
reduced capabilities is what is needed to ensure the faith and 
confidence of the American people and their elected 
representatives, then we in the IC will work as hard as we can 
to meet the expectations before us.
    That brings me to my fifth and final point. The major 
takeaway for us and certainly for me personally from the past 
several months is that we must lean in the direction of 
transparency wherever and whenever we can. With greater 
transparency about these intelligence programs, the American 
people may be more likely to accept them. The President set the 
tone and direction for us in his speech, as well as in his 
landmark Presidential Policy Directive, a major hallmark of 
which is transparency.
    I have specific taskings, in conjunction with the Attorney 
General, to conduct further declassifications, to develop 
additional protections under section 702 of the Foreign 
Intelligence Surveillance Act governing collection of non-U.S. 
persons overseas, to modify how we conduct bulk collection of 
telephone metadata under section 215 of the Patriot Act, and to 
ensure more oversight of sensitive collection activities. 
Clearly, we'll need your support in making these changes.
    Through all of this, we must and will sustain our 
professional tradecraft and integrity, and we must continue to 
protect our crown jewel sources and methods so that we can 
accomplish what we've always been chartered to do, to protect 
the lives of American citizens here and abroad from the myriad 
threats I described in the beginning of this statement.
    With that, I'll conclude my statement and turn it over to 
General Flynn.
    [The prepared statement of Mr. Clapper follows:]
            Prepared Statement by Hon. James R. Clapper, Jr.
                              introduction
    Chairman Levin, Ranking Member Inhofe, members of the committee, 
thank you for the invitation to offer the U.S. Intelligence Community's 
2014 assessment of threats to U.S. national security. My statement 
reflects the collective insights of the Intelligence Community's 
extraordinary men and women, whom I am privileged and honored to lead. 
We in the Intelligence Community are committed every day to provide the 
nuanced, multidisciplinary intelligence that policymakers, warfighters, 
and domestic law enforcement personnel need to protect American lives 
and America's interests anywhere in the world.
    Information available as of January 15, 2014 was used in the 
preparation of this assessment.
                             global threats
Cyber
    Critical Trends Converging
    Several critical governmental, commercial, and societal changes are 
converging that will threaten a safe and secure online environment. In 
the past several years, many aspects of life have migrated to the 
Internet and digital networks. These include essential government 
functions, industry and commerce, health care, social communication, 
and personal information. The foreign threats discussed below pose 
growing risks to these functions as the public continues to increase 
its use of and trust in digital infrastructures and technologies.
    Russia and China continue to hold views substantially divergent 
from the United States on the meaning and intent of international cyber 
security. These divergences center mostly on the nature of state 
sovereignty in the global information environment and states' rights to 
control the dissemination of content online, which have long 
forestalled major agreements. Despite these challenges, the United 
Nations Group of Governmental Experts concluded in a June 2013 report 
that international law and the U.N. Charter apply to cyberspace. This 
conclusion represents a substantive step forward in developing a legal 
framework and norms for cyber security.
    Threat Environment
    We assess that computer network exploitation and disruption 
activities such as denial-of-service attacks will continue. Further, we 
assess that the likelihood of a destructive attack that deletes 
information or renders systems inoperable will increase as malware and 
attacK tradecraft proliferate. Many instances of major: cyber attacks 
manifested themselves at home and abroad in 2013 as illustrated by the 
following examples.

        <bullet> In March 2013, South Korea suffered a sizeable cyber 
        attack against its commercial and media networks, damaging tens 
        of thousands of computer workstations. The attack also 
        disrupted online banking and automated teller machine services. 
        Although likely unrelated to the 2012 network attack against 
        Saudi Aramco, these attacks illustrate an alarming trend in 
        mass data-deletion and system-damaging attacks.
        <bullet> In early 2013, the U.S. financial sector faced wide-
        scale network denial-of-service attacks that became 
        increasingly difficult and costly to mitigate.

    In response to these and similar developments, many countries are 
creating cyber defense institutions within their national security 
establishments. We estimate that several of these will likely be 
responsible for offensive cyber operations as well.
    Russia presents a range of challenges to U.S. cyber policy and 
network security. Russia seeks changes to the international system for 
Internet governance that would compromise U.S. interests and values. 
Its Ministry of Defense (MOD) is establishing its own cyber command, 
according to senior MOD officials, which will seek to perform many of 
the functions similar to thosH of the U.S. Cyber Command. Russian 
intelligence services continue to target U.S. and allied personnel with 
access to sensitive computer network information. In 2013, a Canadian 
naval officer confessed to betraying information from shared top 
secret-level computer networks to Russian agents for 5 years.
    China's cyber operations reflect its leadership's priorities of 
economic growth, domestic political stability, and military 
preparedness. Chinese leaders continue to pursue dual tracks of 
facilitating Internet access for economic development and commerce and 
policing online behaviors deemed threatening to social order and regime 
survival. Internationally, China also seeks to revise the multi-
stakeholder model Internet governance while continuing its expansive 
worldwide program of network exploitation and intellectual property 
theft.
    Iran and North Korea are unpredictable actors in the international 
arena. Their development of cyber espionage or attack capabilities 
might be used in an attempt to either provoke or destabilize the United 
States or its partners.
    Terrorist organizations have expressed interest in developing 
offensive cyber capabilities. They continue to use cyberspace for 
propaganda and influence operations, financial activities, and 
personnel recruitment.
    Cyber criminal organizations are as ubiquitous as they are 
problematic on digital networks. Motivated by profit rather than 
ideology, cyber criminals play a major role in the international 
development, modification, and proliferation of malicious software and 
illicit networks designed to steal data and money. They will continue 
to pose substantial threats to the trust and integrity of global 
financial institutions and personal financial transactions.
    Other Potential Cyber Issues
    Critical infrastructure, particularly the Industrial Control 
Systems and Supervisory Control and Data Acquisition systems used in 
water management, oil and gas pipelines, electrical power distribution, 
and mass transit, provides an enticing target to malicious actors. 
Although newer architectures provide flexibility, functionality, and 
resilience, large segments of legacy architecture remain vulnerable to 
attack, which might cause significant economic or human impact.
    Physical objects such as vehicles, industrial components, and home 
appliances, are increasingly being integrated into the information 
network and are becoming active participants in generating information. 
These ``smart objects'' will share information directly with Internet-
enabled services, creating efficiencies in inventory supervision, 
service-life tracking, and maintenance management. This so-called 
``Internet of Things'' will further transform the role of information 
technology in the global economy and create even further dependencies 
on it. The complexity and nature of these systems means that security 
and safety assurance are not guaranteed and that threat actors can 
easily cause security and/or safety problems in these systems.
    The U.S. health care sector, in particular, is rapidly becoming 
networked in ways never before imagined. As health care services become 
increasingly reliant on the cross-networking of personal data devices, 
medical devices, and hospital networks, cyber vulnerabilities might 
play unanticipated roles in patient outcomes.
    Virtual currencies--most notably Bitcoin--are fast becoming a 
medium for criminal financial transfers through online payment 
companies. In May 2013, Costa Rica-registered Liberty Reserve--no 
longer in operation--processed $6 billion in suspect transactions and 
sought to evade enforcement action by moving funds into shell companies 
worldwide prior to being indicted by U.S. authorities.
    Emerging technologies, such as three-dimensional printing, have 
uncertain economic and social impacts and can revolutionize the 
manufacturing sector by drastically reducing the costs of research, 
development, and prototyping. Similarly, they might also revolutionize 
aspects of underground criminal activity.
Counterintelligence
    Threats posed by foreign intelligence entities through 2014 will 
continue to evolve in terms of scope and complexity. The capabilities 
and activities through which foreign entities--both state and nonstate 
actors--seek to obtain U.S. national security information are new, more 
diverse, and more technically sophisticated.
    Insider Threat/Unauthorized Disclosures
    In addition to threats by foreign intelligence entities, insider 
threats will also pose a persistent challenge. Trusted insiders with 
the intent to do harm can exploit their accHss to compromise vast 
amounts of sensitive and classified information as part of a personal 
ideology or at the direction of a foreign government. The unauthorized 
disclosure of this information to state adversaries, nonstate 
activists, or other entities will continue to pose a critical threat.
    Priority Foreign Intelligence Threats
    Attempts to penetrate the U.S. national decisionmaking apparatus, 
defense industrial base, and U.S. research establishments will persist. 
We assess that the leading state intelligence threats to U.S. interests 
in 2014 will continue to be Russia and China, based on their 
capabilities, intent, and broad operational scope. Sophisticated 
foreign intelligence entities will continue to employ human and cyber 
means to collect national security information. They seek data on 
advanced weapons systems and proprietary information from U.S. 
companies and research institutions that deal with energy, finance, the 
media, defense, and dual-use technology.
Terrorism
    Terrorist threats emanate from a diverse array of terrorist actors, 
ranging from formal groups to homegrown violent extremists (HVEs) and 
ad hoc, foreign-based actors. The threat environment continues to 
transition to a more diverse array of actors, reinforcing the positive 
developments of previous years. The threat complex, sophisticated, and 
large-scale attacks from core al-Qa'ida against the U.S. Homeland is 
significantly degraded. Instability in the Middle East and North Africa 
has accelerated the decentralization of the movement, which is 
increasingly influenced by local and regional issues. However, 
diffusion has led to the emergence of new power centers and an increase 
in threats by networks of like-minded extremists with allegiances to 
multiple groups. The potential of global events to instantaneously 
spark grievances around the world hinders advance warning, disruption, 
and attribution of plots.
    Homeland Plotting
    Homegrown Violent Extremists. U.S.-based extremists will likely 
continue to pose the most frequent threat to the U.S. Homeland. As the 
tragic attack in Boston in April 2013 indicates, insular HVEs who act 
alone or in small groups and mask the extent of their ideological 
radicalization can represent challenging and lethal threats.
    Al Qaeda in the Arabian Peninsula. Operating from its safe haven in 
Yemen, al Qaeda in the Arabian Peninsula (AQAP) has attempted several 
times to attack the U.S. Homeland. We judge that the group poses a 
significant threat and remains intent on targeting the United States 
and U.S. interests overseas.
    Core al Qaeda. Sustained counterterrorism (CT) pressure, key 
organizational setbacks, and the emergence of other power centers of 
the global violent extremist movement have put core al Qaeda on a 
downward trajectory since 2008. They have degraded the group's ability 
to carry out a catastrophic attack against the U.S. Homeland and eroded 
its position as leader of the global violent extremist movement. It 
probably hopes for a resurgence following the drawdown of U.S. troops 
in Afghanistan in 2014.
    Terrorist Activities Overseas
    Persistent Threats to U.S. Interests Overseas. We face an enduring 
threat to U.S. interests overseas. Most Sunni extremist groups will 
prioritize local and regional agendas, but U.S. embassies, military 
facilities, and individuals will be at particular risk in parts of 
South Asia, the Middle East, and Africa.
    Syria's Impact. Syria has become a significant location for 
independent or al Qaeda-aligned groups to recruit, train, and equip a 
growing number of extremists, some of whom might conduct external 
attacks. Hostilities between Sunni and Shia are also intensifying in 
Syria and spilling into neighboring countries, which is increasing the 
likelihood of a protracted conflict.
    Iran and Hizballah are committed to defending the Asad regime and 
have provided support toward this end, including sending billions of 
dollars in military and economic aid, training pro-regime and Iraqi 
Shia militants, and deploying their own personnel into the country. 
Iran and Hizballah view the Asad regime as a key partner in the ``axis 
of resistance'' against Israel and are prepared to take major risks to 
preserve the regime as well as their critical transshipment routes.
    Iran and Hizballah
    Outside of the Syrian theater, Iran and Lebanese Hizballah continue 
to directly threaten the interests of U.S. allies. Hizballah has 
increased its global terrorist activity in recent years to a level that 
we have not seen since the 1990s.
    Counterterrorism Cooperation
    As the terrorist threat is becoming more diffuse and harder to 
detect, cooperation with CT partners will take on even greater 
importance. The fluid environment in the Middle East and North Africa 
will likely further complicate already challenging circumstances as we 
partner with governments to stem the spread of terrorism.
Weapons of Mass Destruction and Proliferation
    Nation-state efforts to develop or acquire weapons of mass 
destruction (WMD) and their delivery systems constitute a major threat 
to the security of the United States, deployed troops, and allies. We 
are focused on the threat and destabilizing effects of nuclear 
proliferation, proliferation of chemical and biological warfare (CBW)-
related materials, and development of WMD delivery systems. The time 
when only a few states had access to the most dangerous technologies is 
past. Biological and chemical materials and technologies, almost always 
dual use, move easily in the globalized economy, as do personnel with 
scientific expertise to design and use them. The latest discoveries in 
the life sciences also diffuse globally and rapidly.
    Iran and North Korea Developing WMD-Applicable Capabilities
    We continue to assess that Iran's overarching strategic goals of 
enhancing its security, prestige, and regional influence have led it to 
pursue capabilities to meet its civilian goals and give it the ability 
to build missile-deliverable nuclear weapons, if it chooses to do so. 
At the same time, Iran's perceived need for economic relief has led it 
to make concessions on its nuclear program through the 24 November 2013 
Joint Plan of Action with the P5+1 countries and the European Union 
(EU). In this context, we judge that 1Iran is trying to balance 
conflicting objectives. It wants to improve its nuclear and missile 
capabilities while avoiding severe repercussions--such as a military 
strike or regime--threatening sanctions. We do not know if Iran will 
eventually decide to build nuclear weapons.
    Tehran has made technical progress in a number of areas--including 
uranium enrichment, nuclear reactors, and ballistic missiles-from which 
it could draw if it decided to build missile-deliverable nuclear 
weapons. These technical advancements strengthen our assessment that 
Iran has the scientific, technical, and industrial capacity to 
eventually produce nuclear weapons. This makes the central issue its 
political will to do so.
    Of particular note, Iran has made progress during the past year by 
installing additional centrifuges at the Fuel Enrichment Plant, 
developing advanced centrifuge designs, and stockpiling more low-
enriched uranium hexafluoride (LEUF6). These improvements have better 
positioned Iran to produce weapons-grade uranium (WGU) using its 
declared facilities and uranium stockpiles, if it chooses to do so. 
Despite this progress, we assess that Iran would not be able to divert 
safeguarded material and produce enough WGU for a weapon before such 
activity would be discovered. Iran has also continued to work toward 
starting up the IR-40 Heavy Water Research Reactor near Arak.
    We judge that Iran would choose a ballistic missile as its 
preferred method of delivering nuclear weapons, if Iran ever builds 
these weapons. Iran's ballistic missiles are inherently capable of 
delivering WMD, and Iran already has the largest inventory of ballistic 
missiles in the Middle East. Iran's progress on space launch vehicles-
along with its desire to deter the United States and ``its allies-
provides Tehran with the means and motivation to develop longer-range 
missiles, including an intercontinental ballistic missile (ICBM).
    We assess that if Iran fully implements the Joint Plan, it will 
temporarily halt the expansion of its enrichment program, eliminate its 
production and stockpile of 20-percent enriched uranium in a form 
suitable for further enrichment, and provide additional transparency 
into its existing and planned nuclear facilities. This transparency 
would provide earlier warning of a breakout using these facilities.
    North Korea's nuclear weapons and missile programs pose a serious 
threat to the United States and to the security environment in East 
Asia, a region with some of the world's largest populations, 
militaries, and economies. North Korea's export of ballistic missiles 
and associated materials to several countries, including Iran and 
Syria, and its assistance to Syria's construction of a nuclear reactor, 
destroyed in 2007, illustrate the reach of its proliferation 
activities. Despite the reaffirmation of its commitment in the Second-
Phase Actions for the Implementation of the September 2005 Joint 
Statement not to transfer nuclear materials, technology, or know-how, 
North Korea might again export nuclear technology.
    In addition to conducting its third nuclear test on 12 February 
2013, North Korea announced its intention to ``adjust and alter'' the 
uses of existing nuclear facilities, to include the uranium enrichment 
facility at Yongbyon, and restart its graphite moderated reactor that 
was shut down in 2007. We assess that North Korea has followed through 
on its announcement by expanding the size of its Yongbyon enrichment 
facility and restarting the reactor that was previously used for 
plutonium production. North Korea has publicly displayed its KNOB road-
mobile ICBM twice. We asseE.s that North Korea has already taken 
initial steps towards fielding this system, although it remains 
untested. North Korea is committed to developing long-range missile 
technology that is capable of posing a direct threat to the United 
States. Its efforts to produce and market ballistic missiles raise 
broader regional and global security concerns.
    Because of deficiencies in their conventional military forces, 
North Korean leaders are focused on deterrence and defense. We have 
long assessed that, in Pyongyang's view, its nuclear capabilities are 
intended for deterrence, international prestige, and coercive 
diplomacy. We do not know Pyongyang's nuclear doctrine or employment 
concepts.
    WMD Security in Syria
    Syria acceded to the Chemical Weapons Convention (CWC) on 14 
October 2013 and is in the preliminary phases of dismantling its 
offensive CW program. Previously, we had assessed that Syria had a 
highly active chemical warfare (CW) program and maintained a stockpile 
of sulfur mustard, sarin, VX, and a stockpile of munitions--including 
missiles, aerial bombs, and artillery rockets--that can be used to 
deliver CW agents. Until the CW materials are completely destroyed or 
removed from country, groups or individuals in Syria might gain access 
to CW-related materials. The United States and its allies are 
monitoring Syria's chemical weapons stockpile through the inspection 
and destruction process of the Organization for the Prohibition of 
Chemical Weapons (OPCW).
    We judge that some elements of Syria's biological warfare (BW) 
program might have advanced beyond the research and development stage 
and might be capable of limited agent production, based on the duration 
of its longstanding program. To the best of our knowledge, Syria has 
not successfully weaponized. biological agents in an effective delivery 
system, but it possesses conventional weapon systems that could be 
modified for biological-agent delivery.
Counterspace
    Threats to U.S. space services will increase during 2014 and beyond 
as potential adversaries pursue disruptive and destructive counterspace 
capabilities. Chinese and Russian military leaders understand the 
unique information advantages afforded by space systems and are 
developing capabilities to disrupt the United States use of space in a 
conflict. For example, Chinese military writings highlight the need to 
interfere with, damage, and destroy reconnaissance, navigation, and 
communication satellites. China has satellite jamming capabilities and 
is pursuing antisatellite systems. In 2007, China conducted a 
destructive antisatellite test against its own satellite. Russia's 2010 
military doctrine emphasizes space defense as a vital component of its 
national defense. Russian leaders openly maintain that the Russian 
armed forces have antisatellite weapons and conduct antisatellite 
research. Russia has satellite jammers and is also pursuing 
antisatellite systems.
Transnational Organized Crime
    Transnational Organized Crime (TOC) is an abiding threat to U.S. 
economic and national security. Criminals can play a significant role 
in weakening stability and undermining the rule of law in some emerging 
democracies and areas of strategic importance to the United States.
    Drug trafficking will remain a major TOC threat to the United 
States. Mexican drug cartels are responsible for high levels of 
violence and corruption in Mexico. Drugs contribute to instability in 
Central America, erode stability in West and North Africa, and remain a 
significant source of revenue for the Taliban in Afghanistan.

        <bullet> Synthetic drugs, notably new psychoactive substances 
        (NPS), pose an emerging and rapidly growing global public 
        health threat. NPS were first reported in the United States in 
        2008 and have emerged in 70 of 80 countries that report to the 
        U.N. Office on Drugs and Crime. Although most global markets 
        for drugs such as cocaine and heroin are stable or declining, 
        the use and manufacture of synthetic drugs are rapidly rising.

    The Department of State's 2013 Trafficking in Persons (TIP) Report 
notes that an estimated 27 million men, women, and children are 
trafficking victims. Virtually every country in the world is a source, 
transit point, and/or destination for individuals being trafficked.
    Worldwide, money laundering totals more than a trillion dollars 
annually. Criminals' reliance on the U.S. dollar exposes the U.S. 
financial system to these illicit financial flows. Financial transfers 
and vehicles designed to obscure beneficial ownership, inadequate and 
uneven anti-money laundering enforcement and regulations, and new forms 
of digital financial services have the potential to undermine the 
international financial system.
    Illicit trade in wildlife, timber, and marine resources constitutes 
an estimated $8-10 billion industry annually, endangers the 
environment, threatens rule of law and border security in fragile 
regions, and destabilizes communities that depend on wildlife for 
biodiversity and ecotourism.
Economic Trends
    Global economic growth rates entered a marked slowdown with the 
global financial crisis that began in 2008. From 2008 to 2013, the 
global growth rate averaged less than 3.0 percent, well below its 30-
year average of 3.6 percent. The lengthy global slowdown has meant 
lower job creation, income growth, and standards of living that many 
came to expect before 2008. Although worldwide economic growth will 
likely strengthen in 2014 to 3.7 percent, it will fall well short of 
its 2004-2007 peak when it averaged 5.1 percent.
    Although emerging and developing economies will continue to grow 
faster than advanced economies, the gap between their respective growth 
rates will probably narrow to 3 percentage points in 2014, its lowest 
level since the cascade of emerging-market financial crises in t11e 
late 1990s and early 2000s. Combined with faster population growth in 
the emerging and developing economies, the pace at which per capita 
incomes in that group converges to those in developed countries is 
slowing considerably, potentially fueling resentment of Western 
leadership on global issues. Growth will probably be particularly slow 
among some of the emerging economies of Central and Eastern Europe, as 
well as Latin America and the Caribbean.
    Stronger economic growth in certain advanced economies might mean a 
general tightening of global monetary conditions in 2014. Although such 
growth will benefit the global economy broadly, higher interest rates 
might pose new challenges to countries that rely heavily on global 
capital markets to service existing debt. Destabilizing outflows of 
international capital from emerging markets to advanced ones are 
possible in response to rising U.S. interest rates and sustained 
recoveries in the United States and Europe. Tighter monetary conditions 
might also increase the risk of deflation in economies with slow 
growth, high unemployment, and low aggregate demand. Numerous European 
countries, in particular, have seen annual inflation rates fall below 
1.0 percent and even intermittent periods of deflation. Such deflation 
might worsen the fragile finances of indebted households, corporations, 
and governments.
    Declines in many commodity prices will probably continue through 
2014. Although the moderation in prices is welcome from the perspective 
of major commodity importers, such as China, India, and Japan, and from 
the humanitarian perspective related to food security, it can pose 
balance-of-payments problems for commodity exporters, such as Brazil, 
Nigeria, Russia, South Africa, and Venezuela, especially those that 
depend on commodity export revenue to finance their governments. 
Forecasts in the past year project global trade volume to grow 
moderately in 2014 at roughly 5 percent; the World Trade Organization 
(WTO) notes that its growth projections are down from earlier in 2013, 
however.
Natural Resources
    Competition for and secure access to natural resources (e.g. food, 
water, and energy) are growing security threats. Rapidly increasing 
unconventional energy production and ample water and agricultural 
resources mitigate the impact of global scarcity on the United States. 
However, many countries important to the United States are vulnerable 
to natural-resource shocks that degrade economic development, frustrate 
attempts to democratize, raise the risk of regime-threatening 
instability, and aggravate regional tensions. Demographic trends, 
especially increasing global population and urbanization, will also 
aggravate the outlook for resources, putting intense pressure on food, 
water, and energy. Extreme weather will increasingly disrupt food and 
energy markets, exacerbating state weakness, forcing human migrations, 
and triggering riots, civil disobedience, and vandalism. Criminal or 
terrorist elements can exploit these weaknesses to conduct illicit 
activity, recruit, and train. Social disruptions are magnified in 
growing urban areas where information technology quickly transmits 
grievances to larger, often youthful and unemployed audiences. 
Relatively small events can generate significant effects across regions 
of the world.
    Food
    Increased global supplies of grain have pushed global food prices 
downward in recent months, easing the risk of a price spike in the 
coming year. However, natural food-supply disruptions, due to weather, 
disease, and government policies, will stress the global food system 
and exacerbate price volatility. Policy choices can include export 
bans, diversions of arable lands for other uses, and land leases to and 
acquisitions by foreigners. Lack of adequate food will be a 
destabilizing factor in countries important to U.S. national security 
that do not have the financial or technical abilities to solve their 
internal food security problems. In other cases, important countries to 
U.S. interests will experience food-related, social disruptions, but 
are capable of addressing them without political upheaval.
    Although food-related, state-on-state conflict is unlikely in the 
next year, the risk of conflict between farmers and livestock owners--
often in separate states--will increase as population growth, 
desertification, and crop expansion infringe on livestock grazing 
areas, especially in sub-Saharan Africa and Central Asia. Shrinking 
marine fisheries--for example, in the South China Sea--will continue to 
spark diplomatic disputes as fishermen are forced to travel farther 
from shore. Terrorists, militants, and international criminals can use 
local food insecurity to promote their own legitimacy and undermine 
government authority. Food and nutrition insecurity in weakly governed 
countries might also provide opportunities for insurgent groups to 
capitalize on poor conditions, exploit international food aid, and 
discredit governments for their inability to address basic needs.
    Water
    Risks to freshwater supplies-due to shortages, poor quality, 
floods, and climate change-are growing. These forces will hinder the 
ability of key countries to produce food and generate energy, 
potentially undermining global food markets and hobbling economic 
growth. As a result of demographic and economic development pressures, 
North Africa, the Middle East, and South Asia particularly will 
particularly face difficulty coping with water problems. Lack of 
adequate water is a destabilizing factor in developing countries that 
do not have the management mechanisms, financial resources, or 
technical ability to solve their internal water problems. Other states 
are further stressed by heavy dependence on river water controlled by 
upstream nations with unresolved water-sharing issues. Wealthier 
developing countries will probably face increasing water-related, 
social disruptions, although they are capable of addressing water 
problems without risk of state failure.
    Historically, water tensions have led to more water-sharing 
agreements than to violent conflicts. However, where water-sharing 
agreements are ignored or when infrastructure development for electric 
power generation or agriculture is seen as a threat to water resources, 
states tend to exert leverage over their neighbors to preserve their 
water interests. This leverage has been applied in international forums 
and has included pressuring investors. nongovernmental organizations, 
and donor countries to support or halt water infrastructure projects. 
In addition, some local, nonstate terrorists or extremists will almost 
certainly target vulnerable water infrastructure in places to achieve 
their objectives and use water-related grievances as recruiting and 
fundraising tools.
    Energy
    Increasing U.S. production of shale gas and tight oil in 
combination with ongoing energy efficiency gains will almost certainly 
provide the United States with a more secure energy future. Decreasing 
reliance on energy imports will reduce the economic impact on the 
United States of disruptions in global energy markets but will not 
insulate the United States from market forces. With a shrinking 
reliance on energy imports, an oil disruption will have a diminished 
impact on the U.S. Gross Domestic Product (GDP), the current account 
deficit, and value of the dollar. The greater availability and lower 
price of natural gas and natural gas liquids will sustain the country's 
competitive edge in petrochemicals and energy-intensive production 
processes. However, some key energy-producing and consuming countries, 
which link U.S. policy interests and energy imports, are concerned that 
greater U.S. oil production will reduce U.S. engagement in the Middle 
East and diminish U.S. protection of critical oil supply routes.
    Oil from deepwater deposits, tight oil, and oil sands will be the 
principal sources of new global oil supplies in 2014 and beyond. Oil 
extraction is trending toward production that is farther offshore in 
deeper waters, which might lead to increasing competition for desirable 
areas. Conventional oil production will continue to supply the majority 
of the world's oil, although discoveries am slowing and prospects for 
new sources are diminishing. However, conventional oil reservoirs also 
have the potential to supply significant increases in oil with the 
improvement of extraction methods. The exploitation of unconventional 
oil resources in the Western Hemisphere has the potential to reduce 
U.S., European, and Asian reliance on imports that pass through 
vulnerable choke points, such as the Straits of Hormuz and Malacca, or 
originate from less stable regions in the Middle East and Africa.
    Extreme Weather Events
    Empirical evidence alone--without reference to climate models--
suggests that a general warming trend is probably affecting weather and 
ecosystems, exacerbating the impact on humans. This warmer atmosphere, 
wetter in some areas, drier in others, is consistent with increasing 
atmospheric concentrations of greenhouse gases. In recent years, local 
food, water, energy, health, and economic security have been 
episodically degraded worldwide by severe weather conditions. These 
include more frequent or intense floods, droughts, wildfires, 
tornadoes, cyclones, coastal high water, and heat waves. Rising 
temperatures, although greater in the Arctic, are not solely a high-
latitude phenomenon. Scientific work in the past few years has shown 
that temperature anomalies during growing seasons and persistent 
droughts have hampered agricultural productivity and extended wildfire 
seasons. In addition, intense storms--including typhoons, hurricanes, 
tornadoes, cyclones, and derechos--when exposed to growing human 
infrastructure, contribute to greater damage and threaten ever-
increasing urban populations and economic development. This trend will 
likely continue to place stress on first responders, nongovernment 
organizations, and militaries that are often called to provide 
humanitarian assistance.
    The Arctic
    Harsh weather and relatively low economic stakes have enabled the 
countries bordering the Arctic to cooperate in pursuit of their 
interests in the region. However, as polar ice recedes, economic and 
security concerns will increase competition over access to sea routes 
and natural resources. Some states see the Arctic as a strategic 
security issue that has the potential to give other countries an 
advantage in positioning in their military forces.
Health Risks
    Health security threats arise unpredictably from at least five 
sources: the emergence and spread of new or reemerging microbes; the 
globalization of travel and the food supply; the rise of drug-resistant 
pathogens; the acceleration of biological science capabilities and the 
risk that these capabilities might cause inadvertent or intentional 
release of pathogens; and adversaries' acquisition, development, and 
use of weaponized agents. Infectious diseases, whether naturally 
caused, intentionally produced, or accidentally released, are still 
among the foremost health security threats. A more crowded and 
interconnected world is increasing the opportunities for human, animal, 
or zoonotic diseases to emerge and spread globally. Antibiotic drug 
resistance is an increasing threat to global health security. Seventy 
percent of known bacteria have now acquired resistance to at least one 
antibiotic, threatening a return to the pre-antibiotic era.
    In addition to the growing threat from resistant bacteria, 
previously unknown pathogens in humans are emerging and spreading 
primarily from animals. Human and livestock population growth results 
in increased human and animal intermingling and hastens crossover of 
diseases from one population to the other. No one can predict which 
pathogen will be the next to spread to humans or when or where this 
will occur. However, humans remain vulnerable, especially when a 
pathogen with the potential to cause a pandemic emerges. For example, 
we judge that the H7N9 influenza in China that emerged from birds in 
early 2013 is not yet easily transmissible from person to person. 
However, it bears watching for its extreme severity, high death rates, 
and potential to mutate and become more transmissible. Between late 
March 2013, when the virus was first recognized, and the following May, 
when it was brought under control, H7N9 influenza killed over 20 
percent of those infected and caused severe disease with long-term 
hospitalization in nearly all other cases. If H7N9 influenza or any 
other novel respiratory pathogen that kills or incapacitates more than 
1 percent of its victims were to become easily transmissible, the 
outcome would be among the most disruptive events possible. 
Uncontrolled, such an outbreak would result in a global pandemic with 
suffering and death spreading globally in fewer than 6 months and would 
persist for approximately 2 years.
    Mass Atrocities
    The overall risk of mass atrocities worldwide will probably 
increase in 2014 and beyond. Trends driving this increase include more 
social mobilization, violent conflict, including communal violence, and 
other forms of instability that spill over borders and exacerbate 
ethnic and religious tensions; diminished or stagnant quality of 
governance; and widespread impunity for past abuses. Many countries at 
risk of mass atrocities will likely be open to influence to prevent or 
mitigate them. This is because they are dependent on Western assistance 
or multilateral missions in their countries. have the political will to 
prevent mass atrocities, or would be responsive to international 
scrutiny. Overall international will and capability to prevent or 
mitigate mass atrocities will likely diminish in 2014 and beyond, 
although support for human rights norms to prevent atrocities will 
almost certainly deepen among some nongovernment organizations. Much of 
the world will almost certainly turn to the United States for 
leadership to prevent and respond to mass atrocities.
                            regional threats
Middle East and North Africa
    Arab Spring
    In the 3 years since the outbreak of the Arab Spring, a few states 
have made halting progress in their transitions away from authoritarian 
rule. Nevertheless, political uncertainty and violence will probably 
increase across the region in 2014 as the toppling of leaders and 
weakening of regimes have unleashed ethnic and sectarian rivalries that 
are propagating destabilizing violence.

        <bullet> In Syria, the ongoing civil war will probably heighten 
        regional and sectarian tensions. Syria has become a proxy 
        battle between Iran and Lebanese Hizballah on one side and 
        Sunni Arab states on the other. Fear of spillover has 
        exacerbated sectarian tensions in Iraq and Lebanon and will add 
        to the unrest. The influx of over 2 million Syrian refugees 
        into neighboring countries will continue to impose hardships, 
        particularly on Jordan and Lebanon.
        <bullet> The turmoil associated with government transitions has 
        prompted political backsliding in some cases, most notably 
        Egypt, where the military ousted the democratically-elected 
        Muslim Brotherhood-dominated government in summer 2013.
        <bullet> Public support for the governments that came to power 
        across the region in 2011 is dissipating, a dynamic which will 
        likely invite renewed unrest, increase the appeal of 
        authoritarian or extremist solutions among Arab publics, and 
        reduce the likelihood of the implementation of needed but 
        unpopular economic reforms.

    The following three regional trends will pose a challenge to U.S. 
interests in the Middle East in 2014 and beyond.

        <bullet> Ungoverned Spaces. The ongoing struggles for new 
        governments in places like Tripoli and Cairo to extend their 
        writ countrywide and worsening internal conflict in Syria have 
        created opportunities for extremist groups to find ungoverned 
        spaces from where they can try to destabilize new governments 
        and prepare attacks against Western interests.
        <bullet> Economic Hardships. Many states in the region are 
        facing economic distress that will not likely be alleviated by 
        current levels of Western aid. The failure of governments in 
        the region to meet heightened popular expectations for economic 
        improvement might prove destabilizing in vulnerable regimes. 
        Gulf States provide assistance only incrementally and are wary 
        of new governments' foreign policies as well as their ability 
        to effectively use outside funds.
        <bullet> Negative Views of the United States. Some of the 
        transitioning governments are more skeptical than before the 
        Arab Spring about cooperating with the United States. They are 
        concerned about protecting sovereignty and resisting foreign 
        interference, which has the potential to hamper U.S. 
        counterterrorism and other efforts to engage transitioning 
        governments. Additionally, the unhappiness of some Arab Gulf 
        States with U.S. policies on Iran, Syria, and Egypt might lead 
        these countries to reduce cooperation with the United States on 
        regional issues and act unilaterally in ways that run counter 
        to U.S. interests.
    Egypt
    The interim Egyptian Government has for the most part completed 
transition tasks on time, but Cairo's crackdown on dissent, including 
designating the Muslim Brotherhood (MB) as a terrorist group, has 
dampened prospects for stability and an inclusive government. Egypt 
faces a persistent threat of militant violence that is directed 
primarily at the state and exploits the interim government's lack of 
control over the Sinai Peninsula. Since 2011, the Sinai has emerged as 
a growing staging ground for militants--including terrorists--to plan, 
facilitate, and launch attacks. The level of protests and militant 
violence probably will not delay Egypt's progress toward legislative 
and presidential elections.
    Syria
    We assess that the Syrian regime and many insurgents believe that 
they can achieve a military victory in the ongoing conflict. However, 
given their respective capabilities and levels of external support, 
decisively altering the course of the conflict in the next 6 months 
will prove difficult for either side.
    President Asad remains unwilling to negotiate himself out of power. 
Asad almost certainly intends to remain the ruler of Syria and plans to 
win a new 7-year term in presidential elections that might occur as 
early as mid-2014.
    Humanitarian conditions in Syria in the next year will almost 
certainly continue to deteriorate. Ongoing fighting is driving internal 
displacement as well as flows of refugees into neighboring countries. 
The UN, as of January 2014, estimated that 9.3 million Syrians are in 
need of humanitarian assistance in the country-including 6.5 million 
internally displaced persons (IDPs)--and that at least 2.4 million 
Syrian registered refugees are in the region out of a July 2012 
population estimate of 22.5 million. International aid agencies 
consistently face challenges accessing parts of Syria because of 
checkpoints, road closures, Syrian Government restrictions, and 
violence.
    Iran
    President Ruhani has heralded a shift in political momentum in Iran 
toward the center, but we do not know whether he heralds a reversal of 
the authoritarian trend in Iranian politics during the past many years. 
Iran's economy will continue to struggle without comprel1ensive 
sanctions relief, which drives Ruhani and his team of technocrats to 
pursue nuclear negotiations. Since his election, Ruhani has had the 
support of the Supreme Leader, which has silenced some conservative 
critics. Hardliners, however, have consistently argued that sanctions 
fatigue will eventually break the international sanctions coalition and 
are wary of Ruhani's engagement with the west, as well as his promises 
of social and political moderation. Ruhani must maintain the backing of 
the Supreme Leader in order to continue to advance his political 
agenda. (Information on Iran's nuclear weapons program and intentions 
can be found above in the section on WMD and Proliferation.)
    Iran will continue to act assertively abroad in ways that run 
counter to U.S. interests and worsen regional conflicts. Iranian 
officials almost certainly believe that their support has been 
instrumental in sustaining Asad's regime in Syria and will probably 
continue support during 2014 to bolster the regime. In the broader 
Middle East, Iran will continue to provide arms and other aid to 
Palestinian groups, Huthi rebels in Yemen, and Shia militants in 
Bahrain to expand Iranian influence and to counter perceived foreign 
threats. Tehran, which strives for a stable Shia-led, pro-Iran 
Government in Baghdad, is concerned about the deteriorating security 
situation in Iraq. Tehran is probably struggling to find the balance 
between protecting Shia equities in Iraq and avoiding overt actions 
that would precipitate greater anti-Shia violence. In Afghanistan, 
Tehran will probably seek its own additional security agreements with 
Kabul, promote pro-Iranian candidates in the 2014 presidential election 
to increase its influence at the expense of the United States, and 
maintain its clandestine aid to Afghan insurgent groups. Iran sees 
rising sectarianism as a dangerous regional development, but we assess 
that Iran's perceived responsibility to protect and empower Shia 
communities will increasingly trump its desire to avoid sectarian 
violence. Hence, Iran's actions will likely do more to fuel rather than 
dampen increasing sectarianism.
    Iraq
    Iraq's trajectory in 2014 will depend heavily on how Baghdad 
confronts the rising challenge from al Qaeda in Iraq (AQI) and manages 
relations with the country's disenfranchised Sunni population. A 
pivotal event will be the national elections slated for 30 April. The 
Sunni population in particular must be convinced that the elections 
will be fair in order to keep them committed to the political process 
and help check Iraq's rising violence.
    Iraq is experiencing an increase in the total number of attacks 
countrywide to levels not observed since the departure of U.S. forces 
in 2011. Although overall level of violence remains far lower than in 
2007, high-profile suicide and vehicle-borne improvised explosive 
device (VBIED) attacks initiated by al Qaeda in Iraq (AQI) in 2013 
returned to 2007-2008 levels, roughly 68 to 80 per month.
    The protracted civil war in Syria is destabilizing Iraq, hardening 
ethno-sectarian attitudes, and raising concerns about the spillover of 
violence. The Syrian conflict has also facilitated a greater two-way 
flow of Sunni extremists between Syria and Iraq that has contributed to 
AQI's increased level of high-profile attacks.
    Yemen
    We judge that Yemen has achieved provisional success in the early 
stages of its transition from the regime of Ali Abdallah Salih. 
However, it still faces threats to its stability from a resurging AQAP 
and disputes over the future structure of the state. The Government of 
Abd Rabbih Mansur al-Hadi has completed an inclusive National Dialogue 
Conference, but the parties have not reached an agreement on how to 
implement the Federal state structure called for by the Dialogue.

        <bullet> The Yemeni military's willingness to sustain pressure 
        on AOAP will be critical to preventing its resurgence.
        <bullet> Yemen's economy has stabilized since Hadi took office 
        in 2012, but substantial foreign assistance will remain 
        important to alleviate the country's serious economic and 
        humanitarian problems.
    Lebanon
    Lebanon in 2014 probably will continue to experience sectarian 
violence among Lebanese and terrorist attacks by Sunni extremists and 
Hizballah, which are targeting each others' interests. The conflict in 
neighboring Syria is the primary driver of the sectarian unrest and 
terrorist attacks in Lebanon; already this year, sectarian fighting and 
political assassinations in Tripoli, Beirut, and Sidon have killed more 
than a hundred Lebanese. Increased frequency and lethality of violence 
in Lebanon could erupt into sustained and widespread fighting.

        <bullet> Hizballah's secretary general, Hasan Nasrallah, has 
        framed the conflict as an act of self-defense against Western-
        backed Sunni extremists who he claimed would target all 
        Lebanese if the Asad regime fell.
        <bullet> Sunni extremists have conducted multiple bombings in 
        Beirut in 2013 and early 2014 in the Shia-dominated areas of 
        southern Beirut that killed 75 and injured more than 500 
        people. Sunni extremists claimed responsibility for the suicide 
        bombings in November 2013 against the Iranian Embassy in 
        Beirut.
        <bullet> Sunni Salafist leaders are calling for supporters to 
        back the Syrian opposition, which threatens to escalate 
        sectarian tensions.

    Lebanon is facing increased challenges in coping with the 
continuing influx of numerous Syrian refugees. As of early January 
2014, over 800,000 Syrian refuges were residing in Lebanon--roughly 25 
percent of Lebanon's population prior to the Syrian conflict. Syrian 
refugees are straining Lebanon's fragile economy and burdening its weak 
healthcare and education systems. Refugees almost certainly will not 
return to Syria, given the continued violence and lack of economic 
prospects.
    Libya
    Nearly 3 years since the revolution that toppled Qadhafi, Libya's 
political, economic, and security landscape is fragmented and its 
institutions are weak, posing an ongoing threat to stabHity and 
cohesion of the Libyan state. Libya's democratically-elected government 
struggles to address the many competing challenges that threaten to 
undermine the transition.

        <bullet> Efforts by various regional, minority, and tribal 
        groups to seek redress of grievances through violence and 
        disruption of oil facilities are weakening national cohesion.
        <bullet> Since the end of the revolution, federalist groups 
        have declared autonomy for the east or south at least four 
        times. The Federalist-led takeover of eastern oil facilities in 
        July 2013 has been the most sustained and aggressive pursuit of 
        self-rule.
        <bullet> Libya's numerous quasi-governmental militias often 
        demonstrate little loyalty to Tripoli and challenge central 
        government authority.
        <bullet> The terrorist threat to Western and Libyan Government 
        interests remains acute, especially in the east of the country, 
        where attacks against government officials and facilities occur 
        nearly daily. Regional terrorist organizations exploit Libya's 
        porous borders and massive amounts of loose conventional 
        weapons, further destabilizing the country and the Maghreb and 
        Sahel region.
        <bullet> To the benefit of the government, most Libyans oppose 
        violence by Federalists, militias, and extremists and generally 
        support government efforts to usher in a successful democratic 
        transition, including the drafting of a constitution and 
        holding elections for Libya's first post-revolution permanent 
        government.
    Tunisia
    Tunisia's long-suppressed societal cleavages and security and 
economic challenges will remain impediments to the country's political 
transition in 2014. The political environment since the ouster of 
President Ben Ali in 2011 has exposed sharp divisions over the role of 
religion in the state and the separation of powers. However, the 
Constituent Assembly's late January 2014 passage of a new constitution 
by a wide majority suggests an increased willingness among the parties 
to compromise.
South Asia
    Afghanistan
    The status of the Bilateral Security Agreement (BSA) remains 
unresolved despite its endorsement by Afghan leaders during the mid-
November 2013 Loya Jirga. Regardless of the status of the BSA, the 
bilateral relationship still might be strained if Afghan officials 
believe that U.S. commitments to Afghanistan fall short of their 
expectations.

        <bullet> The International Monetary Fund (IMF) estimated that 
        Afghanistan's GDP growth rate fell from 12 percent in 2012 to 
        3.1 percent in 2013. It forecasts 4 to 6 percent growth in 2014 
        and beyond, largely because of reduced ISAF spending.

    Afghan elections in 2014 will be an important step in Afghanistan's 
democratic development. President Karzai has stated that he will step 
down after the election; eleven candidates are currently competing to 
succeed him.
    The Taliban, confident in its ability to outlast ISAF and committed 
to returning to power, will challenge government control over some of 
the Pashtun countryside, esp13cially in the south and east. The Taliban 
senior leadership will maintain a structured and resilient leadership 
system. The Afghan National Security Forces (ANSF), however, will 
probably maintain control of most major cities as long as external 
financial support continues.
    Pakistan
    Prime Minister Nawaz Sharif's primary focus will be on improving 
the economy, including the energy sector, and countering security 
threats. Sharif probably won the May 2013 election primarily because 
the previous government failed to improve either the economy or the 
generation of electricity.
    Islamabad secured an IMF program in September 2013. Pakistan 
satisfied IMF conditions for fiscal and energy reforms under its 3-
year, $6.7 billion Extended Fund Facility, paving the way for a second 
disbursement of $550 million in December. However, continued use of 
scarce foreign exchange Reserves by the State Bank of Pakistan (SBP) to 
prop up the Pakistani rupee might make future disbursements difficult.
    Sharif seeks to acquire a more central policymaking role for 
civilians in areas that the Army has traditionally dominated. His push 
for an increased role in foreign policy and national security will 
probably test his relationship with the new Chief of Army Staff (COAS), 
particularly if the Army believes that the civilian government's 
position impinges on Army interests. However, Sharif has publicly 
stated that the Army and the civilian government are ``on the same 
page.''
    Islamabad wants good relations with the United States, but 
cooperation with Washington will continue to be vulnerable to strains, 
particularly due to Pakistani sensitivities toward perceived violations 
of sovereignty.

        <bullet> Prime Minister Sharif entered office seeking to 
        establish good relations with the United States, especially in 
        areas that support his primary domestic focus of improving the 
        economy. Sharif and his advisers were pleased with his late 
        October 2013 visit to Washington. Pakistan was eager to restart 
        a ``strategic dialogue'' and its officials and press have 
        touted results of the initial meetings of several of the five 
        working groups that comprise the dialogue.
        <bullet> Sharif also seeks rapprochement with New Delhi in part 
        in anticipation of increased trade, which would be beneficial 
        to Pakistan's economic growth. Sharif will probably move 
        cautiously to improve relations, however, and India also will 
        probably not take any bold steps, particularly not before the 
        Indian elections in spring 2014.
    India
    In this election year in particular, coalition politics and 
institutional challenges will remain the primary drivers of India's 
economic and foreign policy decisionmaking. Any future government 
installed after the 2014 election will probably have a positive view of 
the United States, but future legislation or policy changes that are 
consistent with U.S. interests is not assured.

        <bullet> Coalition politics will almost certainly dominate 
        Indian governance. Since the 1984 national elections, no party 
        has won a clear majority in the lower house of Parliament. We 
        judge that this trend will continue with the 2014 election, and 
        the proliferation of political parties will further complicate 
        political consensus building.
        <bullet> In 2014, India will probably attain a 5 percent 
        average annual growth rate, significantly less than the 8 
        percent growth that it achieved from 2005 to 2012 and that is 
        needed to achieve its policy goals.

    India shares U.S. objectives for a stable and democratic Pakistan 
that can encourage trade and economic integration between South and 
Central Asia. We judge that India and Pakistan will seek modest 
progress in minimally controversial areas, such as trade, while 
probably deferring serious discussion on territorial disagreements and 
terrorism.
    India will continue to cooperate with the United States on the 
future of Afghanistan following the drawdown of international forces. 
India also shares concerns about a resurgent Taliban in Afghanistan, 
seeing it as a long-term security threat and source of regional 
instability.
    India and China have attempted to reduce longstanding border 
tensions through confidence-building measures, such as holding the 
first bilateral military exercise in 5 years in November 2013 and 
signing a Border Defense Cooperation Agreement during Prime Minister 
Singh's visit to China in October 2013. However, mutual suspicions will 
likely persist.
Sub-Saharan Africa
    Sub-Saharan Africa will almost certainly see political and related 
security turmoil in 2014. The continent has become a hothouse for the 
emergence of extremist and rebel groups, which increasingly launch 
deadly asymmetric attacks, and which government forces often cannot 
effectively counter due to a lack of capability and sometimes will. 
Additionally, a youth bulge will grow with unfulfilled economic 
expectations and political frustrations; conflict will increase for 
land and water resources; and strengthening transnational criminal 
networks will disrupt political and economic stability.
    The Sahel
    Governments in Africa's Sahel region--particularly Chad, Niger, 
Mali, Mauritania--are at risk of terrorist attacks, primarily as 
retribution for these countries' support to the January 2013 French-led 
international military intervention in Mali. Additionally, this region 
faces pressure from growing youth populations and marginalized ethnic 
groups frustrated with a lack of government services, few employment 
opportunities, and poor living standards. Limited government 
capabilities, corruption, illicit economies, smuggling, and poor 
governance undercut development and the region's ability to absorb 
international assistance and improve stability and security, which 
would impede terrorists' freedom of movement.
    Somalia
    In Somalia, al-Shabaab is conducting asymmetric attacks against 
government facilities and western targets in and around Mogadishu. The 
credibility and effectiveness of the young Somali Government will be 
further threatened by persistent political infighting, weak leadership, 
ill-equipped government institutions, and pervasive technical, 
political, and administrative shortfalls.
    East Africa
    Security has increased and ongoing counterterrorism and policing 
partnerships with western nations have strengthened in the wake of the 
September 2013 attack by al-Shabaab-affiliated extremists at the 
Westgate shopping mall in Nairobi, Kenya. Nevertheless, East African 
Governments will have difficulty protecting the wide range of potential 
targets. Al-Shabaab-associated networks might be planning additional 
attacks in Kenya and throughout East Africa, including in Burundi, 
Djibouti, Ethiopia, and Uganda, to punish those countries that deployed 
troops to Somalia in support of its government.
    Sudan and South Sudan
    Sudan's President Bashir and the National Congress Party (NCP) will 
almost certainly confront a range of challenges, including public 
dissatisfaction over economic decline and insurgencies on Sudan's 
periphery. Sudanese economic conditions since South Sudan's 
independence in 2011 continue to deteriorate, including rising prices 
on staple goods, which fuel opposition to Bashir and the NCP. Khartoum 
will likely resort to heavy-handed tactics to prevent resulting 
protests from escalating and to contain domestic insurgencies. The 
conflicts in the Darfur region and in Southern Kordofan and Blue Nile 
states (the ``Two Areas'') will likely continue. Sudan will likely 
continue an offensive military campaign in the Two Areas that will lead 
to increased displacement and the continued denial of humanitarian 
access in the area. Darfur will likely remain unstable as militia 
forces and the government continue to skirmish, and as internal 
fighting among local armed groups, general banditry, and insecurity 
rise.
    South Sudan will almost certainly continue to face ethnic conflict, 
resource constraints, and rampant corruption in 2014. Widespread 
clashes across South Sudan that began in late 2013 will make economic 
recovery difficult. Without a cessation of hostilities and a stable 
peace process, Juba will also struggle to rebound in 2014 because 
international partners will be more reluctant to invest after the 
emergency evacuation of foreign diplomats in December 2013 and an 
increasingly precarious security environment across the country. 
Additionally, President Kiir will likely continue his authoritarian 
approach to running the country and dealing with opposition groups; any 
peace process will likely be slow and continue despite continued 
attacks by anti-government forces. Ethnic conflict in Jonglei will 
likely continue as the South Sudanese military faces internal divisions 
and threats from multiple rebel groups. We assess that Juba will 
continue to rely on assistance from the international community, but 
might lose donor funding following its heavy-handed approach to 
suppressing political opposition groups in late 2013 and it might be 
conditioned on any peace process. The oil fields, South Sudan's main 
source of revenue, might be threatened by anti-government forces, 
thereby decreasing or halting production. The South Sudanese Government 
will also struggle to govern regions outside of the capital and provide 
basic public goods. South Sudan's economy suffered significant setbacks 
after Juba shut down oil production early in 2012.
    Nigeria
    Rising political tensions and violent internal conflict are likely 
in the leadup to Nigeria's 2015 election; protests and upheaval, 
especially in northern Nigeria, are likely in the event of President 
Goodluck Jonathan's re-election. Nigeria faces critical terrorism 
threats from Boko Haram and persistent extremism in the north, 
simmering ethno-religious conflict in communities in central Nigeria's 
``Middle Belt,'' and militants who are capable of remobilizing in the 
Niger Delta and attacking the oil industry. Unless Abuja adopts a 
comprehensive counterinsurgency strategy, military and security forces 
will be in a reactive security posture and have limited ability to 
anticipate and preempt threats. Southern Nigeria's economy, centered in 
Lagos, is among the fastest growing in the world but presents a sharp 
contrast to northern Nigeria, where stagnation and endemic poverty 
prevail amid insecurity and neglect. Given these domestic challenges, 
Nigeria's ability to project leadership across Africa and deploy 
peacekeepers will probably decrease from what it had in past years.
    Central African Republic
    Civilian casualties and humanitarian needs in the Central African 
Republic (CAR) have been severe since the overthrow of former President 
Bozize in early 2013 by rebel forces from the largely Muslim northeast. 
Communal conflict-largely along Muslim-Christian lines-has included 
formation of Christian militias, reprisal killings, atrocities, burning 
of homes, and destruction of religious sites across the country. The 
former rebels have used their de facto political authority to violently 
monopolize the country's most lucrative resources and territory, 
eroding CAR's historically peaceful Muslim-Christian relations. New 
interim President Samba Panza is a more unifying figure, but the 
government has almost no presence outside the capital and much of the 
country has devolved into lawlessness. In December 2013, the U.N. 
Security Council authorized an African Union peacekeeping force, 
supported by French forces, to restore security and public order and 
stabilize the country.
    Democratic Republic of the Congo
    Conflict in the eastern part of the Democratic Republic of the 
Congo has abated somewhat since the Rwandan-backed M23 rebels suffered 
a series of setbacks in 2013, gradually losing materiel support from 
Rwanda and control of its territorial strongholds. The conflict ended 
with M23's military defeat and the signing of an agreement with the DRC 
government in December 2013. We judge that M23 will probably not 
reconstitute and pose a significant threat to stability in Congo in 
2014 without a substantial influx of troops and other military support 
from an external partner. However, Rwanda will probably consider 
supporting other armed groups in Congo to secure areas along the 
border, threatening attempts by the Congolese Government and U.N. 
forces to consolidate control of the territory. Other armed groups, 
such as the Allied Democratic Forces and the Democratic Forces for the 
Liberation of Rwanda, continue to pose significant risks to civilians 
and contribute to instability and violence.
    Lord's Resistance Army
    Pursuit operations of the African Union Regional Task Force in 
central Africa, enabled by U.S. military assistance, has the Lord's 
Resistance Army (LRA) on the run and in survival mode, hindering LRA's 
recruiting and training. Increased cooperation between partners has 
facilitated information sharing and, combined with other efforts, 
enabled an increased operational tempo, leading to a significant number 
of defections. LRA still raids settlements in the Democratic Republic 
of the Congo and CAR and periodically abducts civilians. LRA leader 
Joseph Kony is often on the move and has long been able to elude 
capture. Getting a ``fix'' on his location will remain difficult in 
this very remote part of the world.
East Asia
    China
    Chinese leaders will try to focus primarily on domestic priorities 
during 2014 while leveraging China's growing influence in the region. A 
new generation led by Xi Jinping is in place and its ambitious policy 
agenda is coming into focus: accelerate economic reforms, make 
governance more efficient and accountable, and tighten Communist Party 
discipline.
    China will probably continue its increasingly proactive approach to 
maritime disputes, including a hardline stance toward Japan over the 
Senkaku Islands. More broadly, China's growing confidence, new 
capabilities, and other perceived challenges to China's interests or 
security will drive Beijing to pursue a more active foreign policy.

        <bullet> Growing regional competition in territorial disputes 
        and competing nationalist fervor increase the risk of 
        escalation and constrain regional cooperation. Sovereignty 
        concerns and resurgent historical resentments will generate 
        friction and occasional incidents between claimants in the East 
        and South China Seas and slow or stall bilateral or 
        multilateral efforts to resolve the disputes.

    Beijing has highlighted its pursuit of a ``new type of major power 
relations'' with Washington, but China is simultaneously working at 
least indirectly to counterbalance U.S. influence. Within East Asia, 
Beijing seeks to fuel doubts about the sustainability of the U.S. 
``rebalance'' and Washington's willingness to support its allies and 
partners in the region.
    China is pursuing a long-term comprehensive military modernization 
designed to enable its armed forces to achieve success on a 21st 
century battlefield. China's military investments favor capabilities 
designed to strengthen its nuclear deterrent and strategic strike 
options, counter foreign military intervention in a regional crisis, 
and provide limited, albeit growing, capability for power projection. 
During 2013, the People's Liberation Army (PLA) introduced advanced 
weapons into its inventory and reached milestones in the development of 
key systems. China's first domestically developed heavy transport 
plane, the Y-20, successfully conducted its initial test flight. 
Additionally, China has continued to develop multiple advanced 
ballistic and cruise missiles.

        <bullet> Developments in PLA capabilities support an expansion 
        of operations to secure Chinese interests beyond territorial 
        issues. For example, China is pursuing more effective 
        logistical support arrangements with countries in the Indian 
        Ocean region.
        <bullet> Elements from China's army, navy, air force, and 
        strategic missile forces from multiple military regions 
        participated in Mission Action 2013 in September and October 
        2013. The exercise included two large-scale amphibious landings 
        and coordinated long-range air force and naval air operations 
        in a maritime environment.
    North Korea
    Two years after taking the helm of North Korea, Kim Jong Un has 
further solidified his position as unitary leader and final decision 
authority. He has solidified his control and enforced loyalty through 
personnel changes and purges. The most prominent was the ouster and 
execution of his uncle, Jang Song Thaek in December 2013. Kim has 
elevated the profile of the Workers' Party of Korea (WPK) through 
appointments of party operatives to key leadership positions and the 
convening of party conferences and plenums. Kim and the regime have 
publicly emphasized his focus on improving the country's troubled 
economy and the livelihood of the North Korean people while maintaining 
the tenets of a command economy. He has codified this approach via his 
dual-track policy of economic development and advancement of nuclear 
weapons. (Information on North Korea's nuclear weapons program and 
intentions can be found above in the section on WMD and Proliferation.)
Russia and Eurasia
    Russia
    Putin's 2012-2013 crackdown on the opposition defused the popular 
challenge to his hold on power; however, the Kremlin confronts a 
growing trend of opposition politicians taking their fight to the local 
ballot box. This trend was illustrated by the consolidation of support 
in Moscow around a single opposition leader-Aleksey Navalnyy--who 
finished second in Moscow's mayoral election in September 2013.
    The Kremlin also faces a rise in ethno-religious tensions--as 
underscored by the October 2013 riot in the outskirts of Moscow--which 
will probably grow as the Muslim population in Russia increases. Moscow 
must balance an increasing immigrant Muslim population needed to offset 
its shrinking labor pool against growing nationalist sentiment among 
the ethnic Russian population.
    In February 2014, Russia will host the Winter Olympics in the Black 
Sea resort of Sochi--an area bordering the turbulent North Caucasus 
region where Russian security forces have battled a local insurgency 
for the past 20 years. We have seen an increase in threat reporting 
just prior to the Olympics, which is not unusual for a major 
international event, and have offered assistance to the Russian 
Government.
    Putin's claim to popular support and legitimacy as head of the 
Russian state has rested in part on a record of economic growth and the 
promise of stability, increasing prosperity, and relative personal 
freedom. The Organization for Economic Cooperation and Development 
(OECD) projects that the Russian economy will grow by 2.3 percent in 
2014, putting at risk a number of ambitious Kremlin projects--including 
the $700 billion defense modernization plan, the 2018 World Cup, and 
social welfare enhancements pledged by Putin during his 2012 election 
campaign.
    Moscow has hailed its CW initiative in Syria as a major foreign 
policy accomplishment. It positions Russia to play a major role in any 
future settlement of the Syrian conflict and adds legitimacy to the 
Syrian regime. Russia also will almost certainly continue to seek to 
fill the vacuum it believes is developing between the United States and 
Egypt.
    The campaign to keep Ukraine from signing an Association Agreement 
(AA) with the European Union (EU) underscores the importance the 
Kremlin continues to attach to its goal of Eurasian integration. Russia 
will have to compete for influence with the EU in the West and 
increasingly with China in Central Asia; both will pose challenges to 
its pursuit of Eurasian integration.
    The bilateral relationship with the United States will remain a 
priority for Russian foreign policy. We assess that Russia will 
continue its engagement with the United States on issues that address 
its priorities--Syrian CW as well as Afghanistan, Iran, and North 
Korea.
    The Russian military remains a symbol of Russia's national power. 
Following measured improvements to its capabilities in the past year, 
it is setting its sights on the long-term challenges of 
professionalization and rearmament. The new leadership that assumed 
command of the military last November has made many tactical 
adjustments to the sweeping reforms the military enacted in 2008, but 
has largely kept the military on the same strategic trajectory.
    The military, in the past year, has taken an increasingly prominent 
role in out-of-area operations, most notably in the eastern 
Mediterranean but also in Latin America, the Arctic, and other regions, 
a trend that will probably continue. Moscow is negotiating a series of 
agreements that would give it access to military infrastructure across 
the globe. These bases are generally intended to support ``show the 
flag'' and ``presence'' operations that do not reflect wartime missions 
or a significant power projection capability.
    The Caucasus and Central Asia
    Georgia's new political leaders have inherited pressing domestic 
and foreign policy problems amid high public expectations for progress. 
The economy, which has slowed since the Georgian Dream Coalition was 
elected in October 2012, will be an area of greatest immediate concern. 
The new government will also continue to balance a series of high-
profile legal cases against former government officials for past 
abuses. The cases, while popular inside Georgia, have generated 
concerns of political retribution abroad and risk polarizing Georgian 
politics. Tensions with Russia have eased over the past year, 
decreasing the risk of renewed conflict. Progress nonetheless remains 
unlikely on the core disputes between Tbilisi and Moscow.
    The standoff between Armenia and Azerbaijan over Nagorno-Karabakh 
and adjacent territories will remain a potential flashpoint. Neither 
side will see advantages in deliberately renewing hostilities, but 
prospects for peaceful resolution are also dim. Azerbaijan is willing 
to bide its time and wait for stronger economic growth to enable 
increased military spending to give it a decisive advantage. Armenia 
has a strong interest in maintaining the status quo because ethnic 
Armenians already control the separatist region of Nagorno-Karabakh and 
much of the surrounding territory. Nevertheless, the close proximity of 
opposing military forces and recurring ceasefire violations alon#J the 
Line of Contact (LOC) continue to pose a risk of miscalculation.
    Central Asia continues to host U.S. supply lines that support 
operations in Afghanistan, and its leaders remain concerned about 
regional instability after the coalition drawdown in 2014. Central 
Asian militants fighting in Afghanistan and Pakistan will likely 
continue to pose a threat, but sources of potential internal 
instability in Central Asia will probably remain more acute than 
external threats. Unclear political succession plans, endemic 
corruption, weak economies, ethnic tensions, and political repression 
are long-term sources of instability in Central Asia. Relations among 
the Central Asian states remain tense due to personal rivalries and 
disputes over water, borders, and energy. However, Central Asian 
leaders' focus on internal control reduces the risk of interstate 
conflict in the region.
    Ukraine, Moldova, and Belarus
    As Ukraine heads toward the presidential election scheduled to take 
place in 2015, political developments in Ukraine probably will continue 
to be shaped by opposition and public anger over the Yanukovych 
administration's abuse of power, the need for Yanukovych to maintain 
the loyalty of key elites, and his efforts to balance Ukraine's 
relationship with Russia and the West. Political developments in 
Ukraine will increasingly be shaped by public protests over 
Yanukovych's refusal to sign the Association Agreement (AA) and the 
presidential election scheduled to take place in 2015. Yanukovych 
backed away from signing the AA with the EU at the Eastern Partnership 
Summit in November 2013, probably because Moscow offered the only 
option for immediate financial support to avert a financial crisis that 
would threaten his reelection bid. Firmly intent on maintaining his 
hold on power, Yanukovych will probably resort to coercion, extralegal 
means, and other tactics to tilt the playing field in his favor and 
ensure his reelection, threatening a further erosion of democratic 
norms.
    The first tranche of Russia's $15 billion aid package that Kyiv and 
Moscow signed in December will allow Kyiv to stave off a fiscal crisis 
in the short term but risks increasing Ukraine's economic dependence on 
Moscow. Russia's aid package removes incentives for Kyiv to enact 
painful economic reforms necessary to spur growth, and the ambiguous 
terms of the bailout leave Kyiv more vulnerable to Russian pressure, 
particularly on energy issues.
    Moldova will continue to try to deepen its integration with the EU. 
Chisinau initialed an Association Agreement with the EU at the EU 
Eastern Partnership Summit in November 2013. It is working to formalize 
the AA, its associated free trade agreement, and an EU visa 
liberalization agreement before the scheduled November 2014 
parliamentary election. However, both the EU and Moldova still need to 
sign the AA for it to come into full force. Moldova's pro-European 
coalition government suffers from low approval ratings after a series 
of political scandals and coalition infighting; its loss to the 
opposition CommunistParty in the upcoming parliamentary election could 
delay or derail the country's EU integration course. A settlement of 
Moldova's conflict with its separatist region of Transnistria is highly 
unlikely during 2014 as they remain far apart on key issues and show no 
real willingness to compromise. Transnistria and its primary political 
and financial backer Russia oppose Moldova's EU integration; they also 
have little interest in resolving the ongoing conflict becausH that 
would remove a key obstacle to Moldova's European integration and risk 
reducing the influence Russia retains over Moldova.
    In Belarus, the Lukashenko regime has managed to obtain the 
acquiescence of the Belarusian public, thanks largely to his regime's 
clampdown on civil society and also to Russian largesse which has 
enabled relatively stable standards of living. Lukashenko has done so 
despite a structurally flawed, centralized economy that leaves Minsk 
perpetually on the edge of economic crisis and in need of foreign 
financial assistance to stay afloat. Lukashenko's economic model has 
become increasingly unsustainable since his regime's crackdown on mass 
protests following the presidential election in December 2010. 
Continued repression of civil society has left him increasingly 
isolated from the West and with decreased leverage to resist Moscow's 
economic conditions.
Latin America and The Caribbean
    Haiti
    Stability in Haiti will remain fragile due to extreme poverty and 
weak governing institutions. Meaningful long-term reconstruction and 
development in Haiti will need to continue for many years. Haiti 
remains vulnerable to setbacks in its reconstruction and development 
goals due to the possibility of natural disasters. Food insecurity, 
although improving, also has the potential to be a destabilizing 
factor. Periods of political gridlock have resulted due to distrust 
between President Michel Martelly, in office since May 2011, and 
opponents in Parliament. Martelly is generally still popular, but 
politically organized protests, possibly violent, might occur before 
the elections, scheduled for 2014.
    During the next decade, Haiti will remain highly dependent on 
assistance from the international community for security, in particular 
during elections. Donor fatigue among contributors to the U.N. 
Stabilization Mission in Haiti (MINUSTAH), however, will likely lead to 
reductions in force, evident by the 2013 mandate which calls for 
consolidating and downsizing forces. Although the Haitian National 
Police is making progress on its plans to increase force size from 
10,000 in 2011 to 15,000 by 2016, the larger force will probably still 
need support from MINUSTAH to provide for its own security.
    Central America
    Central America's northern tier countries--El Salvador, Guatemala, 
and Honduras--will likely struggle to overcome the economic and 
security problems that plague the region. All three countries are 
facing debt crises and falling government revenues because of slow 
economic growth, widespread tax evasion, and large informal economies. 
Entrenched political, economic, and public-sector interests resist 
reforms. Domestic criminal gangs and transnational organized crime 
groups, as well as Central America's status as a major transit area for 
cocaine from source countries in South America, are fueling record 
levels of violence in the region. Regional governments have worked to 
improve citizen security but with little-to-moderate success.

        <bullet> The gang truce in effect in El Salvador since March 
        2012 has reduced the homicide rate there, mostly among gang 
        members. However, other crimes such as kidnappings, robberies, 
        and extortion are undermining security for many citizens.
        <bullet> Guatemala still has one of the world's highest murder 
        rates despite lessened impunity for violent crimes during the 
        past several years. Many areas of the country, particularly 
        along the borders, are under the direct influence of drug 
        traffickers.
        <bullet> The homicide rate in Honduras remains the highest in 
        the world. New Honduran President Juan Orlando Hernandez will 
        likely prioritize security policy and seek to build a coalition 
        within the divided legislature to push his economic reform 
        agenda. However, weak governance, widespread corruption, and 
        debt problems will limit prospects for a turnaround.
Europe
    Key Partnerships
    Ongoing U.S.-EU Transatlantic Trade and Investment Partnership 
(TTIP) negotiations, European Parliament (EP) elections, the withdrawal 
of allied forces from Afghanistan, and new leadership in the EU and 
NATO will create new dynamics in the transatlantic partnership in 2014.

        <bullet> Europeans likely recognize the need to isolate the 
        TTIP negotiations from the other issue areas. The TTIP has high 
        potential for generating economic growth for both the United 
        States and Europe and for reinforcing the transatlantic link. 
        However, data privacy will probably become a political issue in 
        the runup to the May 2014 EP elections; some opponents of TTIP 
        might use the unauthorized disclosures of NSA information as 
        political cover for their opposition to the TTIP.
        <bullet> The NATO Summit in September 2014 will be an 
        opportunity to reinforce NATO's purpose, as well as announce a 
        new Secretary General.
        <bullet> Radical nationalist and populist political parties are 
        gaining ground in several western and central European 
        countries and will probably do well in the May 2014 EP 
        elections. In November 2013, two far-right parties--the Dutch 
        Freedom Party and France's Front National-announced that they 
        would cooperate in the EP elections and hope to form a new 
        Euroskeptic bloc, probably linking up with similar parties in 
        Central Europe. Public fears over immigration and Islam, 
        alienation from EU policies, and perceptions that centrist 
        parties are unable to deal with high unemployment and income 
        inequalities will increase the resonance of the rhetoric of 
        far-right and far-left radical parties.

    Imbalances in the euro zone and slow economic growth in Europe are 
changing the political economy in Europe, potentially spurring support 
for nationalist and populist political parties.
    Turkey
    Turkey's foreign and security policy will be shaped by domestic 
events, especially the ongoing corruption scandal. Furthermore, the 
ruling Justice and Development Party (AKP), led by Prime Minister 
Erdogan, will be in election mode for municipal and presidential 
elections in 2014 and parliamentary elections in early 2015. The 
corruption allegations initiated in December 2013, allegedly by 
elements within the AKP associated with Muslim cleric Fetullah Gulen, 
represent the greatest challenge to Erdogan. Ankara will continue to 
pursue foreign policy objectives that maximize economic advantage for 
Turkey while proceeding with caution on issues that could alienate 
Turkey's nationalist voters. Erdogan's pursuit of a peace deal with the 
Turkish-Kurdish terrorist group Kurdistan People's Congress (KGK, 
formerly PKK) also risks antagonizing Turkish nationalists and 
neighboring governments. Erdogan is pursuing a multifaceted strategy of 
promoting domestic reforms and engaging the Kurds to end the armed KGK 
insurgency in Turkey. The protracted Syrian conflict is generating an 
increased extremist presence in Turkey, the primary transit country for 
foreign militants seeking to join the fight in Syria. It is also 
raising the potential for unsanctioned or opportunistic attacks by 
supporters of the Bashir al-Asad regime.
    The Western Balkans
    Despite many positive developments in the Western Balkans in 2013, 
the region in 2014 will continue to be characterized by deep ethnic and 
political divisions. The situation in Bosnia-Herzegovina (BiH) and 
ethnic cleavages in Macedonia are particularly volatile.

        <bullet> In Bosnia-Herzegovina, different interpretations of 
        the political framework, based on the 1995 Dayton Accords, as 
        well as efforts by Bosniak, Croat, and Serb leaders to maintain 
        control over their political and ethnic fiefdoms will continue 
        to undermine BiH's central state institutions. Elections in 
        2014 will not likely bridge these differences, diminishing 
        hopes for BiH's Euro-Atlantic integration that its neighbors 
        have achieved.
        <bullet> The Macedonian Government continues to push programs 
        geared to promote ethnic Macedonian nationalism at the expense 
        of the country's Euro-Atlantic integration. The longer that 
        Macedonia's EU and NATO membership paths remain stalled over 
        the country's constitutional name dispute with Greece and poor 
        bilateral relations with Bulgaria, the greater the risk that 
        ethnic tensions will increase.

    Chairman Levin. General Flynn.

   STATEMENT OF LTG MICHAEL T. FLYNN, USA, DIRECTOR, DEFENSE 
                      INTELLIGENCE AGENCY

    General Flynn. Good morning, Chairman Levin, Ranking Member 
Inhofe, and distinguished members of the committee. Thank you 
for this opportunity to testify and for your continued support 
to the dedicated intelligence professionals of the DIA and the 
entire defense intelligence enterprise, many of whom remain 
forward deployed directly supporting U.S. and allied military 
forces in Afghanistan and around the world.
    Today's global security environment, as Director Clapper 
just highlighted, presents a growing list of increasingly 
complex challenges, conventional adversaries, and numerous 
asymmetric threats. I completely agree with the DNI's threat 
assessment, most notably the challenge of unprecedented 
regional upheavals and the evolving complexity of the cyber 
domain. To that end, I would like to highlight three areas that 
are of particular concern to the DIA.
    Number one, the threat of WMD falling into the hands of 
non-state actors and the proliferation of these weapons to 
other state actors; number two, the emergence of foreign 
militaries with capabilities approaching those of the United 
States and our allies; and number three, increase tensions in 
the Pacific.
    First, as they have publicly and repeatedly insisted, al 
Qaeda and other terrorist organizations aspire to acquire WMD 
to further their agenda. The current instability in Syria 
presents a perfect opportunity for al Qaeda and associated 
groups to acquire these weapons or their components. While 
Syria's stockpiles are currently under the control of the 
regime, the movement of these weapons from their current 
locations for disposal or other reasons drastically increases 
the risk of these weapons or their components falling into the 
wrong hands. There is also the very real possibility that 
extremists in the Syrian opposition could overrun and exploit 
chemical and biological weapons storage facilities before all 
of these materials are removed.
    Outside of Syria, the proliferation of WMD and associated 
technologies remains an ongoing challenge. State and non-state 
actors engaging in these activities often sidestep or outpace 
international detection procedures and export control regimes. 
These actors supply WMD and ballistic missile-related materials 
and technologies to countries of concern by regularly changing 
the names of their front companies, operating in countries with 
permissive environments or lax enforcement, and avoiding 
international financial institutions. Their techniques and 
activities grow more sophisticated by the day.
    Shifting to more traditional military force concerns, the 
armed forces of China and Russia are modernizing and fielding 
new weapons systems that can challenge the conventional 
military superiority of the United States. At the same time, 
both countries are restructuring their militaries and improving 
command and control to allow themselves to better operate in an 
information-dominated combat environment. These efforts are a 
marked departure for both China and Russia and, although it 
will take time for each to integrate these new capabilities and 
force structures into their militaries, we cannot afford to 
ignore these developments by these two critical peers.
    Along those lines, I also want to raise the issue of 
increasing tensions in the Pacific region. The regime in North 
Korea remains highly unpredictable and is perhaps the most 
destabilizing force in the entire region. That being said, the 
disputed areas in the East and South China Seas also remain 
important flashpoints. The announcement in November that the 
Chinese are establishing an air identification zone over 
portions of the East China Sea raised regional tensions, 
particularly with Japan, and increased the risk of incidents 
that could undermine peace and security in this vital region. 
Although all sides wish to avoid serious conflict, these 
tensions raise the prospect for further incidents that could 
lead to an escalation involving military force.
    DIA has the broadest customer base in the IC. Our customers 
run the gamut from the President of the United States and 
Congress to our warfighting combatant commanders. However, the 
most important customers we serve are the soldiers, sailors, 
airmen, marines, and civilians who stand in harm's way around 
the world. With that in mind, let me turn to the budget 
environment.
    Though there is increasing pressure to reduce defense 
spending, and reduce it we must, if we are to address our 
Nation's fiscal situation, I would note that the demands on the 
U.S. intelligence system have skyrocketed in recent years, and 
these demands are only expected to increase in the years to 
come. While there will have to be reductions and we will have 
to accept greater risk, as the DNI just highlighted, DIA must 
continue to be able to provide timely and actionable 
intelligence across the entire threat spectrum. I look forward 
to working with you and your staffs as we address the very 
delicate balance between critical defense needs and our 
Nation's long-term fiscal health.
    Lastly, I would like to take a moment to echo Director 
Clapper's comments regarding Edward Snowden. In my professional 
military judgment, Mr. Snowden's disclosures have done grave 
damage to DOD and go far beyond the act of a so-called 
whistleblower. I have no doubt that he has placed the men and 
women of our Armed Forces at risk and that his disclosures will 
cost lives on our future battlefields. I hope that he will heed 
Director Clapper's call to return any materials he has not 
already disclosed, for the safety and security of all 
Americans.
    Let me close by saying what an honor and indeed a privilege 
it is to appear here on behalf of the men and women of the DIA 
and the entire defense intelligence enterprise. On their 
behalf, I thank you for your continuing confidence in their 
work. Your support is vital as well to our national security. I 
look forward to answering your questions.
    Thank you.
    [The prepared statement of General Flynn follows:]
            Prepared Statement by LTG Michael T. Flynn, USA
    Good morning, Chairman Levin, Ranking Member Inhofe, and members of 
the committee. Thank you for this opportunity to testify and for your 
continued support to the dedicated men and women of the Defense 
Intelligence Agency (DIA), many of whom remain forward-deployed 
directly supporting U.S. and allied military forces in Afghanistan and 
other places around the world.
    DIA's mission is to prevent strategic surprise, deliver a decision 
advantage, and to deploy globally to meet any challenge. Our goal is to 
help the Nation understand the threats it faces, enable decisions and 
actions--from the President of the United States to a private on the 
ground--and help our country prepare for the threats we will face in 
the future. With our focus on foundational intelligence and focused 
intelligence collection and analysis that supports warfighters as well 
as policy makers, we bring a unique perspective to the Intelligence 
Community (IC).
    The United States continues to face a complex security environment 
marked by a broad spectrum of dissimilar threats emerging from 
countries and highly adaptive transnational terrorist networks. DIA is 
focused on immediate and long-term threats to allied forces in 
Afghanistan; risks posed by transnational terrorist organizations, 
especially as they relate to threats to military forces and facilities; 
the threat of weapons of mass destruction falling into the hands of 
non-state actors and the proliferation of these weapons to state 
actors; monitoring the potential threat to the United States from 
ongoing conflicts; the emergence of foreign militaries with near peer 
capabilities; and support for U.S. and allied forces, at sea or on the 
ground, deployed around the world.
    Defense intelligence must be able to provide timely and actionable 
intelligence across the entire threat spectrum. Our assessments are 
based upon the agency's worldwide human intelligence, technical 
intelligence, counterintelligence, and document and media exploitation 
capabilities, along with information from DIA's partners in the IC and 
the entire defense intelligence enterprise, international allies, and 
open sources. In cooperation with these partners and allies, DIA is 
strengthening its collection and analysis as well as sharing more 
information across intelligence disciplines, and with our Nation's 
close allies, to better understand the multitude of the threats facing 
the Nation.
    The men and women of DIA know they have a unique responsibility to 
the American people and take great pride in their work. I am privileged 
to serve with them and present their analysis to you. On behalf of the 
entire defense intelligence enterprise, thank you for your continuing 
confidence. Your support is vital to us.
    I will begin my testimony first with an assessment of Afghanistan, 
where the Department of Defense (DOD), the IC, DIA, and our coalition 
partners remain actively engaged supporting military operations against 
the threat of al Qaeda and other anti-government of Afghanistan forces, 
transition to global threats, and conclude with an overview of other 
regional challenges.
                              afghanistan
    As the International Security Assistance Force (ISAF) continues the 
transition in Afghanistan, the Afghan Government and the Afghan 
National Security Forces (ANSF) will seek to conduct presidential and 
provincial council elections in 2014 and maintain security following 
the ANSF's assumption of full security responsibilities lead for all of 
Afghanistan in 2013.
    Afghan Security Forces have shown progress in their ability to 
clear insurgents from contested areas, but have exhibited problems 
holding cleared areas long-term. As an auxiliary to Afghanistan's 
formal security forces, the Afghan Local Police (ALP) continued to 
support broader efforts by securing some rural areas that might 
otherwise lack a central government presence.
    Operationally, Afghan forces have adapted to the reduction of ISAF 
enabler support by making better use of their own capabilities and 
showing tactical competence in planning and conducting security 
operations. However, they struggle due to the lack of intelligence, 
surveillance, and reconnaissance capability, as well as expertise in, 
and technology for countering counter-improvised explosive device 
programs. This challenge, along with stretched ANSF airlift and 
logistical capacity, limits the Afghan National Army's (ANA) ability to 
sustain operations outside of large urban areas and logistical hubs. 
They have been unable to deny freedom of movement to the insurgency in 
rural areas.
    Uncertainty over the post-2014 security environment--U.S. presence, 
funding, government cohesion and Taliban strength--is likely to drive 
decisions at all levels over the next year as ANSF leaders are forced 
to prioritize objectives, while hedging against this uncertainty. 
Influential power brokers and regional security officials are 
increasingly concerned with strengthening their influence over ANSF 
units and ensuring security across their respective areas of authority. 
These competing priorities could result in politically driven missions 
that undermine the ANSF's ability to address militarily necessary 
requirements.
    The ANA and Afghan National Police (ANP) manning of approximately 
340,000 personnel remained short of the funded ceiling of 352,000. High 
attrition, low recruitment, and inconsistent pay reduce the ANA's on-
hand strength and remain an impediment to the ANA's resilience.
    The number of insider attacks from within the Afghan security 
forces against ISAF personnel significantly decreased in 2013 (13 
incidents compared to 48 in 2012). This change is likely a result of a 
reduced ISAF presence and improved mitigation efforts by both JSAF and 
the ANSF. The number of insider attacks against Afghan security force 
personnel increased to 76 incidents, compared to 50 in 2012. 
Approximately half of all attacks involved ANP as perpetrators, and the 
ALP accounted for the second largest share.
    Afghanistan's political stability depends on successful elections 
in 2014 and the subsequent transfer of power from President Hamid 
Karzai to his successor. Afghan preparations for the April 5th 
presidential and provincial council elections are on track. The lack of 
a consensus candidate could lead to a potentially destabilizing runoff 
election that would occur during the peak of the insurgent fighting 
season and ISAF's drawdown. Post-election stability will depend on the 
new president's ability to maintain the support of the political elite 
and ANSF through balanced allocation of political positions and 
domestic and international funding.
    President Karzai remains resistant to signing the Afghan-U.S. 
Bilateral Security Agreement (BSA) despite the approval of the November 
2013 Loya Jirga and popular support, most recently insisting that pre-
conditions concerning the Afghan peace process and raids on Afghan 
homes be met. The delay in signing the BSA increases the risk to 
political cohesion as the potential loss of foreign assistance prompts 
Afghan elites to reevaluate the viability of, and support for, the 
government.
    Persistent human capital shortages, weak institutions, and 
corruption will continue to limit the reach of the central government, 
impede service delivery, and erode the government's connection to the 
population. Powerbrokers will strengthen their patronage networks in 
anticipation of an uncertain future post-2014, encouraging devolution 
of power.
    In 2013, the Taliban-led insurgency failed to seize and hold 
territory in two of its traditional strongholds, Kandahar and Helmand 
Provinces. However, we assess the insurgency was able to sustain 
nationwide violence levels comparable to those of the past 2 years, 
with attacks increasingly directed against ANSF. Taliban senior leaders 
likely believe that they only need to continue present levels of 
military engagement to be postured for victory following ISAF drawdown 
and withdrawal of key ANSF enablers. The Haqqani Network is a 
semiautonomous organization under the broader Taliban insurgency, which 
we judge to be the most proficient group planning and conducting 
spectacular and complex attacks in Afghanistan. The Haqqani Network 
poses a serious and ongoing threat to U.S. personnel and facilities in 
Afghanistan. The Taliban maintains public opposition to any 
negotiations with the Afghan Government and further intends to 
challenge its legitimacy by impeding the presidential election 
scheduled for April 2014, using violence and intimidation to deter 
prospective voters and disrupt the process. The Taliban is also making 
proactive efforts to build political legitimacy in advance of ISAF's 
drawdown, increasingly attempting to provide limited civil services to 
local populations.
    Reduced coalition presence will present new opportunities for the 
Taliban to mobilize local sentiment and increase their political 
influence in the rural areas, their main constituency. We judge Taliban 
leaders will likely be challenged to fulfill governance roles at the 
national level or in major urban centers with any degree of competency 
in the near term. Bottom line, the Taliban offer no more than an 
economic and social dead end.
    Regarding Iranian influence in Afghanistan, Iran maintains a 
moderate degree of economic leverage over Afghanistan, which it has 
attempted to use to extract political concessions from the Afghan 
Government with limited success. Iran is a key trade partner, providing 
critical imports of fuel to Afghanistan. Iran also hosts approximately 
three million Afghan refugees and, in May of last year, threatened 
their expulsion if the Afghan parliament approved the U.S.-Afghan 
Strategic Partnership Agreement. Although the threat was unsuccessful 
in deterring the agreement, a mass deportation from Iran would cause a 
humanitarian crisis inside Afghanistan.
    Al Qaeda leaders continue to view participation in attacks against 
the Coalition as central to their standing as leader of the global 
jihad. Despite the outflow of fighters to Syria, the historical and 
symbolic importance of Afghanistan remains. A small al Qaeda presence 
resides in the northeastern mountains, with pockets of its fighters 
elsewhere in the country; however, the group's operational capacity in 
Afghanistan is limited. We expect al Qaeda to use media statements to 
hail the pending 2014 drawdown as a victory for jihadists, and continue 
its limited support to the Afghan insurgency.
                             global threats
Cyber
    Cyber reconnaissance, exploitation, and the potential for attacks 
against DOD forces around the globe is a reality. These activities 
indicate an interest in how DOD operates in cyberspace and may allow 
our adversaries to identify opportunities to try to disrupt or degrade 
military operations. Additionally, state actors are using cyber 
espionage in attempts to steal critical information from DOD and 
defense contractors. We remain concerned about this persistent threat 
to our ability to plan, prepare and ready our forces for future 
conflicts.
    The United States, the DOD, and our interdependent defense systems 
and critical infrastructure continue to rely on the convergence of 
military networks and the Internet to enable us to perform our mission. 
As other nations develop military cyber warfare doctrine and cyber 
forces, we know they will cultivate tactics, techniques, tools, 
capabilities, and procedures to threaten our technological superiority. 
It is imperative that we understand the adversaries' intent and 
capabilities.
    As conflict between states evolves, the cyberspace is becoming an 
increasingly vital component of strategy and doctrine for warfighting. 
Non-state actors remain unpredictable, and the entry barrier to procure 
disruptive cyber tools and capabilities remains very low. We need to be 
vigilant to the broader set of state and non-state actors that continue 
to see cyber as a domain for offensive and defensive influence and 
opportunity. DOD must strengthen our understanding of the complexities 
of our adversaries, protect our systems, build resilience in our 
critical infrastructure, and leverage the experience and knowledge of 
our foreign partners.
    The role the Internet and communication networks play in political 
stability and regime change remains a significant global cyber issue. 
Repressive governments are attempting to assert their control over 
information transmitted through cyberspace, and several nations 
advocate policies to centralize control over the internet though a top-
down intergovernmental approach. Not only would such proposals slow the 
pace of innovation and hamper global economic development, they would 
undermine the current, successful multi-stakeholder approach to 
Internet governance and frustrate the interoperability of networks upon 
which DOD relies.
Counterintelligence
    Globalization, rapid technological advancements, and an uncertain 
fiscal environment present new avenues of collection and threats from 
traditional nation-state intelligence services and non-state entities 
to target U.S. national security information, systems, and personnel.
    Increased financial pressures due to resource cuts create potential 
vulnerabilities that foreign intelligence entities seek to exploit to 
identify vulnerable employees and contractors with access to sensitive 
and classified national security information. Foreign intelligence 
entities conduct a wide range of intelligence and clandestine 
activities that threaten and undermine our national security interests 
and objectives worldwide. Such actors target our Armed Forces; our 
military and national security-related research, development, and 
acquisition activities; our national intelligence system; and our 
government's decisionmaking processes. In addition to threats by 
foreign intelligence entities, insider threats will also pose a 
persistent challenge. Trusted insiders with the intent to do harm can 
exploit their access to compromise vast amounts of sensitive and 
classified information as part of personal ideology or at the direction 
of a foreign government. The unauthorized disclosure of this 
information to state adversaries, non-state activists, or other 
entities will continue to pose a critical threat.
    DIA is leading an Information Review Task Force to examine grave 
damage caused to Department of Defense equities and U.S. national 
security as a result of the unauthorized NSA disclosures. An emerging 
threat that concerns the department involves the potential for foreign 
intelligence entities to compromise critical supply chains or corrupt 
key components bound for vital warfighting systems. Additionally, a few 
transnational terrorist groups have developed effective intelligence 
and counterintelligence capabilities-we have seen this manifest in Iraq 
and Afghanistan, and terrorist groups are now using and sharing the 
knowledge and experience they gained in those conflicts.
Transnational Terrorist Threats
    Al Qaeda Command and Control
    Several years of sustained counterterrorism pressure have degraded 
al Qaeda's Pakistan-based leadership. Al Qaeda is now forced to rely on 
a limited cadre of experienced leaders, who are restricted to operating 
primarily inside a Haqqani Network-facilitated safehaven in North 
Waziristan, Pakistan. This pressure has made it difficult for al Qaeda 
to replenish its senior ranks with the experienced leaders, trainers, 
and attack planners it was able to promote in previous years. It is 
focused on its security and survival at the expense of operations 
against the Homeland.
    Al Qaeda's leadership in Pakistan continues efforts to inspire and 
guide some of its regional nodes, allies, and like-minded extremists to 
engage in terrorism against the west, but also stresses the importance 
of regional agendas and winning hearts and minds. Absent the death of 
Ayman al-Zawahiri, Pakistan-based al Qaeda will retain its role as the 
ideological leader of the global jihad.
    Al Qaeda in the Arabian Peninsula (AQAP)
    From its base of operations in Yemen, the group remains resolute in 
targeting the Homeland, as well as U.S. and Western interests in Yemen 
and the Arabian Peninsula. However, ongoing counterterrorism pressure 
is likely slowing and/or delaying some attack plans. AQAP's recent 
attacks against Yemeni military targets highlight the group's ability 
to conduct complex attacks.
    Al Qaeda in Iraq (AQI), also known as the Islamic State of Iraq and 
        Levant (ISIL)
    AQI/ISIL probably will attempt to take territory in Iraq and Syria 
to exhibit its strength in 2014, as demonstrated recently in Ramadi and 
Fallujah, and the group's ability to concurrently maintain multiple 
safe havens in Syria. However, its ability to hold territory will 
depend on the group's resources, local support, as well as the 
responses of ISF and other opposition groups in Syria. While most 
Sunnis probably remain opposed to AQI's ideology and presence in Iraq 
and Syria, some Sunni tribes and insurgent groups appear willing to 
work tactically with AQI as they share common anti-government goals. 
Baghdad's refusal to address longstanding Sunni grievances, and 
continued heavy-handed approach to counter-terror operations have led 
some Sunni tribes in Anbar to be more permissive of AQI's presence. 
Since the departure of U.S. forces at the end of 2011, AQI/ISIL has 
exploited the permissive security environment to increase its 
operations and presence in many locations and also has expanded into 
Syria and Lebanon to inflame tensions throughout the region. For 
example, AQI/ISIL claimed credit for the 2 January 2014 car bombing in 
Beirut, in a Hezbollah stronghold, furthering sectarian conflict and 
demonstrating its strength throughout the region. The likelihood of 
more attacks in Lebanon is high. Concurrently, AQI remains in control 
of numerous Syrian cites such as Raqqah, Al-Bab, and Jarablus.
    Al-Nusrah Front
    The group is working to overthrow President Bashar al-Assad's 
regime by attacking the regime and its allies in Syria while building 
popular support through humanitarian aid campaigns. We judge al-Nusrah 
Front is seeking to expand its influence in the region and to advance 
its long-term goals of attacking Israel and strengthening the al Qaeda 
footprint in the Levant.
    Al Qaeda in the lands of the Islamic Maghreb (AQIM)
    Although counterterrorism pressure is probably compelling AQIM to 
consider alternative safehavens in other undergoverned areas in the 
region, the group most likely retains the capability to launch attacks 
against regional and Western interests in Mali and neighboring 
countries. During the next year, we expect AQIM to likely bolster its 
ties to al Qaeda-aligned terrorist groups in North and West Africa.
    Al-Shabaab
    The group continued to pose a threat to Western interests in East 
Africa as demonstrated by the September attack on the Westgate Mall in 
Nairobi, Kenya, which left at least 67 dead. During 2014, a regrouped 
al-Shabaab will continue to pose a threat to the fragile Somali 
Government and its regional backers. It will attempt to replicate the 
success of its Westgate attack with additional operations outside 
Somalia.
Other Terrorist Activities of Concern
    Al-Murabitun
    This newly formed group poses a growing threat to Western interests 
in North Africa, based on the network's record of sophisticated attacks 
against Western mineral and energy interests in Niger and Algeria in 
2013.
    Islamic Revolutionary Guard Corps-Qods Force (IRGC-QF) and 
        Hizballah
    Iran continues to support and arm terrorist and militant groups in 
the Middle East. The IRGC-QF has supported pro-regime fighters in 
Syria, including elements from Lebanese Hizballah, Iraqi Shia groups, 
and Syrian militias. Captured video footage suggests the Qods Force is 
operating artillery and leading attacks against Syrian opposition. 
Hizballah also continues to send operatives to other locations outside 
Syria to plan external attacks and operations.
    Lashkar-e Tayyiba (LT)
    The group has focused on India, but has dedicated greater 
operational resources from Indian Kashmir to Afghanistan in the years 
following the 2008 Mumbai attacks. LT ideologically advocates killing 
Americans and other Westerners, and in previous years has advanced 
plots ultimately disrupted by counterterrorism authorities in Australia 
and Denmark.
    Islamic Movement of Uzbekistan and the Islamic Jihad Union
    As coalition forces withdraw from Afghanistan in 2014, these 
terrorist groups with Central Asian links might seize the opportunity 
to redirect some targeting efforts against Central Asia.
    Imirat Kavkaz (IK)
    This North Caucasus-based terrorist group or IK-linked Caucasus-
based militants were likely responsible for the October and December 
2013 suicide attacks in Volgograd, Russia. These attacks and the July 
2013 statement by IK leader Doku Umarov threatening the 2014 Winter 
Olympics suggests the likelihood of continued Islamic extremist attacks 
in Russia in this year aimed at undermining Moscow and deterring 
attendance at the February Winter Games in Sochi, Russia.
    Revolutionary Armed Forces of Colombia (FARC)
    This group poses a significant and continuing threat to U.S. 
personnel and interests in 2014, despite peace talks with Bogota.
    European Home Grown Violent Extremists (HVE)
    Individuals will remain an ongoing security concern and challenge 
for Western security services as they radicalize within their home 
base; return home after gaining terrorist training and/or, combat 
experience abroad; or develop contacts domestically or abroad to plan 
attacks against Western interests. Although not all returning fighters 
will pose a threat, DIA is particularly concerned about self-initiated 
or ``lone wolf'' attacks on U.S. military and allied military members 
in Europe. The Revolutionary People's Liberation Party/Front (DHKP/C) 
also signaled a renewed effort to target U.S./DOD interests with its 1 
February 2013 attack on the U.S. Embassy in Ankara and has proven 
resilient despite crackdowns on the organization in Turkey and 
elsewhere.
    U.S. Homegrown Violent Extremists (HVEs) and Insider Threats
    HVEs continue to pose the most likely terrorist threat to DOD, as 
evidenced by several successful attacks and numerous disrupted plots 
targeting DOD facilities, installations, and personnel in recent years. 
While they are less likely to generate complex and spectacular attacks 
than transnational terror groups, HVEs can conduct attacks with little 
or no warning, complicating efforts by law enforcement and intelligence 
agencies to detect and disrupt them. Since 2009, a small number of 
individuals working for or with access to DOD personnel and facilities 
have acted on behalf of or have been inspired by terrorist groups. We 
anticipate terrorist groups and sympathetic violent extremists will 
continue seek to establish relationships with individuals associated 
with DOD to collect information and conduct attacks.
Weapons of Mass Destruction (WMD), Delivery Systems, Proliferation, and 
        Advanced Conventional Weapons
    The proliferation and potential for use of WMD and ballistic 
missiles is a grave and enduring threat. Securing nuclear weapons and 
materials is a worldwide imperative to prevent accidents and the 
potential diversion of fissile or radiological materials. As technology 
proliferates chemical and biological weapons are becoming more 
sophisticated. Al Qaeda and some of its affiliate organizations aspire 
to acquire and employ chemical, biological, radiological, and nuclear 
(CBRN) materials. They are most likely seeking low-level CBR agents, 
such as ricin, botulinum toxin, radiological dispersal devices, and 
toxic industrial chemicals like cyanide and chlorine as low cost 
alternatives.
    We are concerned about the potential for terrorists to acquire 
Syrian WMD materials. While Syria's chemical and biological weapons 
stockpiles are currently under the control of the regime, al Qaeda and 
its regional affiliates could seek to obtain Syrian stockpiles should 
security be insufficient. We anticipate the movement of convoys 
carrying CW from its current locations for disposal could provide an 
opportunity for one or more of these groups to try to obtain CW agents 
or material.
    Determined groups and individuals, as well as the proliferation 
networks they tie into, often work to sidestep international detection 
and avoid export-controls. Such entities regularly change the names of 
their front companies, operate in countries with permissive 
environments or lax enforcement, and avoid international financial 
institutions. Another military issue is the proliferation of advanced 
conventional weapons, especially air defense systems and anti-ship 
cruise missiles. We remain concerned especially with Russia's exports 
of these arms, including the SA-17, SA-22 and SA-20 surface-to-air 
missile (SAM) systems, as well as the supersonic Yakhont anti-ship 
cruise missile. Russia has exported several of these systems to 
countries of concern, including the SA-17 to Venezuela, and the SA-17, 
SA-22 and Yakhont to Syria. Iran continues to press Russia to sell it 
the SA-20, a modern long-range SAM. The 300-km range Yakhont poses a 
major threat to naval operations particularly in the eastern 
Mediterranean. Russia continues to market the C1ub-K cruise missile 
system, a family of weapons deployed inside standardized commercial 
shipping containers similar to those found on merchant vessels, freight 
rail trains, and road vehicles. The covert nature of this weapon would 
render identifying threat platforms very difficult and reduce warning 
of an attack.
    China is expanding as a supplier of advanced conventional weapons, 
supplementing its traditional exports of basic battlefield equipment 
such as small arms, artillery and armored vehicles to include more 
advanced examples of long-range multiple launch rocket artillery, 
improved surface to air missile systems and anti-ship cruise missiles, 
and unmanned aerial vehicles, several of which are armed variants. 
China's rapid development of new products, aggressive marketing, and 
relatively low pricing will allow more countries with limited access to 
advanced weapons to acquire some of these capabilities.
Theater Ballistic Missiles
    Ballistic missiles are becoming more survivable, reliable, and 
accurate at greater ranges. Potential adversaries are basing more 
missiles on mobile platforms at sea and on land. Technical and 
operational measures to defeat missile defenses also are increasing. 
China, Iran, and North Korea, for example, exercise near simultaneous 
salvo firings from multiple locations to saturate missile defenses. 
Countries are designing missiles to launch from multiple transporters 
against a broad array of targets, enhancing their mobility and 
effectiveness on the battlefield. Shorter launch-preparation times and 
smaller footprints are making new systems more survivable, and many 
have measures to defeat missile defenses.
Space and Counterspace
    Space is becoming an increasingly congested, competitive, and 
contested environment. The quantity and quality of foreign satellites 
on orbit is rapidly increasing and foreign countries are developing 
counters to the U.S. space advantage, including methods to disrupt or 
deny access to communications; position, navigation, and timing; and 
intelligence, surveillance, and reconnaissance satellites.
    China
    Beijing is pursuing space efforts for military, economic and 
political objectives. China's military operates satellites for 
communications, navigation, earth resources, weather, intelligence, 
surveillance, and reconnaissance purposes, in addition to manned space 
and space exploration missions. Typically, China has emphasized the 
domestic and international benefits of its space program. 
Internationally, China views the success of these capabilities as a 
contributor to its growing status and influence, but refrains from 
highlighting any specific military applicability.
    Regarding its counterspace activities, China's test of a ground-
based anti-satellite missile in 2007 and the resulting debris 
generation in the atmosphere has been well publicized. If deployed, 
such a capability and the resultant orbital debris is a threat to all 
countries' military, civilian, and commercial space assets to the 
peaceful usage of outer space. Non-kinetic counterspace solutions in 
development also include jammers.
    Russia
    Moscow recognizes the strategic value of space, and understands 
space as a force multiplier and views U.S. dependency on space for 
projection of military power as a vulnerability. Russia's space sector 
has experienced a series of failures in recent years but is taking 
steps to correct quality control problems within its satellite and 
space launch vehicle industries. In the past year, Russia completed 
population of its GLONASS navigation satellite constellation and is 
making gradual improvements to its communications, ballistic missile 
launch detection, and intelligence-gathering satellites. The Russian 
military has a highly advanced space surveillance network, a 
prerequisite for counterspace operations, and is modernizing and 
expanding these systems. Russia has satellite jamming capabilities and 
is pursuing other counterspace capabilities.
Hard, Deep, Buried Targets/Underground Facilities
    The use of underground facilities (UGFs) to conceal and protect 
critical military and other assets and functions is widespread and 
expanding. UGFs conceal and increase the survivability of weapons of 
mass destruction, strategic command and control, leadership protection 
and relocation, military research and development, military production 
and strategic military assets. A significant trend of concern is the 
basing of ballistic and cruise missiles and other systems designed for 
anti-access/area denial weapons directly within UGFs. In addition, 
Russia, China, Iran, and North Korea operate national-level military 
denial and deception programs. These four states are devoting increased 
resources, and particular attention, to improving the denial and 
deception tactics, techniques, and procedures, for their road-mobile 
missile and cruise missile forces.
                            regional threats
Middle East and North Africa
    Egypt
    The unrest following the July deposal of Mursi has been dealt with 
by the interim government through laws and tactics to quell dissent, 
sometimes violently. While the interim government promised an ambitious 
timetable for transition to an elected government, it has missed some 
of its own set deadlines. Countrywide protests by opposition groups 
have been overshadowed by terrorist violence, which is no longer 
limited to the Sinai. Growing popular opposition against military 
dominance in society threatens the cohesion of the political parties 
currently supporting the interim government. Frustration among Islamist 
political groups over changes to the constitution and their expulsion 
from political life and parts of civil society threatens to lead to 
radicalization. The new constitution was finalized by popular 
referendum with 98 percent approval and 38.6 percent participation, 
helped in part by changes to regulations to allow for easier voting, 
lack of free and fair environment in the run up to the elections, and 
the Muslim Brotherhood and majority of other opposition groups 
boycotting the vote. Cairo plans to begin the presidential election 
process in the spring and the parliamentary process in the summer.
    Security in the Sinai Peninsula is particularly poor despite 
Egyptian security efforts there since fall of last year and domestic 
security elsewhere remains difficult. Increasingly lethal and brazen 
attacks on security and military forces in the Sinai persist even in 
areas garrisoned by large numbers of Egyptian forces. Terrorist 
networks retain their capabilities and are demonstrating their 
resilience despite increased Egyptian CT efforts, while exploiting 
security vacuums in parts of the Sinai.
    Security forces elsewhere in Egypt face frequent public 
disobedience, as anti-interim government Islamists focus on low-level 
resistance, such as student disturbances at university campuses, and 
avoid other forms of popular protest likely to be forcibly broken up by 
authorities.
    Syria
    Three years into the conflict, Syria remains divided and neither 
the regime nor the opposition has a decisive advantage on the 
battlefield. The regime dominates central and western areas while the 
opposition remains dominant in northern and eastern areas. In late 
2013, the regime acceded to the Chemical Weapons Convention (CWC) and 
began dismantling its chemical weapons program. The first shipment of 
CW components left Syria in January and the Organization for the 
Prevention of Chemical Weapons is supporting the ongoing removal.
    Assad's inner circle and the Syrian military remain cohesive, but 
the military is stretched thin by constant operations. The regime's 
strategy has been to encircle the villages and suburbs surrounding 
opposition-held areas, and then employ artillery bombardments and air 
strikes before conducting clearing operations. Although these tactics 
are not new, the regime has demonstrated an increased proficiency and 
professionalism in their execution compared to the past and has relied 
more on irregular troops such as militias and Hizballah fighters. This 
increased effectiveness probably is at least in part due to Iranian 
support, particularly in training, advising, and intelligence. Syria 
continues to rely on Russia for major maintenance and refitting of its 
helicopters and likely other heavy equipment after 2 years of heavy 
use.
    Hizballah continues to provide training, advice, and extensive 
logistic support to the Syrian Government and its supporters. Hizballah 
has directly trained Syrian Government personnel inside Syria and has 
facilitated IRGC-QF training of some Syrian forces. Hizballah also has 
contributed troops to Syrian regime offensives, playing a substantial 
combat role in operations in Damascus, al-Qusayr, Qalamoun, and other 
areas within Syria. Iran also has actively supported the Syrian regime 
in its fight against the opposition.
    The Syrian regime maintains the military advantage--particularly in 
firepower and air superiority, but struggles with an overall inability 
to decisively defeat the opposition. The opposition has thus far failed 
to translate their tactical gains in the rural areas of northern and 
eastern Syria into gains in southern or western Syria. Competition over 
resources and violent infighting has limited the opposition's overall 
combat effectiveness. Ineffective distribution systems, weapons 
hoarding, and lack of a coherent and unified campaign plan has limited 
opposition success. Salafist and extremist groups are increasingly 
challenging Western--backed elements such as the Syrian Military 
Council (SMC). The competition between groups, and sometimes violence, 
distracts them from their fight against the regime.
    Syria's most prominent external political opposition group, the 
Syrian Opposition Coalition (SOC), struggles to gain internal 
legitimacy, and no group has been able to unite the diverse groups 
behind a strategy for replacing the regime. Saudi Arabia and Qatar are 
funding and arming Syrian rebels seeking to overthrow the Assad regime 
to weaken Iranian influence in the region and set the stage for a post-
Assad Government friendly to their own interests. Saudi Arabia worries 
about empowered jihadists in Syria while Qatar supports some Islamist 
groups.
    Prior to its accession to the CWC, we believe Syria maintained an 
advanced CW program and had a stockpile that included either complete 
or binary components of mustard, sarin, and VX along with weapons 
systems to deliver these agents. Syria has signed, but did not ratify 
the Biological Weapons (BW) Convention. Syria may be capable of limited 
agent production, however, we do not believe Syria has achieved a 
capability to use biological agents as effective mass-casualty weapons. 
We remain concerned about insurgents and terrorists attempting to 
acquire state WMD materials should security fail at CW sites in the 
wake of unrest or during movement to the coast. While Syria's chemical 
weapons stockpiles are currently under the control of the Syrian 
regime, Sunni terrorist groups including al-Qa'ida in Iraq/Islamic 
State of Iraq and the Levant (AQI/ISIL) and al-Nusrah Front have 
aspired to obtain WMD in the past.
    Syria has several hundred SCUD-B, -C, and -D, and SS-21 SRBMs. 
Syria also has a domestic version of the Iranian Fateh-110 SRBM. All of 
Syria's missiles are mobile and can reach much of Israel and large 
portions of Iraq, Jordan, and Turkey from launch sites well within the 
country. Damascus relies on foreign help, mainly from Iran, to advance 
its solid-propellant rocket and missile development and production 
capability. Syria's liquid-propellant missile program also remains 
dependent on essential foreign equipment and assistance.
    Iran
    Tehran poses a major threat to U.S. interests through its regional 
ambitions, support to terrorist and militant groups, improving military 
capabilities and nuclear ambitions. Iran is active throughout the 
region and has increased its influence during the past 12 months in 
Syria, Iraq, Yemen, and Bahrain.
    However, Iran has somewhat tempered its belligerent rhetoric since 
President Hasan Ruhani took office in August 2013. Ruhani's 
international message of moderation and pragmatism is intended to 
support Tehran's enduring objectives, which are to preserve the Supreme 
Leader's rule, counter Western influence, and establish Iran as the 
dominant regional power. Supreme Leader Ali Khamenei continues to 
dominate Iran's power structure as both the political-spiritual guide 
and the commander in chief of the Armed Forces.
    Iran has threatened to temporarily impede international ship 
traffic transiting through the Strait of Hormuz if it is attacked or in 
response to further sanctions on its oil exports. Additionally, Iran 
has threatened to launch missiles against U.S. targets and our regional 
allies in response to an attack. Tehran could also employ its terrorist 
surrogates. However, it is unlikely to initiate or intentionally 
provoke a conflict or launch a preemptive attack.
    In Iraq, Iran works closely with Baghdad to maintain its influence 
and its access to Syria and Levant via air and ground transport. Iran 
continues to fund, train, and support Iraqi Shia groups to defend the 
Shia-led Government against the perceived threat of Sunni violence, 
including spillover from the conflict in Syria. Iran will likely use 
its leverage with Shia groups and Iraqi Government officials to 
influence the 2014 Iraqi elections to maintain an Iran-friendly 
Government regime in Baghdad.
    In addition to its support of irregular forces, Iran is steadily 
improving its military capabilities. The navy is developing faster, 
more lethal surface vessels, growing its submarine force, expanding its 
cruise missile defense capabilities, and increasing its presence in 
international waters. The navy conducted its farthest out-of-area 
deployment to date in March 2013, docking in China, and for the first 
time ever an Iranian submarine visited India in December 2013. The navy 
aspires to travel as far as the Atlantic Ocean.
    Iran is laboring to modernize its air and air defense forces under 
the weight of international sanctions. Each year, Iran unveils what it 
claims are state-of-the-art, Iranian-made systems, including SAMs, 
radars, unmanned aerial vehicles, and it did so again in 2013. It 
continues to seek an advanced long-range surface-to-air missile system.
    Iran can strike targets throughout the region and into Eastern 
Europe. In addition to its growing missile and rocket inventories, Iran 
is seeking to enhance lethality and effectiveness of existing systems 
with improvements in accuracy and warhead designs. Iran is developing 
the Khalij Fars, an anti-ship ballistic missile which could threaten 
maritime activity throughout the Persian Gulf and Strait of Hormuz. 
Iran's Simorgh space launch vehicle shows the country's intent to 
develop intercontinental ballistic missile (ICBM) technology.
    Iraq
    Since the withdrawal of U.S. forces in December 2011, the Iraqi 
Security Forces (ISF) have struggled to secure all of Iraq, maintaining 
security primarily in Shia majority areas. Tensions between Sunnis and 
Shia, and Arabs and Kurds, have persisted due to the government's 
unwillingness to share power and the spill-over effects from the crisis 
in Syria. Violence levels are rising and likely will continue in 2014 
as long as the Shia-dominated Government avoids political accommodation 
and the conflict in Syria continues.
    Iraqi Shia militant groups have largely refrained from attacks on 
U.S. interests and so far have initiated only limited operations 
against Sunni targets, despite rising AQI violence against Iraqi Shia 
and increasing demands for Shia militias to protect their communities. 
Shia militant groups have focused on building their popular base ahead 
of Iraq's 2014 national elections. They also continue to send fighters 
to Syria to augment Iranian-led, pro-regime forces and have conducted 
attacks against the Mujahedin-e Khalq (MEK) presence in Iraq. Despite 
their restraint in Iraq, Shia militants remain capable of violent 
action and they are preparing for violence to spill over from Syria.
    The Iraqi Sunni population is increasingly distraught over its 
fortunes in Iraq. The government's refusal to reform de-Baathification 
and anti-terror laws--a key Sunni demand-deepens Sunni alienation. 
Anti-government demonstrations in Iraq's three major Sunni provinces 
have continued for a year. Recent violence in Ramadi and Fallujah in 
eastern Anbar Province sparked from Sunni perceptions that the Iraqi 
Government aggressively targeted Sunni civilians. The situation in both 
cities is fluid and control of different portions of the cities and 
their surrounding areas will likely change. Unilateral Iraqi military 
action to contain the violence, if conducted by predominantly Shia 
units, would only deepen the divide and could convince Sunnis to reject 
future participation in the government.
    ISF have been unable to stem rising violence in part because they 
lack mature intelligence, logistics, and other capabilities, and still 
require substantial assistance to integrate newly-acquired equipment. 
ISF have demonstrated the ability to put forces on the street, conduct 
static security of high-profile sites and events, and to operate 
checkpoints. However, these abilities have not enabled them to suppress 
AQI or other internal threats. ISF are increasingly challenged in Sunni 
majority and ethnically mixed areas of Iraq, especially Anbar and 
Ninewa Provinces. Iraqi military and police forces lack cohesion, are 
undermanned, and are poorly trained, equipped, and supplied. This 
leaves them vulnerable to terrorist attack, infiltration, and 
corruption.
    The ISF is inadequately prepared to defend against external threats 
by land, air, or sea. Iraq's ground forces have limited ability to 
conduct and sustain conventional military operations against a peer, 
and Iraq has few forces and capabilities to defend its airspace or 
coastal waters. Iraq has pursued numerous foreign military sales 
contracts to overcome equipment shortfalls and gaps in ISF 
capabilities. Iraq is diversifying its defense acquisitions with more 
Russian and other non-U.S. equipment. In November 2013, Iraq received 
an initial delivery of attack helicopters from arms deals with Russia 
worth over $4 billion that include air defense systems and other arms. 
The United States also completed delivery of C-130J transport aircraft 
and 30 armed reconnaissance helicopters in May 2013. In December 2013 
Iraq concluded a $2.1 billion deal with South Korea for FA-50 combat-
capable training aircraft. However, we expect it will take several 
years for Iraqi military strength and capabilities to improve 
substantially.
    Yemen
    The security situation throughout Yemen remains tenuous, with 
government security forces focused either on providing security in 
Sanaa or working to counter AQAP. Iranian meddling in Yemen's domestic 
affairs, to include support to some armed Huthi groups in the north and 
some secessionists in the south, presents an additional security risk. 
Apolitical transition process, including efforts to reform the 
military, is ongoing but proceeding slowing. The National Dialogue 
Conference concluded in January, allowing forward movement on 
preparations for constitutional reform and national elections. 
Notwithstanding political progress, Yemen's failing economy, dwindling 
water resources, and food insecurity will further complicate efforts.
    Libya
    Militias that won the revolution against the Qadhafi regime are now 
also threatening both the transition process and overall security. 
Militias present a challenge to internal stability despite Tripoli's 
recent progress integrating some armed groups into its security forces. 
To counteract the militias' power, Tripoli seeks international 
assistance to establish a General Purpose Force (GPF) and controlled 
security entity. Militias loyal to Federalists factions, Berbers, and 
other minority groups have also occupied oil facilities, decreasing 
Libya's oil production from 1.4 million barrels per day to 250,000, and 
costing the Libyan Government over $7.5 billion in revenues.
    Mid-November 2013 incidents in Tripoli, Benghazi, and Darnah 
resulted in more than 40 civilian deaths. Public and government 
backlash forced militias to withdraw from these cities. These militia 
elements have withdrawn but have not disarmed, and will likely attempt 
to return to urban areas after pressure recedes. Other militias not 
involved in the incidents also remain.
    Heavily armed militias will likely continue to threaten stability 
over the next year. GPF will not be capable of restoring security or 
central government authority for at least 1 to 2 years.
South Asia
    Pakistan
    The new government elected in May 2013 seeks to rebuild relations 
with the United States, including the resumption of the strategic 
dialogue process. Relations have improved, but anti-U.S. sentiment and 
criticism of Pakistan's cooperation with the United States among the 
population remains high.
    In 2013, the civilian government, Army, and the Supreme Court all 
transitioned to new leadership, which were the first leadership changes 
for these institutions in nearly 5 years. Nawaz Sharif was elected for 
his third-term as Prime Minister after his party won a simple majority 
in the May elections. General Raheel Sharif (no relation) was appointed 
Pakistan's Chief of Army Staff following the retirement of Gen (ret) 
Ashfaq Parvez Kayani in late November 2013. Justice Tassaduq Hussain 
Jillani became the Chief Justice of Pakistan's Supreme Court in 
December, replacing Iftikhar Muhammad Chaudhry who retired due to age. 
Jillani will only hold the position for 7 months and the media 
speculates he will be less of an activist than his predecessor.
    The civilian government is focused on addressing Pakistan's 
pressing economic issues as well as coordinating a counterterrorism 
strategy. However, its pursuit of treason charges against former 
President/Chief of Army Staff Musharraf risks civil-military tension as 
the case proceeds because it could tarnish the image of the Army and 
put other senior officers in jeopardy of prosecution.
    Approximately one-third of Pakistan's army and paramilitary forces 
are deployed in the Federally Administered Tribal Areas (FATA) and 
Khyber Pakhtunkhwa Province (KPP) to support combat operations at any 
given time. Over the past year, Pakistan conducted counterinsurgency 
operations targeting militants in the FATA and KPP which directly 
threaten Pakistan's internal security. Despite some success disrupting 
Pakistan-focused militant activity, Pakistan's counterinsurgency 
efforts continue to struggle. The Pakistan military has been engaged in 
some limited security operations in North Waziristan, although it is 
unclear when large scale operations will commence.
    Tension with Kabul increased after Afghan and Pakistani military 
forces exchanged direct fire across the border in May 2013. However, 
the election of a new Pakistani Government has provided an opportunity 
for Islamabad to re-engage with Kabul in an effort to improve border 
cooperation and cross-border trade in line with the new government's 
focus on improving Pakistan's economy. Pakistan continues to release 
Taliban prisoners and has sought ways to support the Afghan peace 
process. However, longstanding issues including periodic cross-border 
shelling and the presence of militants on both sides of the border 
continue to foment distrust and impede broader cooperation.
    Prime Minister Sharif has publicly emphasized his desire to improve 
relations with India since assuming office in June 2013. Several high 
profile meetings, including the first meeting between the Pakistani and 
Indian Directors General of Military Operations in 14 years, generated 
commitments to further dialogue. However, tensions over the Line of 
Control in Kashmir, delays in the prosecution of the alleged Mumbai 
attack planners in Pakistan, and domestic political constraints in both 
capitals will continue to hinder progress this year. A major terrorist 
attack against India linked to Pakistan would nullify prospects for 
improved relations and could escalate tensions.
    India
    In 2013, India continued its efforts to maintain its economic and 
military ties with important regional partners in East and Southeast 
Asia. India and Japan conducted their second bilateral naval exercise 
in the Bay of Bengal in December, and India and Vietnam increased their 
naval engagement in November. India also signed a trilateral agreement 
with the Maldives and Sri Lanka in 2013 aimed at improving maritime 
security cooperation.
    New Delhi and Beijing continue to conduct military-to-military 
engagement and discuss their longstanding border dispute. The two 
countries signed a Border Defense Cooperation Agreement in October 2013 
to reinforce existing procedures to prevent standoffs along their 
disputed border from escalating. The Indian Army and People's 
Liberation Army also resumed ground exercises, conducting a 
counterterrorism exercise in China during November, the first since 
2008.
    India seeks a moderate government in Afghanistan that will deny 
anti-Indian militant groups the use of its territory from which to 
launch attacks on India. New Delhi has pledged economic and development 
assistance and provides training to Afghan National Security Force 
personnel at military institutions in India. Indian and Afghan Special 
Forces conducted their first combined exercise in India in late 
December.
    India is in the midst of a major military modernization effort--
undertaken by all three military Services--to address problems with its 
aging equipment and to posture itself to defend against both Pakistan 
and China. Major acquisitions that occurred in 2013 included the 
delivery of a Russian-built aircraft carrier, a Talwar Class Frigate, 
additional Su-30MKI FLANKERs, U.S. built C-17s and P-81 maritime patrol 
aircraft, and the commissioning of India's indigenously-built nuclear-
powered ballistic missile submarine. Military modernization is 
progressing slowly, however, because of India's cumbersome procurement 
process, budget constraints, and a domestic defense industry that 
struggles to provide military equipment that meets service 
requirements.
Africa
    Africa faces a myriad of security challenges that will require 
continued U.S. attention.
    Somalia
    Somalia saw limited progress on its political and security fronts 
in 2013, as internal divisions hobbled the new government's development 
and international forces reached the limit of their ability to hold 
territory. Al-Shabaab having lost control of major cities, and the 
Federal Government made steps toward regional integration. Despite 
significant and public internal divisions in 2013, al-Shabaab continued 
to conduct attacks, often complex in nature, targeting AMISOM, Somali 
Government, and international targets in Somalia. Al-Shabaab-affiliated 
militants also continued to carry out attacks in Kenya, most 
prominently the late September attack on the Westgate Mall in Nairobi. 
Kenya. The recent authorization of additional troops for the African 
Union (AU) force will permit the resumption of offensive action against 
al-Shabaab in 2014, and the government will need to capitalize on these 
security gains. On a positive note, security measures adopted by 
international shipping companies, coupled with international naval 
patrols, have helped reduce piracy off the Horn of Africa to its lowest 
levels in 5 years; no vessels were hijacked in 2013. Within the Africa 
Horn region in Djibouti, where DOD has its largest footprint on the 
continent, there is concern regarding the increasing presence of 
foreign countries' activities.
    Central African Republic
    A spike in violence in December 2013 in the Central African 
Republic prompted the expeditious deployment of international 
peacekeepers, who will struggle to secure the entire country in the 
absence of a reliable host nation security force. While the United 
States is not engaged in combat in the CAR, U.S. logistics operations 
in support of French and African Union forces also face potential 
threats. Despite the elimination of the M23 armed group in late 2013 in 
eastern Democratic Republic of the Congo, continued military operations 
alone will not solve the longstanding underlying causes of conflict, 
such as poverty, human rights violations, and the lack of government 
control. Moreover, the presence of Rwandan rebels whose leaders are 
dedicated to the overthrow of the Rwandan Government, probably will 
remain a destabilizing factor over the next year at least. Five years 
of sustained pursuit by Uganda's military has reduced the Lord's 
Resistance Army's numbers and forced them to split up into smaller 
groups; however, the group still conducts hit-and-run resupply attacks 
on civilians.
    Nigeria
    Domestic instability, most notably from the terrorist group Boko 
Haram in the northeast, is a concern. Abuja's offensive operations in 
2013 against Boko Haram were initially successful in lowering the 
number of attacks, but, by September, the group had expanded its attack 
campaign and now conducts high-casualty attacks on a near-daily basis. 
Because Abuja is focusing its security services on a number of internal 
operations, its military is overstretched, eroding its ability to 
support external peacekeeping missions. Moreover, maritime crime 
increased significantly in the Gulf of Guinea in 2013, surpassing the 
number of attacks off the coast of Somalia for the first time since 
2008. Criminal networks have expanded their range of operations and 
become adaptable and sophisticated, while regional states lack the 
maritime security capacity to secure shared waters, largely due to a 
lack of political will, equipment, maintenance capacity, training, and 
cooperation.
East Asia
    China
    The People's liberation Army (PLA) is building a modern military 
capable of achieving success on a 21st century battlefield. The PLA is 
developing capabilities to protect China's defined territorial 
integrity, which includes Taiwan and other land and maritime claims 
along around China's periphery, preserve China's political system and 
ensure sustainable economic and social development. Preparation for a 
Taiwan conflict with U.S. intervention remains the primary driver of 
the PLA's evolving force structure, weapons development, operational 
planning and training.
    China has spent as much as $240 billion on military-related goods 
and services in 2013, in contrast to the $119.5 billion Beijing 
reported in its official military budget. This budget omits major 
categories, but it does show spending increases for domestic military 
production and programs to improve professionalism and the quality of 
life for military personnel.
    Disputed territorial claims in the East and South China Seas remain 
potential flashpoints. The Chinese announcement in November 2013 that 
it was establishing an air identification zone (ADIZ) over portions of 
the East China Sea has increased tensions since this ADIZ overlaps with 
other preexisting ADIZ's and covers territory administrated by Japan 
and the Republic of Korea. China's announcement raised tensions and 
increased the risk of incidents that could undermine peace, security, 
and prosperity in the region.
    China's ground force is seeking to restructure itself into a 
mechanized, modular force that can conduct joint operations anywhere 
along China's borders. This effort is currently taking shape with an 
emphasis on building and outfitting brigades as the main operational 
unit and creating flexible Special Operations Forces, improved army 
aviation units, and C2 capabilities with improved networks providing 
real-time data transmissions within and between units.
    China's air force is transforming from a force oriented solely on 
territorial defense into one capable of both offshore offensive and 
defensive roles--including strike, air and missile defense, early 
warning, and reconnaissance. It is also seeking to improve its 
strategic projection by increasing its long-range transport and 
logistical capabilities. Modernization efforts include investing in 
stealth technology. China also continues negotiations with Russia for 
Su-35 fighter aircraft; however, a contract is unlikely to be signed 
until later this year, at the earliest.
    The PLA navy is developing the JIN-class nuclear-powered ballistic 
missile submarine and JL-2 submarine-launched ballistic missile. We 
expect the navy will make their first nuclear deterrence patrols in 
2014. It has also recently deployed for the first time a nuclear-
powered attack submarine to the Indian Ocean. China is also continuing 
negotiations for the joint-design and production for a new advanced 
conventional submarine based on the Russian LADA-class. China's 
investment in naval weapons primarily focuses on anti-air and anti-
surface capabilities to achieve periodic and local sea and air 
superiority within the first island chain. China's first aircraft 
carrier, commissioned in late 2012, will not reach its full potential 
until it acquires an operational fixed-wing air regiment over the next 
several years.
    To modernize its nuclear missile force, China is also adding more 
survivable road-mobile systems and enhancing its silo-based systems. 
This new generation of missiles is intended to ensure the viability of 
China's strategic deterrent by ensuring a second strike capability.
    The military is also augmenting the over 1,200 conventional short-
range ballistic missiles deployed opposite Taiwan with a limited but 
growing number of conventionally armed, medium-range ballistic 
missiles, including the DF-16, which will improve China's ability to 
strike regional targets. China also continues to deploy growing numbers 
of the DF-210 anti-ship ballistic missile.
    Democratic People's Republic of Korea's (DPRK)
    Pyongyang's primary national objectives consist of preserving the 
current authority structure under the leadership of Kim Jong Un, 
improving the country's dysfunctional struggling economy, and deterring 
foreign adversaries from taking actions which could threaten the 
regime. In early 2013, Kim Jong Un articulated a policy of 
simultaneously pursuing the production of nuclear weapons and the 
development of the national economy. Pyongyang is likely to maintain 
this course for the foreseeable future.
    Kim Jong Un continues to exercise his authority in both senior 
Party and military positions, including First Secretary of the Korea 
Workers' Party, Supreme Commander of the Korean Peoples' Army, and 
First Chairman of the National Defense Commission. Since becoming 
leader of North Korea, Kim Jong Un has replaced or reassigned a large 
number of many senior party and military officials, placing younger 
officials more closely associated with him in key assignments. Kim's 
execution of his powerful uncle Chang Song-taek in December 2013 
eliminated the most influential senior Party official remaining from 
his father's era and sent a strong message to regime elites that the 
formation of factions or potential challenges to Kim Jong Un will not 
be tolerated.
    After Chang's execution, Pyongyang reiterated threats to attack 
South Korea for what it calls interference in its internal affairs. 
Although North Korea's large, forward-positioned conventional forces 
are capable of launching an attack on South Korea, the North's military 
suffers from logistics shortages, largely outdated equipment, and 
inadequate training. Pyongyang likely knows that an attempt to reunify 
the Korean Peninsula by force would fail, and that any major attack on 
the South would trigger a robust counterattack. Recent conventional 
military improvements have focused on developing the North's defensive 
capabilities and ability to conduct limited-scale military 
provocations, especially near the demilitarized zone and along the 
disputed maritime boundary in the Yellow Sea.
    The Korean People's Army conducts the majority of its training 
during the winter training cycle, from December through March. North 
Korea is stressing increased realism in military training, but training 
still appears to do little more than maintain basic competencies. 
Because of its conventional military deficiencies, North Korea also has 
concentrated on improving its deterrence capabilities, especially its 
nuclear technology and ballistic missile forces. The North conducted a 
nuclear test in February 2013, and in April announced its intention to 
'adjust and alter' the use of its existing nuclear facilities, 
including the plutonium production reactor and uranium enrichment 
facility at Yongbyon.
    On the nuclear front, we assess that North Korea has followed 
through on its announcement by expanding the size of its Yongbyon 
enrichment facility and restarting the reactor that was previously used 
for plutonium production. The regime is probably pursuing a uranium 
enrichment capability for nuclear weapons development, and the restart 
and operation of its plutonium production reactor could provide the 
North with additional plutonium for nuclear weapons. It also seeks to 
develop longer-range ballistic missiles capable of delivering nuclear 
weapons to the United States, and continues efforts to bring its KN08 
road mobile ICBM, which it paraded in July 2013, to operational 
capacity. In December 2012, the North also used its Taepo-Dong-2 launch 
vehicle to put a satellite in orbit, thus demonstrating its 
capabilities for a number of long-range missile applicable 
technologies.
Russia
    Russia continues to actively pursue its active foreign and defense 
policies, both along its periphery and elsewhere. In 2014, we expect 
Moscow will continue efforts to expand its influence in Eurasia by 
pushing its neighbors to increase cooperation with Russia and Russian-
led organizations rather than the West, as Moscow recently did with 
Ukraine and Armenia. Russian leaders likely regard their support of 
Syria as a success and Moscow will continue to promote a negotiated 
resolution to the crisis, consider higher-profile defensive arms 
deliveries on a case-by-case basis, block efforts to gain U.N. 
authorization for military intervention, and insist that the Syrians 
themselves rather than external forces must determine any transition in 
power. Russian leadership further views the recent PS+l agreement an 
opportunity to enhance bilateral relations with Tehran, although they 
will be wary of improvement in relations between Iran and the United 
States and European Union. Russia is ready to exploit any deterioration 
of relations between the United States and its allies and will move to 
offer support to such states.
    Russia's Afghanistan policy reflects an uneasy balance between 
Moscow's wish for stability in Afghanistan and its desire to prevent 
any long-term U.S. military presence in Central Asia. With the drawdown 
of U.S. forces this year, Russia is increasingly worried about security 
threats flowing from Afghanistan. Russia maintains friendly ties with 
the Afghan Government, but only provides modest aid. However, Moscow 
views the Afghan National Security Forces as insufficiently trained to 
secure Afghanistan after the departure of ISAF forces in 2014. Russia 
believes that bordering Central Asian states will be vulnerable to a 
spillover of violence and expanded narcotics trafficking. Moscow 
probably wishes to seize upon the departure of coalition forces from 
Central Asia-most notably the forthcoming closure of the Manas Transit 
Center in Kyrgyzstan--to reassert its influence in the region, 
particularly in the security sphere.
    Russia's 10-year rearmament plan is a top priority for the Armed 
Forces, but it faces funding and implementation risks owing in part to 
a potential decline in oil and gas revenues, spending inefficiencies, 
an aging industrial base, and corruption. Russia spent an announced $66 
billion on its Armed Forces in 2013, and the current budget plan calls 
for a 12.9 percent inflation-adjusted increase in 2014.
    We expect Russia's military modernization will lead to a more agile 
and compact force capable of more modern forms of warfare. A future 
force will be smaller, but more capable of handling a range of 
contingencies on Russia's periphery. We expect continued effort on 
improvement of joint operations capabilities and rearmament because of 
the high priority Russian leadership places on these portfolios. The 
general purpose forces wilt continue to acquire new equipment in the 
near-term, but deliveries will be small and largely consist of 
modernized Soviet-era weapons. Russia also has purchased select foreign 
systems, such as France's Mistral amphibious assault ship, unmanned 
aerial vehicles from Israel, and Italian light armored vehicles. The 
first Mistral, purchased from France, was launched in France on 15 
October 2013.
    Russia will continue to maintain a robust and capable arsenal of 
strategic and nonstrategic nuclear weapons for the foreseeable future. 
To support this policy, the Russian Government is making strong 
investments in its nuclear weapon programs. Priorities for the 
strategic nuclear forces include force modernization and command and 
control facilities upgrades. Russia will field more road-mobile SS-27 
Mod-2 ICBMs with multiple independently targetable reentry vehicles. It 
also will continue development of the RS-26 intercontinental ballistic 
missile, the Dolgorukiy ballistic missile submarine and SS-NX-32 Bulava 
submarine-launched ballistic missile, and next-generation cruise 
missiles.
Latin America
    Mexico
    President Enrique Pena Nieto will continue to prioritize reducing 
homicide, kidnapping, and extortion rates as the central element of his 
security strategy. He will rely on large-scale military troop 
deployments to reduce high-profile violence involving drug trafficking 
organizations. The military remains the lead on these efforts as police 
professionalization progresses slowly. At the state and municipal 
levels, police face the challenges of ongoing elevated violence, 
corruption, limited budgets and lack of government oversight.
    The Pena Nieto administration has had some security successes. In 1 
year, the military has fulfilled more than half of its high value 
targeting objectives for its 6-year term, arresting or killing 71 drug 
traffickers of a list of 122 priority targets. Intentional homicides 
declined for the second consecutive year, continuing a trend which 
began under the previous administration, but reported kidnappings and 
extortion have increased. More recently, the Michoacaan state 
government called on the Federal Government to address a growing 
conflict between vigilante or self-defense groups and traffickers, 
complicating the security picture for the administration, and 
potentially pulling resources from ongoing security operations 
elsewhere in the country.
    Mexican cartels are expanding their presence throughout the Western 
Hemisphere and partner with other criminal groups in the region to 
transship and distribute cocaine. Mexico is already the principal 
transit country for U.S.-bound cocaine and the primary foreign supplier 
of methamphetamine, heroin, and marijuana to the United States. The 
networks of Mexico's nine principal drug trafficking organizations also 
extend to six of seven continents, with the Sinaloa Cartel and Los 
Zetas having the farthest reach into these lucrative international 
markets. In addition to trafficking and distributing drugs, Mexican 
traffickers rely on organized crime syndicates and small criminal 
groups to launder money, obtain precursor chemicals for drug production 
in Mexico, and in some cases, produce drugs on their behalf.
    Honduras, El Salvador, and Guatemala
    The proliferation of drug trafficking groups and record-high 
violence will ensure these countries continue to employ the Armed 
Forces to combat drug trafficking and perform traditional law 
enforcement functions while ongoing police reforms attempt to bolster 
police capabilities. Guatemala also is plagued with drug traffickers 
throughout the country and has one of the highest murder rates in the 
world.
    Colombia
    The Defense Ministry is maintaining security operations against the 
FARC while Bogota conducts peace talks, which have become President 
Juan Manuel Santos's focus prior to the May 2014 presidential election. 
Santos replaced his defense high command in August 2013 and the Defense 
Ministry implemented a revised counterinsurgency strategy--Sword of 
Honor II--in October. While the revised campaign seeks to emphasize 
civil action programs, kinetic operations will continue under Sword of 
Honor II.
    Colombia's counterdrug performance is the strongest in the region, 
and potential cocaine production has decreased in recent years, but the 
country remains the leading producer of U.S.-bound cocaine.
    Venezuela
    Economic stress continues to build in Venezuela with inflation of 
56 percent in 2013 and scarcity of basic consumer goods, but 
frustration with President Nicolas Maduro's policies and the economy 
has not led to widespread sustained protests and the military 
leadership supports him. High crime rates--some of the highest in the 
region--added an additional level of insecurity, requiring the 
deployment of law enforcement and military troops. President Maduro 
lacks the charisma and popularity enjoyed by late President Hugo 
Chavez. Historically, military support has been critical for any 
Venezuelan president's ability to maintain power and ensure stability, 
and Maduro has provided incentives to build military loyalty. He has 
announced pay increases, and plans to improve military housing and 
health benefits. The military continues to modernize and will receive 
additional Chinese and Russian equipment deliveries. Caracas took 
possession of two Chinese medium transport aircraft in November and 
Russian long-range surface-to-air missile systems in April 2013. 
Caracas also increasingly employs the military in domestic roles.
    Cuba
    President Raul Castro will manage his nation's political, 
socioeconomic, and security force conditions to maintain regime 
viability and keep the likelihood of a mass migration to a minimum. 
While he will continue to implement economic reforms slowly and 
cautiously, Castro will adjust the pace as needed to assure his 
regime's continued grip on power. Cuban intelligence services, having 
proven very capable of penetrating key U.S. and DOD targets, remain the 
predominant counterintelligence threat to the United States emanating 
from Latin America.

    Chairman Levin. Thank you very much, General.
    We'll have a 7-minute first round.
    Director, let me start with you and ask you a few questions 
about Afghanistan. Our ISAF joint commander, Lieutenant General 
Mark A. Milley, USA, said that in 95 percent plus of tactical 
firefights in which the Afghan National Security Forces (ANSF) 
engaged, that they held their ground and defeated the enemy, 
and noted that at no time did the ANSF during this past summer 
lose any urban area or population center. He added that not a 
single district center was overrun by the Taliban.
    Do you agree with our military commanders in their 
assessment of the ANSF?
    Mr. Clapper. Let me start and General Flynn can chime in. 
There's no question that the ANA has enjoyed tactical success, 
particularly when they have had good leadership and had the 
enablers available to facilitate particularly a joint campaign. 
They are still beset by extensive desertion problems. Some 
30,000 troops deserted last year out of an army of 185,000.
    The other difficulty, of course, is the ANA has had great 
success tactically in their contacts with the Taliban; the 
difficulty has been holding something once it is cleared, 
particularly when it requires follow-up by the ANP.
    General Flynn, do you want to add to that?
    General Flynn. Mr. Chairman, I would just add that the 
ANSF, particularly the army but increasingly the ANP, have 
made, I would say, modest progress over the years. I think that 
they still--well, a couple of things. One, I think that there's 
great uncertainty in their minds because of the lack of a 
signing of the BSA, to be very candid. I think that the 
enabling capabilities that they still lack, things like 
intelligence, surveillance, and reconnaissance (ISR), counter-
improvised explosive device (IED) expertise, technology, the 
airlift, and logistics, so the types of sustainment 
capabilities are things that they still require in order for 
them to have progress on the battlefield.
    Chairman Levin. Thank you.
    Director, if we announced that we were going to await the 
next president to seek the signature on the BSA, what would be 
the effect inside of Afghanistan?
    Mr. Clapper. The effect already of the delay has been 
negative in terms of the impact on the economy, not to mention, 
I think, the psychological impact, particularly after the loya 
jirga last November approved going forth with a BSA. We're 
already seeing negative trends in terms of the economy. The 
gross domestic product is dropping and, importantly, I think, 
an important statistic or factoid is the drop in the number of 
foreign businesses that are investing in Afghanistan.
    Chairman Levin. Wouldn't it just clear the air for us to 
say we're going to await the next president?
    Mr. Clapper. Obviously, it takes two to sign this. It's my 
own view, not necessarily company policy, is that I don't 
believe President Karzai is going to sign it.
    Chairman Levin. Wouldn't it be clearing the air just to say 
we're going to await the next president, to eliminate the 
uncertainty?
    Mr. Clapper. That's a policy call, sir. That's not 
intelligence. I don't know what the decision will be as to 
what----
    Chairman Levin. Or what the effect will be? Do you have an 
assessment as to what the effect would be inside Afghanistan if 
we just made that declaration?
    Mr. Clapper. The declaration of what?
    Chairman Levin. That we're going to wait for the next 
president to sign the BSA.
    Mr. Clapper. I suppose it could have a salutary effect, if 
we said that.
    Chairman Levin. Now, in terms of Iran, if the joint plan 
that's been agreed to is successfully implemented, would its 
terms and conditions diminish Iran's nuclear capacity compared 
to where Iran would otherwise be in 6 months without that JPA?
    Mr. Clapper. It would, particularly since it rolls back the 
enrichment of the 20 percent highly enriched uranium. It puts 
curbs on the heavy water facility at Arak and, most 
importantly, it imposes very intrusive surveillance and 
observation carried out by the International Atomic Energy 
Agency (IAEA). But yes, it would help to set back the program 
some.
    Chairman Levin. Director, in December, in a letter to 
Senators Feinstein, Johnson, and myself, you said that the IC 
has reached the judgment, ``that new sanctions would undermine 
the prospects for a successful comprehensive nuclear agreement 
with Iran.'' Could you explain?
    Mr. Clapper. We think at this point, given the impacts of 
the sanctions that have been imposed already, which have been 
quite substantial in terms of the contraction of the Iranian 
economy, unemployment, inflation, et cetera, and the 
availability to them of getting access to their foreign 
reserves, have been quite substantial. I think our assessment 
would be that further sanctions at this point would probably be 
counterproductive.
    But it's important to remember that the Iranians understand 
our government and how we operate, and so in my view, the 
implicit threat of additional sanctions is more than 
sufficient.
    Chairman Levin. All right. Then finally, relative to Syria, 
what impact would a more robust program of training and 
equipping vetted members of the moderate Syrian opposition have 
on the ongoing conflict? Could it put additional pressure on 
Assad?
    Mr. Clapper. It could help. To the extent that we can put 
through and train more people that are vetted, that would 
probably be helpful.
    Chairman Levin. Thank you.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    I had six things I was going to ask, but I think Director 
Clapper answered two of them in a lot of detail. I want to 
mention something else about Snowden, the tide of war, and 
then, of course, U.S. Africa Command (AFRICOM), and then one 
other question about Iran.
    First of all, I thought you covered it very well, Director 
Clapper, in terms of what Snowden has done. The disturbing 
thing is, and we hear from an awful lot of people, they treat 
him as if he's a hero. I look at him more as a traitor. I would 
like to get from each one of you, that probably you'd agree 
that he's perpetrated the single greatest compromise of 
classified information in American history. Then second, have 
each one of you respond that--I believe that the vast majority 
of the 1.7 million documents that were stolen have nothing to 
do with the NSA or surveillance programs and if disclosed or 
placed in the hands of adversaries, will undermine our ability 
to defend our Homeland. Just something so that people will 
understand that the vast majority of this stuff really has 
nothing to do with the rights that people are concerned about 
under the NSA.
    Mr. Clapper. Yes, sir. As I indicated in my oral statement, 
the revelations have gone way, way beyond the concerns about 
the so-called domestic surveillance programs. To quantify this, 
it's a very small portion of the totality of what he's looked 
at. The 1.77 million is simply an assessment of what he looked 
at. We don't actually know what he actually took and what he's 
provided to his accomplices. But that's why I said in my 
statement that potentially this is by far the most damaging set 
of intelligence revelations in the Nation's history.
    Senator Inhofe. General Flynn, do you agree with that?
    General Flynn. Yes, Senator, I absolutely agree. The 
majority of what he took, without going into the details of the 
types of capabilities or components, have nothing to do with 
NSA.
    Senator Inhofe. Back when AFRICOM was started, I was most 
interested in that and it was good that we did it. However, 
setting it up so that they don't have control over their own 
assets comes back to haunt us, I feel, quite often.
    Put that chart up, if you would please, over there.
    [The information referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Senator Inhofe. If you look and see how much is going on 
right now in Northern Africa and the fact that they are 
dependent upon U.S. European Command (EUCOM) for their 
resources. I just got back from Africa, from EUCOM 
headquarters, and from that general area. I would like to have 
you comment as to your concern. In Africa headquarters, I was 
briefed that only 12 percent of all the requests of ISR are 
being met, due to the lack of resources.
    I'd like to have you give me your assessment as to the 
resources that are there, the assessments that have been made 
that only 12 percent of the concerns are being met or being 
addressed. Because my concern is that it's being budget-driven 
as opposed to risk-driven. What are your thoughts about AFRICOM 
right now and the resources they have? Of course, you 
mentioned, General Flynn, in this time of the budget restraint. 
That's my concern, that this is all budget-driven. Comments on 
that?
    Mr. Clapper. Sir, I can comment on certainly the threat 
that we see evolving in Africa. The map is quite suggestive of 
that. In both what's called the Sahel and then the Maghreb 
along the northern coast of Africa, we see a proliferation of 
either al Qaeda or al Qaeda wannabes or other terrorists who 
profess violence. Of course, it's kind of a perfect storm of 
conditions there, with large ungoverned areas, porous borders. 
The place is awash in weapons, primarily from Libya, and you 
have either unwilling or incapable security services able to go 
after these people.
    For the most part, they don't pose a direct threat to the 
Homeland now, but they certainly could in the future.
    As far as AFRICOM is concerned, I'll defer to General 
Flynn, but just to say it is clearly an economy of force 
operation. I think the AFRICOM Commander, General David M. 
Rodriguez, has done a superb job in marshalling the resources 
he does have, particularly in monitoring the situation in South 
Sudan.
    One other point I'd mention, since the President of France 
is visiting here, is that the French have capability in that 
part of the world from their history and they have great 
access, and have laid out a strategy in which they want to 
pursue terrorism. Of course, I think they would look to us for 
support and we're certainly going to try to do all we can to 
assist them, particularly with respect to intelligence.
    General Flynn. First, I appreciate your asking the 
question. I think that that map is very telling in terms of the 
threats that we face in AFRICOM. I think for viewers, one of 
the things to point out, where that number ``8'' is at the top 
there, which is on the coast of Algeria, down to the Gulf of 
Nigeria where the number ``10'' is, that distance is about the 
distance from New York to Los Angeles. So the scale of what 
we're talking about in AFRICOM and Africa as a continent is 
just huge.
    I think in terms of what AFRICOM is trying to do is they 
are working very hard to build African capacity where they can, 
basically partnering with the African nations to be able to 
build capacity bilaterally and then via coalitions. One of the 
capabilities that is a shortcoming, a major shortcoming, and we 
appreciate all the help from Congress on this, is the need for 
ISR capabilities, not just the capabilities that fly, but also 
the human intelligence and other aspects of ISR.
    Then, I think, as the Director just highlighted, the 
reliance on other partners, particularly European partners that 
do support many of these operations that are going on in 
Africa, that reliance is really critical for us.
    Senator Inhofe. My time is about expired, but I want to get 
an answer from each one of you. I keep hearing these things 
that different people in the administration are saying that al 
Qaeda is on the run, on the path to defeat. If you look at this 
chart up here, it depicts that al Qaeda and its allies have a 
presence and are now operating. To me it's just the opposite of 
that.
    Just yes or no, each one of you: Is al Qaeda on the run and 
on the path to defeat?
    Mr. Clapper. No, it is morphing and franchising itself, and 
not only here, but in other areas of the world.
    General Flynn. They are not.
    Senator Inhofe. Thank you.
    Chairman Levin. Thank you, Senator Inhofe.
    Senator Reed.
    Senator Reed. Thank you, Mr. Chairman.
    Thank you, gentlemen.
    General Flynn, could you briefly give us an update on the 
Defense Clandestine Service (DCS), including its purpose and 
how it relates to other agencies and organizations?
    General Flynn. Thanks for asking the question, Senator. The 
purpose is to provide human intelligence collection capability 
for defense and national requirements, principally for defense 
requirements. I would just say that in three areas we have seen 
significant improvement, and that is our field presence, which 
we have expanded our footprint overseas primarily. The second 
area is building stronger partnerships, not only with allies 
and other nations, but also with our Services and with 
especially U.S. Special Operations Command, and, of course, our 
great partner, the Central Intelligence Agency (CIA), in this 
endeavor.
    The last area, which is really part of instilling 
discipline into this whole system, we have seen a modest 
increase in our productivity in terms of reporting and just 
production from these capabilities that we have put out there 
over the last year.
    Senator Reed. Thank you.
    General Clapper, can you comment on the DCS from the 
perspective of its integration with other elements, since 
you're sitting at sort of the apex of the collection activities 
and other activities?
    Mr. Clapper. Sir, you're speaking specifically of the DCS?
    Senator Reed. How you view it.
    Mr. Clapper. I am a big supporter of it. I'm a former 
Director of the DIA and actually stood up the initial Defense 
Human Intelligence (HUMINT) Service when we combined strategic 
and HUMINT in DIA in the early 1990s. So, to me, this 
initiative is about taking this to the next level. It 
represents professionalization and greater partnering with the 
CIA's National Clandestine Service (NCS). I'm a big proponent 
of it. I think it is a unique capability. Particularly the 
uniformed officers provide a unique service to the national IC 
that no one else can do.
    Senator Reed. Thank you, General.
    General, turning to Syria, you stated that there are 
possibly 7,500 foreign fighters, which raises multiple issues, 
but two I want to concentrate on. First is stemming the flow of 
foreign fighters into the country, and perhaps just as 
importantly or maybe more importantly, tracking them as they 
exfiltrate from the country.
    Can you comment on both points, and also how, particularly 
with respect to tracking them as they leave the country, you 
are sharing this information with all of the relevant 
agencies--Federal Bureau of Investigation (FBI), Transportation 
Security Administration, Immigration and Customs Enforcement, 
et cetera--so that we don't find ourselves----
    Mr. Clapper. Yes, sir. That estimate, by the way, is 
probably conservative. Those are the ones we can actually 
account for. There are probably more.
    This is a huge issue in Europe with our allies and they 
share information on this with us and we share with them on 
this. That's the critical element in terms of sharing. They are 
very concerned about it.
    Part of the problem--I can be more specific in a closed 
environment--is, in some cases, lax rules about terrorists as 
they transit through intermediate countries. That's about all I 
can say in open session. We're trying to work that agenda as 
well.
    But, absolutely, sir, particularly those who may have, even 
if they're aspirational, designs on not only potential attacks 
in Europe, but attacks here. We are sharing information. I 
think Secretary of the Department of Homeland Security, Jeh 
Johnson, spoke to this very issue recently.
    Senator Reed. Just to be sure I'm clear, there is a 
conscious, deliberate effort to identify all these foreign 
fighters in Syria now and to be prepared, through cooperation 
with our agencies and other countries, to follow them if they 
come out? Is that fair?
    Mr. Clapper. Yes, sir, as best we can.
    Senator Reed. Thank you.
    Let me ask you another question. You commented about Mr. 
Snowden. Is it your sense that some of the vast amounts of 
information that he has collected could reveal agents, units, 
and sources that we have?
    Mr. Clapper. Yes, sir.
    Senator Reed. Thank you.
    Mr. Clapper. Both assets and those of our own people that 
are undercover.
    Senator Reed. General Flynn, you spoke about WMD, which is 
critical. Generally, are these chemical weapons or biological 
weapons? Is that what you're talking about, because WMD also--
--
    General Flynn. Yes, mainly chemical and biological 
capabilities.
    Senator Reed. Thank you. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Reed.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman. I thank the 
witnesses.
    Director Clapper, you say in your statement: ``President 
Assad remains unwilling to negotiate himself out of power.'' 
Does that mean that you believe the prospects of anything 
meaningful coming out of Geneva and now Geneva 3, or whatever 
it is, are minimal?
    Mr. Clapper. Sir, I'd say my expectations and I think the 
IC's expectations about the outcome of Geneva 2 have been 
pretty modest. Hopefully, what they've been talking about, to 
the extent that they'll talk to each other, is humanitarian 
issues. But in terms of a long-term political solution, I think 
that's problematic.
    Senator McCain. The premise of Geneva 1 was the transition 
of Bashar Assad from power and that is very unlikely, certainly 
given the circumstances on the ground.
    Mr. Clapper. It takes two parties to have a negotiation. I 
think the Syrian regime position is that's not negotiable for 
them.
    Senator McCain. The map that Senator Inhofe pointed out, I 
think that map would have looked dramatically different in 
January 2009 than it does today.
    But going back to Syria, have you seen the horrific 
pictures that have been--I'm sure you have--revealed recently 
of the documented examples of torture and murder? Have you seen 
those documents?
    Mr. Clapper. Yes, sir. They're terrible. When you consider 
the humanitarian disaster, in addition to the 2.5 million 
refugees, the 6.5 or 7 million that are internally displaced, 
the 134,000-plus people who have been killed, it is an 
apocalyptic disaster.
    Senator McCain. Do you believe those documents are 
authentic?
    Mr. Clapper. As best we know, yes, sir.
    Senator McCain. It's your professional opinion that they 
are authentic?
    Mr. Clapper. I believe they are. I have no reason to doubt 
their authenticity and it would be difficult for something of 
that magnitude to have been fabricated.
    Senator McCain. Thank you.
    The situation, as I quote from your statement, is that: 
``The regime and many insurgents believe they can achieve 
victory, given their respective capabilities.'' In other words, 
the next 6 months will be basically status quo, in your written 
statement?
    Mr. Clapper. Sir, I think what we're facing right now is a 
prolonged stalemate, where the regime doesn't have the staying 
power to hold onto areas they clear and, with the external 
support to the oppositionists, they will continue to be a thorn 
in the side for the regime.
    Senator McCain. So the statement of the President of the 
United States that it's not a matter of whether, but when, 
Assad will leave power, is no longer operative, nor the 
testimony before this committee by the Chairman of the Joint 
Chiefs of Staff and then-Secretary of Defense Panetta that, 
``The departure of Bashar Assad is inevitable.''
    Would you agree that the situation was dramatically changed 
on the battlefield when 5,000 Hezbollah came in, the Iranian 
revolutionary government, and the increased weapons supplies 
from Russia? Would you agree that they basically had a 
significant effect on the battlefield?
    Mr. Clapper. I was one of those--in fact, I think I may 
have said it here last year, that at the time, at some point 
Assad's days are numbered; we just don't know the number. But 
what has made a huge difference, of course, has been the 
external support from Russia, Iran, and its surrogate 
Hezbollah.
    Senator McCain. Syria and Iraq have become an al Qaeda 
training ground and transit point back and forth for al Qaeda 
and al Qaeda-affiliated groups?
    Mr. Clapper. Correct. It's a very porous border there.
    Senator McCain. Really, when you look at Lebanon, Jordan, 
Turkey, even Kurdistan, this is to a large degree a regional 
conflict, would you agree?
    Mr. Clapper. It certainly has regional implications, 
absolutely.
    Senator McCain. 7,000 foreign nationals would want to 
return some day to their own country.
    Mr. Clapper. That's the going presumption.
    Senator McCain. The 26,000 who are there are extremists 
that, as you point out, who would like to attack to the United 
States of America. In your words, intentions.
    Mr. Clapper. Well, not all 26,000, necessarily. By the way, 
that is the high end for the extremists. But, for example, Al-
Nusra Front has long professed a desire to ultimately attack 
the Homeland.
    Senator McCain. The longer this goes on, really, and the 
more foreign fighters that go in, et cetera, et cetera, the 
more likely there is a greater and greater threat actually to 
the United States of America; would you agree?
    Mr. Clapper. I would.
    Senator McCain. Could you tell me in your mind what are 
some of the options that we could examine in order to change 
this stalemate on the battlefield, basically, as you've 
described it, and I agree with?
    Mr. Clapper. Sir, there are some things we could do that, 
at least in my domain, are probably best left to closed 
session. But there are some things we could do. I'm not sure we 
can dramatically increase our assistance, but at least on my 
front, which is the intelligence area, there are some things we 
could do.
    Senator McCain. I thank you, and I understand why. But 
there are additional measures we could take that we haven't 
taken; is that true?
    Mr. Clapper. I'm sure there are, but it's not my place to 
speak to those.
    Senator McCain. I understand that.
    Finally, I guess as my time runs out, it's a little 
difficult for a Syrian mother to differentiate whether her 
child has been killed by a chemical weapon or starved to death 
or by a conventional weapon; would you agree?
    Mr. Clapper. Absolutely, yes, sir.
    Senator McCain. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCain.
    Senator Donnelly.
    Senator Donnelly. Thank you, Mr. Chairman.
    Director Clapper and General Flynn, thank you for your 
service and I thank the people of your organizations for their 
service as well. As I ask these questions, if the answers 
should be in a closed session, I'm sure you will let me know.
    One of the things that we worry about, obviously there are 
cyber attacks, but physical attacks. What I always think is, 
what keeps me up at night when I think about what can happen 
next? I wonder what your greatest fear is as to a physical 
attack here in our country?
    Mr. Clapper. You're speaking of a kinetic attack against 
the country?
    Senator Donnelly. Yes, sir.
    Mr. Clapper. I would worry more, frankly, about cyber 
attacks and the potential damage that could cause if it were on 
a large-scale basis. Fortunately, the nation-state entities 
that have that capability probably have lesser intention to do 
so, whereas the non-state entities that have less benign 
intentions don't have the capability. That's kind of the mode 
we're in right now.
    That's why I'm very concerned about the up-and-comers, if 
you will, not the first line, which of course means China and 
Russia, but the others that have more malign intent towards us, 
as they acquire greater capability.
    Senator Donnelly. General?
    General Flynn. I just would answer it by really two things. 
On the cyber side, I think an attack against our critical 
infrastructure that would have potential damaging effects, our 
transportation, health care, clearly financial, is an area that 
we have to pay very, very close attention to, and our energy 
sector.
    On the kinetic side, there's a range of things that keep me 
up at night. When you see these Mumbai-style attacks, what 
happened in the mall in Nairobi, what happened during the 
Boston Marathon, those are the kinds of things that we have to 
continue to work together in the IC to make sure that we're 
working as seamlessly as possible to share everything that we 
have, not only within the defense side and the national side, 
but also on the Federal, State, local, and tribal level. I 
think that that's really an important aspect of what we're 
trying to do in the IC, is to work on integration of our 
intelligence system.
    Senator Donnelly. That's where I wanted to go next, the 
integration, because I think back to 2001 and I think of things 
that, when put together, here is a pilot school and people are 
being trained there. How good is the coordination today in 
terms of all the different organizations talking to one another 
to say, look, we have something that looks a little off here, 
but we want to put it out to everybody else to see what you 
think.
    Mr. Clapper. Sir, I was around then in the IC and I would 
tell you that I think it's vastly improved. I think emblematic 
of that particularly has been the integration of the FBI into 
the IC. That's made a huge difference in terms of penetrating 
what had been this firewall for many years between foreign and 
domestic.
    The standup of the Department of Homeland Security (DHS) 
has facilitated that as well, as they engage with the State, 
local, and tribal entities. I think there's been a lot of 
improvement, but this is a journey and not a fixed end point.
    Senator Donnelly. In regards to the Snowden damage, when we 
look at that--I just saw a report, and I don't know how 
accurate it was, where they said he used simple software to 
pull this off. I guess the fear is--and you certainly hope 
there is not a next Snowden--but what steps are being taken or 
how are we making sure that when we put all this effort in that 
somebody with a couple of different software packages or their 
innate talent cannot do this again?
    Mr. Clapper. Sir, of course, in Mr. Snowden's case it was a 
perfect storm for him since he was a systems administrator and 
a highly skilled, technically skilled IT professional. He knew 
exactly what he was doing, and it was his job as a system 
administrator to range across a lot of databases, and he was 
pretty skilled at staying below the radar so what he was doing 
wasn't visible.
    Had he been at Fort Meade proper, at NSA headquarters, the 
likelihood is he would have been detected a great deal sooner. 
So we are deploying with the NSA, and the rest of the IC, a lot 
of things in terms of two-man control and tightening up 
discipline on the privileged users and who has access. We are 
going to proliferate deployment of auditing and monitoring 
capabilities to enhance our insider threat detection. We're 
going to need to change our security clearance process to a 
system of continuous evaluation.
    That all said, though, there are no mousetraps that can 
guarantee that we'll never have another Edward Snowden. Our 
whole system is based on personal trust. We've had 
historically, unfortunately, egregious violations of that 
personal trust. We have them right now and we'll have them in 
the future. But our job is to ensure that we can detect sooner 
and consequently deter revelations of this magnitude.
    Senator Donnelly. Finally, you talked about organizations 
and materials they have that could cause incredible damage, 
whether it's a portion of WMD or they have these chemicals 
here, those chemicals there. It's not always government; it is 
shadow organizations and others. In terms of tracking them, do 
we have a pretty good idea where these groups are located?
    Second, you mentioned that these attacks are just as likely 
in Europe as they would be here. Possibly you look at the 
situation in Chechnya, that Russia is also a potential. Are we 
working with these other governments even when they're not the 
most friendly to us, number one? Number two, are we tracking 
these groups on a constant basis?
    Mr. Clapper. We track them as best we can. This is a very 
tough intelligence problem. This is particularly daunting with 
respect to biological weapons since there are so many dual 
applications where it's not readily evident that something is 
being done for nefarious purposes.
    The other thing that helps us a bit, as we've seen in 
Syria, is that without the required expertise and the 
industrial infrastructure capability it's pretty hard for these 
groups to do much with them. But this is something that we 
watch very carefully.
    Yes, we attempt to cooperate as broadly as we can with all 
foreign partners, to include the Russians, who have--I think 
their level of cooperation has improved as time has gone on 
here and now that we're into the Sochi Olympics, particularly 
with respect to external threats.
    Senator Donnelly. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Donnelly.
    Senator Chambliss.
    Senator Chambliss. Thanks, Mr. Chairman.
    Gentlemen, we often forget that the men and women that 
serve under you are putting their lives in harm's way every 
single day and, in spite of all the difficulties that we face 
that you've alluded to, we can never forget the fact that those 
men and women have done an outstanding job over the last 
several decades, but particularly as you back from September 11 
forward they've done an amazing job of collecting intelligence 
and providing it to your customers to ensure that America has 
not sustained another major attack. So please express to them 
our appreciation for their great work.
    Director Clapper, one country that has been a valued 
partner for so many years that it's gotten lost in the shuffle 
of what's been going on in the Middle East particularly and in 
Africa over the last several weeks and months is Egypt. Egypt 
has been a strong ally for so many years, a great partner in 
the IC as well as otherwise. We've had military operations as 
well as intelligence operations with Egypt for decades.
    Now there's a lot of turmoil over there. When President 
Mubarak was ousted, the administration quickly threw him under 
the bus and embraced the Muslim Brotherhood, who came into 
power. There's been no change in the position of the 
administration that I'm aware of on that. Even if there has 
been, I can tell you, having just returned from another trip to 
the Middle East, as well as having conversations with other 
allies from the Middle East over the last few days and weeks, 
there is a strong perception in that part of the world that the 
United States is still embracing the Muslim Brotherhood, 
particularly in Egypt, from a political standpoint.
    With all of the opportunity for training in the Africa 
region, particularly Libya and Syria and other countries that 
are not far away from Egypt, give us your assessment as to the 
security condition of Egypt today, particularly as they move 
into elections, and where are we headed there?
    Mr. Clapper. Senator Chambliss, first, thank you very much 
for your commentary about the work of the men and women of the 
IC. We certainly will convey that. I think you're quite right 
to highlight the importance of Egypt just from the standpoint 
of its prominence from a population standpoint, if nothing 
else. It is a centerpiece in the Mideast, a very strategic ally 
because of access to the Suez Canal and the peace treaty with 
Israel. You can go on as to why Egypt is so critically 
important.
    The security situation there is something we're watching 
and are very concerned about, particularly in the Sinai, and 
the emergence of a group called Ansar Bayt al-Magdis, which is 
a terrorist group that is an al Qaeda wannabe, that has 
attacked the Egyptian military in the Sinai, and, of course, 
poses a threat to Israel. There are other groups--Muhammad 
Jamal, some of whom were involved in the Benghazi attack, and 
other groups in Egypt that we're very concerned about.
    That said, what we have attempted to do--and John Brennan, 
because of his long familiarity with that area of the world, 
has, I think, led this effort for the IC--is reach out to the 
Egyptian security services and sustain our important 
relationship with them, despite all the vagaries of policy, to 
sustain a strong intelligence partnership.
    Senator Chambliss. General Flynn, I was also in Afghanistan 
on that same trip and the feeling of our military, our 
diplomatic corps, and our IC is exactly the same when it comes 
to the future of Afghanistan, and that is there is just an 
uncertainty out there that's been created by the fact that no 
decision's been made by the administration on what sort of 
force structure will remain in place in Afghanistan to ensure 
that the gains that we've made over the years are going to 
remain in place and that there will be security provided for 
both the diplomatic as well as the IC going forward, which is 
critical to ensure that those gains are maintained.
    In looking at the elections that are forthcoming and taking 
into consideration Karzai, who I think is off the charts now, 
and his statement that he's not going to sign the BSA, when you 
look at the candidates who are up for election--and I know 
there's a significant number of them, but they can be narrowed 
down to serious candidates--it's my understanding that all of 
those have either publicly or privately said they intend to 
sign the BSA.
    What's keeping us now from going ahead and making a 
decision based on the fact that we know the BSA will ultimately 
be signed? Why shouldn't we go ahead and clear up that 
uncertainty that exists with American assets on the ground in 
Afghanistan?
    General Flynn. That's clearly a policy issue, Senator, in 
terms of what the final decision's going to be by the 
President. I would say, because I would echo what we've already 
discussed, the level of uncertainty, the potential loss of 
confidence by the people of Afghanistan, by the ANSF, is a real 
problem. The loya jirga that was already held late last year 
confirmed that the people of Afghanistan want this BSA signed. 
President Karzai has stated what he's stated.
    I would just say that for the long term we just need to 
make sure that we also keep in mind the international 
community's commitment to this effort as we go forward.
    Mr. Clapper. Among the 11 candidates, sir, they haven't 
coalesced around a lesser number. All 11 are hanging in there 
and at least publicly to this point President Karzai has not 
indicated a favorite. What that sets up, of course, is the 
election and then probably after that, one or more runoffs of 
some sort, to actually come up with an elected president.
    Then you have to wonder, well, will the first act be to 
sign a BSA? So this could be a very prolonged process.
    Senator Chambliss. Thank you.
    Chairman Levin. Thank you, Senator Chambliss.
    Senator King.
    Senator King. Thank you, Mr. Chairman.
    A couple of introductory comments. I'd like to echo Senator 
Chambliss' comment to both of you. Senator Levin and I went to 
the Middle East in the summer and my wife asked me my overall 
impression when I got back and I said: My biggest single 
impression is the quality of people we have working for us in 
the IC, in the military, in the State Department; and, frankly, 
we haven't been treating them all that well recently, with 
shutdowns and furloughs and pay freezes.
    I know it's sort of hollow to say we appreciate it, but 
we're not keeping up with what we ought to be doing. I just 
want you to convey that there are people that realize sometimes 
I think we're getting better service than we deserve, frankly, 
and I wanted to make that statement.
    The second is, I've been coming to these hearings now for a 
little over a year. In every single one that I've been in, the 
alarm bells about a cyber attack have been sounded. I remember 
one of the witnesses said that our number one threat was a 
cyber attack; the next Pearl Harbor would be cyber, et cetera, 
et cetera. Yet, we in Congress, haven't done anything.
    In 2012, there was a major cyber bill that didn't pass. 
This isn't a criticism of anybody individually, but I'm getting 
frustrated that this institution isn't moving on what we are 
told is the most serious threat that we're facing. There is 
some motion and discussion going on, but I for one would like 
to see that accelerated, because you both have pointed out that 
this is a major threat and is something we need to deal with.
    First question. According to a Reuters story on the 12th of 
January, there is significant difference in the intelligence 
assessment of the civilian agencies and the military about the 
future of Afghanistan after 2014. Since you guys represent 
those two elements, are there differences, and if so, to the 
extent you can tell us in an open hearing, what are they? I 
understand one side is a little more--not a little more--a lot 
more pessimistic than the other. Mr. Clapper?
    Mr. Clapper. First, thank you for your commentary about our 
people.
    Just a brief word on the cyber legislation. I think it's 
clear we recently recognized we need a partnership with the 
civilian sector as, if nothing else, a first line of warning.
    Ever since we've done National Intelligence Estimates (NIE) 
on Afghanistan, starting in 2007, I think we, the IC, has 
always been probably occupying the half of the glass that's 
empty and others, normally DOD, have occupied the half of the 
glass that's full. So there is, I think, some difference.
    I think we in the IC, though, are pretty firm about what 
the future of Afghanistan holds. I will tell you, the most 
important factor in influencing that future is the sustained 
external support for Afghanistan and the Afghan Government in 
order to sustain the army, which is improving.
    In our last NIE, I think, there is an instructive annex, 
Annex B, which speaks to the Russian history, and it does 
illustrate--we can argue about the comparison between the 
Russians and us and what the Afghan people think of them, but 
in the end it is that external support that is going to have 
the most influence on the future of Afghanistan.
    Senator King. That was going to be my second question. Just 
to be clear, you're talking about long-term fiscal support. How 
about any troop presence?
    Mr. Clapper. There is a debate about the importance, I 
suppose. To the extent that we can sustain an advise, train, 
and assist kind of mission, that will certainly facilitate the 
Afghan Government and ensure its future.
    Senator King. Let's just turn to Iran for a minute. 
President Rouhani presents a different face. In your 
professional opinion, is this a difference in kind or just 
cosmetics?
    Mr. Clapper. I think it's probably substantive, but again, 
the Supreme Leader is still the Supreme Leader. Rouhani and the 
Supreme Leader have known each other for over 30 years, and 
have worked together before, so I do think the Supreme Leader 
does have faith and confidence in Rouhani.
    But if he doesn't produce, and if there isn't some 
indication of improvement in the Iranian economy, because to 
the long-term viability of the regime will be threatened. I 
believe it's genuine, but it's pragmatic.
    Senator King. Does our IC have a role to play in verifying 
whether the Iranians are living up to the commitments made in 
the original agreement?
    Mr. Clapper. Yes, we do.
    Senator King. Do you think it's possible for us to have 
realistic verification?
    Mr. Clapper. I do, because of the extensive additional 
surveillance authorities that will be given to the IAEA.
    Senator King. A final question. General Flynn, I'm sorry; I 
don't mean to be ignoring you.
    But, Director Clapper, you talked about Edward Snowden and 
the difference between a whistleblower and a person that's done 
harm to this country. Would you expand on why he is not a 
whistleblower or a hero?
    Mr. Clapper. I'm only speaking to it from my standpoint and 
I've tried to stay out of the debate about his legal status and 
all that sort of thing. All I can speak to is potentially the 
tremendous damage that he has done, which goes way beyond his 
concerns about so-called domestic surveillance.
    Senator King. Damage, you mean in terms of damage to our 
ability to gain information that might be important.
    Mr. Clapper. The compromise of sources, methods, and 
importantly, tradecraft, and the jeopardy that has been placed 
at many of our valued overseas partners.
    Senator King. General Flynn, one quick final question on 
Afghanistan. Do you feel it's going to be necessary not only to 
have monetary support, but some kind of troop presence in 
Afghanistan, in order to maintain the gains that the country 
has made in this effort?
    General Flynn. Senator, in my judgment, I do. I believe we 
need that.
    Senator King. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator King.
    Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    I just got off the phone to General Dunford about a major 
issue affecting our forces in Afghanistan. If I could, I'd like 
to read his statement and explain the issue a bit and not have 
it taken out of my time, if that's possible.
    Chairman Levin. Let's take this a step at a time, why don't 
we.
    Senator Graham. Okay.
    Chairman Levin. We'll see if there's any objection. I 
don't, maybe others will.
    Senator Graham. Let me just read the statement from General 
Dunford. This was just given to me just about 5 minutes ago:

          ``U.S. Forces Afghanistan has learned that 65 
        dangerous individuals from a group of 88 detainees 
        under dispute have been ordered released from the 
        Afghan National Detention Facility at Parwan. The 
        United States on several occasions provided extensive 
        information and evidence on each of the 88 detainees to 
        the Afghan Review Board, to the Afghan National 
        Director of Security, and to the Attorney General's 
        Office.
          ``This release violates agreements between the United 
        States and Afghanistan. We have made clear our judgment 
        that these individuals should be prosecuted under 
        Afghan law. We requested that cases be carefully 
        reviewed, but the evidence against them was never 
        seriously considered, including the Attorney General, 
        given the short time since the decision was made to 
        transfer these cases to the Afghan legal system.
          ``The release of 65 detainees is a legitimate force 
        protection concern for the lives of both coalition 
        troops and ANSF. The primary weapon of choice for these 
        individuals is the IED, widely recognized as the 
        primary cause of civilian casualties in Afghanistan. 
        The release of these detainees is a major step backward 
        for the rule of law in Afghanistan. Some previously 
        released individuals have already returned to the fight 
        and this subsequent release will allow dangerous 
        insurgents back to Afghan cities and villages.''

    I want to lend my support to this statement, Mr. Chairman. 
I've been working on this issue for quite a while. 88 detainees 
are the subject of this dispute. Our forces have evaluated 
these people as very dangerous to the Afghan people and to 
coalition forces. We've only requested that they go through the 
Afghan legal system. President Karzai has basically sidestepped 
his own rule of law. He's ordered the attorney general to take 
these files over and the immediate release of 65 detainees 
without ever going through the Afghan legal system, which has 
had about a 70 percent conviction rate.
    We just lost two members of the unit I worked with as a 
reservist who were providing mentoring at the main prison in 
Afghanistan.
    I will be introducing a resolution condemning this action 
by President Karzai. I will be urging my colleagues to cut all 
developmental aid off to Afghanistan as a response until after 
the next election.
    I want my colleagues to know that General Dunford has done 
a wonderful job trying to protect our forces and he finds this 
release an offense to those who have fought to detain these 
people, an affront to those who've died at their hands. Of the 
88 individuals in question, over 60 coalition forces have died 
as a result of the actions of these 88, and I consider this a 
major step backward in our relationship. I don't know what I 
would tell a member of a coalition force that was killed by one 
of these 65 if that did happen, and I hope and pray it does 
not. But the likelihood is great.
    I would end with this thought: President Karzai, in my 
view, is singlehandedly destroying this relationship, that his 
erratic behavior, that his outrageous statements you mentioned, 
Mr. Chairman, are doing great damage, and I want the people of 
Afghanistan to know that I yearn for a supportive relationship, 
political, militarily, and economically, but actions like this 
make it very hard for an American politician to do business as 
usual in Afghanistan.
    General Flynn, you were over there dealing with this issue 
when I saw you in your last tour. I just want to let the folks 
who are in charge of maintaining security over these detainees 
and all the people in charge of catching these guys that this 
is an affront to them and their work effort and it will not go 
unnoticed by Congress. I look forward to developing a 
bipartisan plan to push back as hard as possible. The release 
is supposed to happen Thursday.
    Chairman Levin. Thank you for bird-dogging this issue.
    Senator Graham. Thank you, Mr. Chairman.
    Now, back to the topic at hand. Director Clapper, General 
Flynn, do we have the legal authority under the Authorization 
for the Use of Military Force (AUMF) to initiate strikes 
against Al-Nusra in Syria and Ansar Al-Sharia in Lybia?
    Mr. Clapper. Sir, you're getting into a legal area here 
that I would want to ask about. I don't want to give an 
unequivocal answer to that.
    Senator Graham. But I want to reassert what you've told 
this committee and the Nation last week and this week, that the 
growing presence of Al-Nusra, a safe haven in Syria now 
attached to Iraq, is presenting a direct threat to the 
Homeland. Is that still your estimate?
    Mr. Clapper. It's a little more nascent than that, but I 
think if I had to have a yes or no answer to that, I'd say yes.
    Senator Graham. General Flynn, do you agree with that?
    General Flynn. I think without some type of what I would 
just describe as counterterrorism pressure, we are looking at a 
growing sanctuary for terrorist groups to thrive from.
    Senator Graham. They have as a desire to drive us out of 
the Mideast, is that correct, these groups?
    Mr. Clapper. Absolutely. They would like to have their own 
Islamic emirate.
    Senator Graham. So whether it's core al Qaeda or an al 
Qaeda affiliate, the goal is the same, no matter what the name 
may be, is to drive the United States out of the Mideast and 
create an Islamic caliphate throughout the region. Is that the 
goal of all these organizations? Yes?
    Mr. Clapper. Yes.
    Senator Graham. Okay. Attempts against the Homeland have 
been generated by organizations other than core al Qaeda, is 
that correct?
    Mr. Clapper. Yes, that's the case.
    Senator Graham. Now, you talk about the perfect storm--
sequestration, diminished NSA capability, an emboldened enemy, 
a region on fire. Is that a fair summary of what you think the 
perfect storm may be?
    Mr. Clapper. Yes, sir.
    Senator Graham. Of those things that we control, it seems 
like budgeting is one of the things we can control here in 
Congress. Do you agree with that, both of you?
    Mr. Clapper. Yes, sir.
    Senator Graham. Can you give me a good reason why the U.S. 
Congress would be diminishing your ability to defend this 
Nation, given the threats you've described?
    Mr. Clapper. I hate to go where angels fear to tread here 
and I'm certainly not going to be critical of Congress. But we 
do the best we can with the resources we're given.
    Senator Graham. Let's put it this way. If sequestration is 
fully implemented in year 10, how much more risk will we assume 
in terms of the Nation?
    Mr. Clapper. Substantial. I can't quantify that, but every 
year we cut resources and we have less capacity and less 
capability, we are by definition assuming more risk.
    Senator Graham. Do you agree with that, General Flynn?
    General Flynn. I absolutely agree with it.
    Senator Graham. Is the word ``substantial'' a good word or 
should it be stronger?
    Mr. Clapper. I think ``substantial'' is a good adjective.
    Senator Graham. Do you agree with that, General Flynn?
    General Flynn. I do.
    Senator Graham. Now, when it comes to the Russians, this 
recent release of a conversation between two of our diplomats, 
do you think the Russians intercepted that phone call?
    Mr. Clapper. We don't know. They would certainly be on the 
potential list of suspects.
    Senator Graham. Is it fair to say the Russians are probably 
spying on our diplomats?
    Mr. Clapper. I think that's a fair assumption, yes, sir.
    Senator Graham. Let's go to Iran. If the final agreement 
reached between the United States and all the parties in 
question allows the Iranians an enrichment capability so they 
continue to enrich uranium, what's the likelihood that Sunni 
Arab nations would want the same kind of enrichment capability?
    Mr. Clapper. I think that's certainly a possibility. I 
don't know. It would be an individual case-by-case judgment, 
but that's certainly a possibility.
    Senator Graham. I just got back from the Munich Security 
Conference and every Sunni Arab leader I talked to said: ``We 
would ask for the same thing they have.''
    We told the United Arab Emirates (UAE) that you could have 
a nuclear power program, but you can't enrich. Are you familiar 
with that?
    Mr. Clapper. Sorry, sir?
    Senator Graham. We told the UAE that we would support a 
peaceful nuclear power plant, power program, but would deny 
them the ability to enrich uranium. Are you familiar with that?
    Mr. Clapper. I am not.
    Senator Graham. We just told one of our best allies they 
can't enrich.
    If you had to list in order the countries that you fear 
having a nuclear weapon, where would you put Iran?
    Mr. Clapper. Pretty high.
    Senator Graham. Do you agree with me, whatever nuclear 
capability they possess could lead to an arms race in the 
Mideast?
    Mr. Clapper. Sir, I think it would be very dependent on 
safeguards and the limitations of their program. That's kind of 
a hypothetical question.
    Senator Graham. Have you talked to the Sunni Arab nations 
about whether or not they would claim the right to enrich if we 
give it to Iran?
    Mr. Clapper. I'm sorry, sir?
    Senator Graham. Have you talked to any Sunni Arab leaders 
about whether or not their nation would claim a right to enrich 
uranium if the Iranians were given that?
    Mr. Clapper. I have not had such a discussion, no.
    Senator Graham. Would you please have that conversation and 
report back to us in some appropriate form?
    Chairman Levin. Senator Graham, was the answer yes to that?
    Senator Graham. He said no.
    Mr. Clapper. I have not had the conversation, Senator, that 
you suggest.
    Chairman Levin. The last question, which will have to be 
the last question in this round.
    Senator Graham. Thank you.
    Chairman Levin. The question was: Would you talk with them 
and report back to us?
    Mr. Clapper. Yes, I will, when I can.
    Chairman Levin. Thank you, Senator.
    Senator Graham. Thank you.
    Chairman Levin. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    I would just like to add a modification to my colleague's 
comment about the 123 Agreement that we have negotiated with 
the UAE, because, in fact, it was the UAE that voluntarily 
offered not to enrich as part of that agreement. So, it's a 
minor difference, but I think an important one in this context.
    [Additional information follows:]

    Section 123 of the U.S. Atomic Energy Act of 1954, ``Cooperation 
with Other Nations'', establishes an agreement for cooperation as a 
prerequisite for nuclear deals between the United States and any other 
nation. Such an agreement is called a ``123 Agreement.'' The U.S.-UAR 
Agreement for Peaceful Civilian Nuclear Energy Cooperation is a 123 
Agreement on peaceful nuclear cooperation between the United States of 
America and the United Arab Emirates (UAE), which entered into force on 
December 17, 2009, and enables the UAE to receive nuclear know-how, 
materials, and equipment from the United States. As part of the 
agreement, the UAE committed to forgo domestic uranium enrichment and 
reprocessing of spent fuel, as well as sign the International Atomic 
Energy Agency's Additional Protocol which institutes a more stringent 
inspections regime on the UAE's nuclear activities.

    Senator Shaheen. Director Clapper, I want to follow up a 
little bit on Senator Donnelly's questions about the impact 
from Edward Snowden's leaks and what the Agency is doing to 
address that. You commented that you're in the process of 
changing the clearance process for individuals. Can you 
describe a little more about what that means and when that's 
going to be completed? It has been I think over a year since 
Snowden defected, so I would hope that we could have a process 
in place.
    Mr. Clapper. The system we use today is, of course, 
people--and I'm speaking now of the TS-SCI level clearances, 
although it applies as well. You get an initial clearance and 
then at some period after that--it's supposed to be 5 years--a 
periodic reinvestigation is done to update the currency of that 
person's clearance.
    What we need is--and this is, I think, pretty much 
recognized--a system of continuous evaluation, where when 
someone is in the system and they're cleared initially, then we 
have a way of monitoring their behavior, both their electronic 
behavior on the job as well as off the job, to see if there is 
a potential clearance issue.
    So our plan within the IC is to declare initial operational 
capability, which is about six or seven data streams, by this 
September and what we are calling fully operational capability 
by September 2016, which is pretty ambitious. This is not 
something we can do for free. It's going to require resources.
    In the meantime, we can't stop. We have to continue with 
the current system. So this is a major undertaking which is 
going to be costly. But we're committed to it because the 
current system, as we've seen all too unfortunately, is not as 
effective as it needs to be.
    Senator Shaheen. Are you going to be sharing that change in 
process with other agencies that might have similar concerns 
about a potential Edward Snowden in the future?
    Mr. Clapper. This applies across the government. I am most 
concerned, obviously, most directly with the IC, but it applies 
across the government, because it also applies in a SECRET 
context, since there are many SECRET clearances throughout the 
rest of the government.
    Senator Shaheen. Thank you.
    There have been several news reports the last week about 
Syria's failure to meet deadlines that were negotiated as part 
of the agreement to reduce their chemical weapons. Do you think 
that this is a deliberate effort on the part of Syria to slow-
walk getting rid of its weapons? Can you talk about the role 
that Russia is playing in what's happening right now?
    Mr. Clapper. That's a very good question. It's something we 
monitor as carefully as we can. Given the fluid situation in 
Syria, it is a little hard to discern what is a genuine 
security concern, which, of course, could also be used to slow-
roll. Certainly it's in the regime's interest to stretch out 
this process as long as possible because in a way it serves to 
implicitly legitimize Assad.
    I think it is in Russia's best interest because they view 
this as a diplomatic achievement on their part to have brokered 
this agreement, so I think they will continue to press the 
regime to move, either destroy them in place or to move them 
out of the country.
    Senator Shaheen. Do we have any knowledge that Russia is 
continuing to put pressure on Syria to do that?
    Mr. Clapper. Yes, we do.
    Senator Shaheen. But they're not responding, obviously.
    Mr. Clapper. The Syrians will claim, as they do to the 
Organization for the Prohibition of Chemical Weapons, that they 
have genuine security concerns. They want specifically to have 
some jackets, I'll call them armor jackets, around containers 
that contain not just the components, but the mixture. They are 
concerned about that. It's hard to argue with that, given the 
security situation internal to Syria.
    Senator Shaheen. Are there other actions that the 
international community or the United States could be taking 
that would encourage more rapid compliance by the Syrians?
    Mr. Clapper. That's not intelligence's call, but I think 
the big thing would be continued attention and diplomacy to 
insist that they keep at it.
    Senator Shaheen. There have also been reports in the news 
about the evacuation of refugees from Homs, some of the final 
folks who are still there, who have been suffering under the 
siege there, and the firing on those refugees despite an 
agreement to allow them to be evacuated. Do we know who's doing 
the attacks on those refugees?
    Mr. Clapper. I'll have to check on that. I don't know that 
we have that level of fidelity that we could say exactly who 
was doing that.
    [The information referred to follows:]

    [Deleted.]

    Senator Shaheen. I would hope that we are taking whatever 
action we can, recognizing that this is a policy position and 
not something you're going to comment on. But I would hope that 
we are taking whatever action we can to aggressively go after 
those people who are firing on the unarmed refugees and the 
United Nations (U.N.) people who are trying to evacuate them. 
It is just more than a tragic situation, and the international 
community is standing by while people are being slaughtered.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Shaheen.
    Senator Ayotte.
    Senator Ayotte. Thank you, Mr. Chairman.
    I want to thank the witnesses for being here and for your 
service to our country.
    I wanted to ask about recent reports that Ali Mohamed Ali, 
a Somali pirate, there's been a failed prosecution of that case 
in United States courts, where he potentially will be released. 
It really raises the question that I think that I've asked you 
about in particular in the past, Director Clapper, in terms of 
our detention program. One of the questions it raises--the 
President said last May that he would like to get to the point 
where we repeal the AUMF.
    So here's the question: What happens in terms of detaining 
dangerous individuals, let's say members of al Qaeda, if we 
repeal the AUMF and close Guantanamo? Where do we detain these 
individuals? If we're in a situation where one of those 
individuals is acquitted in a U.S. court, a member of al Qaeda, 
what's our option if we've repealed the AUMF and we no longer 
have Guantanamo?
    I see this as a real, very big safety question for the 
United States. Have you thought through that?
    Mr. Clapper. No, I haven't. I'll have to think about your 
question, because that's a hypothetical circumstance that I'd 
have to think through and do some research, particularly with 
my general counsel.
    Senator Ayotte. Do you think it's advisable that we at this 
point, given the footprint we've seen for al Qaeda, are in a 
position where we can repeal the AUMF?
    Mr. Clapper. Again, ma'am, I'd have to think that through 
as to what--if, again, a hypothetical situation, if the AUMF is 
repealed and just what would be done as a substitute or 
replacement for it. Just off the top of my head, I don't know.
    Senator Ayotte. This is a pretty big question, I think, for 
us as a country.
    So here's another question I'd like an answer from both of 
you on. It's a question I've raised before. If tomorrow we are 
able to capture Ahmad Al-Zawahiri, where do we put him?
    Mr. Clapper. I'm sorry. Your question was?
    Senator Ayotte. So if we capture the current head of al 
Qaeda, Al-Zawahiri, tonight, where does he get detained? Would 
it not be important to interrogate him, and could you identify 
a length on how long you would need to interrogate the head of 
al Qaeda?
    Mr. Clapper. Again, a hypothetical question and----
    Senator Ayotte. I think it's a fair question for the 
American people. If we capture the head of al Qaeda tomorrow, 
where would we put him? What would we do to interrogate him? 
Where would we interrogate him? Do we have a place to 
interrogate him? Do we have a plan?
    Mr. Clapper. It would be very situational dependent. So I 
am very reluctant to posit a hypothetical response to that, 
because as I sit here, I don't know. Clearly, though, there 
would be some arrangement made--and we've done this in the 
past--where we would have an opportunity to interrogate him for 
intelligence purposes.
    Senator Ayotte. General Flynn, how important would it be to 
interrogate Zawahiri if we capture him tomorrow?
    General Flynn. It would be extremely important.
    Senator Ayotte. Do we know how long it would take us? In 
other words, would we want to put a time limit on that 
interrogation?
    General Flynn. We would not. Obviously, we would not. Every 
interrogation is different and some take a little bit longer 
than others. Obviously, in a case like Zawahiri, it would be a 
very important one.
    Mr. Clapper. In our case, the longer the better.
    Senator Ayotte. The longer the better. So we don't know yet 
exactly what the plan is, if we capture him tomorrow, where we 
would put him? I see that as a huge problem on a very important 
issue, unless either of you are able to tell me what the plan 
would be. [Pause.]
    I guess the answer is no.
    Mr. Clapper. Again, I cannot speculate on a hypothetical 
issue like that, as important as that is, and that's all it 
would be.
    Senator Ayotte. I would also like to ask both of you about 
a New York Times report I saw on January 29, 2014. It said 
that: ``the United States says Russia tested a missile despite 
treaty.'' The article goes on to say that: ``American officials 
believe Russia began conducting flight tests of the missile as 
early as 2008.'' And it says that: ``The United States has 
concerns that Russia has tested a new ground-launched cruise 
missile that may violate the landmark 1987 arms control accord 
between our two countries, the Intermediate-Range Nuclear 
Forces (INF) Treaty.''
    Director Clapper, does the United States have any 
intelligence about this potential Russian violation of the INF? 
Have we had that since 2008?
    Mr. Clapper. I'm happy to discuss that with you in closed 
session.
    Senator Ayotte. Thank you.
    I'd also like an answer in closed session that if we knew 
as the U.S. Senate was debating the New START treaty as late as 
2010, whether we believed there was a Russian treaty violation, 
and whether anyone in the Senate was informed about Russia's 
potential violation of the INF while the New START treaty was 
being debated? So I would like to take that in a classified 
setting.
    Mr. Clapper. We take very seriously our obligation to brief 
Congress and Congress was informed, and we have an audit trail 
of that. Again, I think this would be best left to a closed 
discussion.
    Senator Ayotte. I appreciate that.
    With regard to Iran, when we went to the Munich security 
conference, the foreign minister for UAE not only did we talk 
about the right of enrichment, but essentially what he said is 
that the hotel rooms in Teheran are filled with businessmen 
waiting to do business with Iran. What do you know about 
efforts being made right now to try to do business with Iran? 
In other words, how would you assess the strength of the 
sanctions right now and is there a concern that many are lining 
up to do business with Iran?
    Mr. Clapper. It's true that there are businessmen who see 
potential to do business with and in Iran. I know there have 
been efforts made through government-to-government contacts to 
try to forestall that.
    Senator Ayotte. There have been efforts made to forestall 
it, but is there a sense out there that the sanctions are 
unraveling? Because that's what we heard from many people that 
we talked to.
    Mr. Clapper. There may be a sensing of it. I think what we 
try to watch in the IC is the actual performance of the Iranian 
economy. So far, we haven't seen it but that's something to 
watch.
    Senator Ayotte. You have not seen the sanctions unraveling 
yet?
    Mr. Clapper. I wouldn't say that, no.
    Senator Ayotte. I know my time is up, but I would like to 
take those questions in a classified setting with regard to 
Russian treaty violations.
    Thank you.
    Chairman Levin. Thank you, Senator Ayotte.
    Senator Blumenthal.
    Senator Blumenthal. Thank you, Mr. Chairman.
    I want to follow up, first of all, by thanking both of you 
and the very courageous men and women who serve with you and 
who often are unappreciated because what they do, obviously, is 
in secret, but risk their lives and, as Senator Chambliss said, 
put their lives on the line every day. I would just say very 
often what we focus on is more the failures rather than the 
successes, because the successes are unseen and therefore 
unappreciated, a little bit like the baseball player who misses 
a pitch in the third inning, hits five home runs, and is told 
by his manager, you missed that pitch in the third inning, 
despite the fact that they won the game.
    Obviously, we need to keep our eye on the results of the 
game, not to compare what you're doing in any way to a sporting 
event because it's the most serious business in the world. But 
we need to appreciate the successful work that you did, that 
you do.
    All that said, with great appreciation, I want to follow up 
on some of the questions that have been asked before regarding 
the techniques used by Edward Snowden, which were reported, I 
think, recently, for example, in the New York Times, the very 
rudimentary kinds of software and web crawler, also known as a 
spider, that enabled him to scrape data out of these systems.
    I was struck, in fact, I found staggering the report of how 
relatively simple and easy it seemed to be from that report for 
him to accomplish what he did.
    Let me ask you, first of all, do you take serious issue 
with any of what was in that report of February 8 of the New 
York Times, an article written by David Sanger and Eric 
Schmitt?
    Mr. Clapper. No, Senator Blumenthal, I don't. It's probably 
accurate. I think the thought is that once someone is inside 
the tent, so to speak, that they're considered trustworthy. 
That wasn't the case here.
    The other thing is that throughout the IC we've had a lot 
of pressure put on us to ensure that analysts are able to talk 
to one another, are able to collaborate, are able to have 
access to the information they need to do their jobs. So NSA 
has created an environment where analysts and others at NSA 
have ready access to the information they need or that they can 
refer to in order to help them do their job.
    Again, that plays to the perfect storm I spoke of earlier, 
where Snowden as a skilled technician, as an IT system 
administrator, was aware of that and also aware of the 
safeguards, such as they were, that were built into the system 
and he took advantage of them.
    Senator Blumenthal. Would you agree that the focus has been 
on protecting against outside threats to infiltration or 
invasion and less so on the insider threat?
    Mr. Clapper. Exactly.
    Senator Blumenthal. A lot of the measures that you've 
mentioned here in response to previous questions were put in 
the future tense, what needs to be done, what will be done. It 
has been a year now since the Snowden breach of trust, as you 
put it, and perhaps with tremendous damage, certainly with 
tremendous damage to our Nation. What has been done so far to 
protect against that insider threat?
    Mr. Clapper. Immediately, what has been done, of course, is 
some remedial actions in terms of two-person control access to 
databases, and much tighter control and monitoring of 
privileged users, as we call them. A lot has been done with 
that in the immediate aftermath, just kind of closing the barn 
door.
    Senator Blumenthal. Does more need to be done in your view?
    Mr. Clapper. Absolutely. What we ultimately need to go to 
is a system we've started a couple years ago, a project called 
IC ITE [Information Technology Enterprise], which is the ITE 
for the entire community, taking advantage of cloud computing 
and the necessary security enhancements. The basic mantra of 
this is: ``Tag the data, tag the people,'' so that you can 
monitor where the data is and who has access to it on a real-
time basis.
    Senator Blumenthal. Why hasn't that measure been adopted 
already?
    Mr. Clapper. It is, sir, but this is a big undertaking 
because it involves a single ITE for the whole IC. We've been 
working at this for 2 years, but it takes time to do this and 
this is laid out over a 4- or 5-year period. Again, it's 
something we had started before the Snowden revelations.
    Senator Blumenthal. I'm speaking perhaps simplistically and 
unfairly, but I would comment respectfully that the immense and 
imminent threat posed by this kind of insider breach of trust 
would warrant even quicker implementation of such measures. If 
resources are the issue, as it may be, certainly I'd want to 
know that, as would other members of the committee, and 
anything we can do to assist you.
    Mr. Clapper. I appreciate that very much, sir. Yes, 
Congress can help us.
    [The information referred to follows:]

    [Deleted.]

    Senator Blumenthal. Let me switch gears if I may a little 
bit, to an issue that hasn't been mentioned at all. That is the 
threat of increased naval strength on the part of China, and in 
particular its expansion of naval capability in building 
additional submarines with ballistic capability. You mention it 
somewhat obliquely in your testimony, Director Clapper. Could 
you please give us an assessment of your view of the threat of 
Chinese naval capability, in particular submarine capability 
and the threat to the Homeland that it may represent?
    Mr. Clapper. Across the board, the Chinese have embarked on 
a very impressive military modernization program across all 
realms. Much of this seems to be predicated on an assessment of 
our strength, including our naval strength, our bases in the 
Pacific, our Command, Control, Communications, Computers, 
Intelligence, Surveillance and Reconnaissance capabilities, et 
cetera. So across the board, it is impressive whether it's 
their missiles, their missile systems, be they intermediate-
range, medium-range, or Intercontinental Ballistic Missiles 
(ICBM), or going to more survivability, which includes a 
submarine component.
    They've been very committed to this, very serious about it. 
I'm happy to go into more details in a closed session.
    Senator Blumenthal. I was going to suggest, since my time 
has expired and since I suspect the facts ought to be explored 
in a classified setting, that we take an opportunity to do so. 
I want to thank you for your testimony, both of you. I'm sorry, 
General Flynn, I didn't ask any questions of you, but I 
appreciate your being here as well, and thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Blumenthal.
    We're going to need a classified session at some point, but 
not today. Senator Ayotte had questions, Senator Blumenthal now 
has questions that need to be answered. Another colleague had 
also earlier today asked questions that needed a classified 
response. So rather than to try to piecemeal this--and this 
would be somewhat of a change from what I told Senator Ayotte--
we'll just have to arrange later on this week or next some time 
where you can come over, and I'll notify everybody on the 
committee and then tell them what the subjects of the 
classified meeting are so that everybody can come to that 
meeting if they choose. I think that's the only practical way 
to do it now.
    Senator Lee.
    Senator Lee. Thank you, Mr. Chairman.
    Thank you for joining us today.
    Director Clapper, you said in a Senate Select Committee on 
Intelligence (SSCI) hearing in January that one of the 
extremist groups operating in Syria, the Al-Nusra Front, has 
aspirations for attacks on the United States. I was wondering 
if you could elaborate a little bit on this and tell us whether 
or to what degree Al-Nusra has the capability or is close to 
developing the capability of attacking the United States?
    Mr. Clapper. This has been a tenet of theirs ever since 
they formed up, ultimately planning for and attempting to 
execute an attack on the Homeland. I think right now this is 
more aspirational than operational. We have seen evidence of 
the emergence of training camps, for example, that have 
familiar signatures from Afghanistan days.
    Probably of greater concern, as I mentioned in my opening 
statement, are some al Qaeda veterans from the Afghanistan-
Pakistan area, a small nucleus of them who have also moved to 
Syria, which has served as a magnet for many of these 
extremists. They do harbor designs on--and this is separate 
from Al-Nusra--harbor designs for attacks in Europe and the 
Homeland.
    Senator Lee. There are other groups there that potentially 
present a threat to us?
    Mr. Clapper. Yes.
    Senator Lee. What proportion of the rebel fighters in the 
Syrian conflict would you and others in the IC characterize as 
extremist? What level of influence do you think they have on 
the entire group?
    Mr. Clapper. All together the number of opposition fighters 
is somewhere in the neighborhood of from a low range of 75,000 
to 80,000, maybe to 110,000, 115,000, and somewhere in the 
neighborhood of between 20,000 and maybe up to a top range of 
26,000 that we regard as extremists. They are 
disproportionately influential because they are among the most 
effective fighters on the battlefield.
    Senator Lee. So would you say that there is a significant 
relationship, then, between the Al-Nusra Front, especially when 
you add in other extremist elements, and what many people refer 
to as the more moderate, the more moderate elements of the 
rebel forces in Syria?
    So the question is, is there a significant relationship 
then between the extremist elements and what we're calling the 
moderate elements?
    Mr. Clapper. There are agreements of convenience, I would 
say. Oftentimes, these groups which are quite fluid, by the 
way--may apparently disagree ideologically, but will, if it's 
convenient for them in the tactical context, agree to work 
together.
    Senator Lee. Sure.
    Mr. Clapper. Of course, we've had the falling out now with 
the ISIL, where they are fighting other oppositionist groups.
    Senator Lee. But given this relationship of convenience, as 
you describe it, there is, I assume, frequent coordinating 
going on, sharing of information, perhaps sharing of equipment 
that goes on between extremist elements and moderate elements?
    Mr. Clapper. That's hard to say, sir. This is a very fluid 
thing. There are some 1,500 or 1,600 of these various groups, 
various fighting groups, and they align themselves and realign 
themselves constantly. It's very hard to make generalized 
statements about that.
    Senator Lee. Warehouses of items provided as assistance to 
moderate rebels were seized by some Islamist groups in 
December. Was Al-Nusra involved in that seizure?
    Mr. Clapper. I'll have to research to see which groups were 
involved in that warehouse seizure. I don't know off the top of 
my head.
    [The information referred to follows:]

    [Deleted.]

    Senator Lee. To your knowledge, is there anything that was 
seized in connection with that raid in December that has 
subsequently been used by Al-Nusra or by any of the other 
extremist groups?
    Mr. Clapper. We don't know. I can't say, sir.
    Senator Lee. Iranian nuclear capabilities and the ongoing 
nuclear negotiations are obviously of enormous interest to this 
committee and to Congress. I'd like to focus on a different 
aspect of that which hasn't received quite as much attention, 
Iran's development of a delivery system that would be capable 
of threatening potentially the United States or our forces 
abroad. General Flynn, if I could ask you, what's the U.S. 
Government's assessment of the Iranian ICBM program's 
development and its capabilities?
    General Flynn. I think, as stated by the chairman in his 
opening statement where he talked about our assessment being in 
the 2015 timeframe, given the development that we see, that's 
accurate. So by about 2015.
    Mr. Clapper. That's the ability to test one.
    Senator Lee. The ability to test one. So in order to test 
one you'd have to have something that's potentially 
functioning.
    Is the Iranian Government receiving assistance from any 
other country in connection with their development of their 
ICBM, in connection with their ICBM program?
    Mr. Clapper. Not currently, we don't believe so.
    Senator Lee. When you say ``not currently,'' does that mean 
you anticipate that they might be?
    Mr. Clapper. No, just I was alluding to the history, the on 
again, off again relationship between Iran and North Korea.
    Senator Lee. Okay. Last December, Afghanistan agreed to 
negotiate a cooperation pact with Iran for long-term political, 
security, economic, cultural cooperation, regional peace, and 
security. The Treasury Department recently designated four 
Iranian Quds Force members to its list of global terrorists for 
their support of terrorism and intelligence activities against 
Afghanistan.
    What's your assessment, Director Clapper, of the 
relationship between the Governments of Afghanistan and Iran, 
separately the relationship between the Taliban and Iran, and 
the influence of Iran on the country?
    Mr. Clapper. The Iranians would clearly like to have as 
much influence as possible in Afghanistan, particularly with 
the forthcoming changes. They have not been particularly 
successful. They've had border disagreements. There have been 
firings across the border. It's a less than warm relationship, 
but that's not to say that the Iranians aren't trying to reach 
out. They recently posted a very astute diplomat in Kabul to 
try to ingratiate with the Afghans. But long-term, there's some 
suspicion there and lack of trust.
    Senator Lee. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Lee.
    Senator Nelson.
    Senator Nelson. Gentlemen, thank you for your public 
service.
    You stated that 2015 is the period at which it is expected 
that Iran could be ready to test an ICBM. Is it true that there 
is additional time that would be needed for Iran to achieve the 
integration of a nuclear weapon onto an ICBM?
    Mr. Clapper. Yes, sir, Senator Nelson, that's quite right. 
What we're speaking of here is simply a missile system that 
could potentially have ICBM-class range. That's not to say 
anything about their actually mating it with a nuclear weapon. 
That's another problem.
    They've worked on two classes, both a solid and a liquid 
class, and, of course, they've done some work on their space 
launch vehicle that would, of course, have application here 
from the standpoint of thrust and distance.
    Senator Nelson. Can you say in this setting or hold it 
until the closed setting, the timing that it would take for the 
integration, were they to have a nuclear weapon, onto an ICBM?
    Mr. Clapper. Sir, that depends on a lot of factors and 
there are a lot of variables there that are probably best 
explored in a closed session.
    Senator Nelson. I look forward to that.
    It is--you tell me if this is correct--the administration's 
policy that they are exploring shifting the use of drones, 
unmanned aerial vehicle strikes, from CIA to DOD. Is that an 
accurate statement?
    Mr. Clapper. Yes, sir, it is. Again, that would also be 
best left to a closed session.
    Senator Nelson. I just want to state at the outset that my 
opinion is that that is a mistake, and I think that what I 
consider to be a mistake I will ask with this question: One of 
the avowed reasons, so stated, is that by it being within the 
DOD it would not be covert; it would be overt, and therefore 
when the enemy says that we killed so many innocent civilians, 
which is usually not accurate by any stretch of the 
imagination, that we would be able to publicly state that.
    Is that one of the justifications for the policy?
    Mr. Clapper. Yes, sir. It's awkward discussing this in 
public. I wouldn't characterize that as the primary reason.
    Senator Nelson. Okay. I'll just state in closing that the 
enemy is going to state that anyway, and I think that the drone 
policy that this government has had has been exceptionally 
precise and that all of these accusations ad infinitum by those 
that are opposed to the interests of the United States about 
how many civilian casualties occur from these strikes, it is 
this Senator's opinion that that is not accurate.
    Let me ask you, since you testified earlier that DOD is 
setting up this DCS, tell me, do you worry about the two 
clandestine services getting in each other's way?
    Mr. Clapper. I do not, sir. I think actually just the 
opposite will accrue from this. This will help to promote more 
integration between the two services. This has been a 
longstanding arrangement and I think under the tenets of what's 
intended with the DCS that it will actually serve to promote 
greater integration with the NCS.
    Senator Nelson. Okay. Mr. Chairman, I would like to explore 
that further in the classified setting. Thank you.
    Chairman Levin. Very good. We have a list now of five or 
six items that we'll ask you to comment on in a classified 
meeting which we will schedule. It will not come today after 
this meeting. It will come at a later date.
    Thank you, Senator Nelson.
    Senator Fischer.
    Senator Fischer. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here today. My thanks also 
to those who work with you in the valuable mission that you 
have.
    Director Clapper and General Flynn, I'd like to follow up a 
little bit on my various colleagues who have spoken about the 
nuclear capabilities of Iran and the direction that they seem 
to be headed. But I'd like to put a little different flavor on 
that. Can you tell me what the reaction was of our allies in 
the Gulf, the Sunni Gulf monarchies, and also the Israeli 
Government, with regards to the November deal that we came 
about with the country of Iran?
    Mr. Clapper. I think it's fair to say that many of them 
were not comfortable with this, and were, in fact, unhappy with 
it.
    Senator Fischer. General?
    General Flynn. I think it just raises the level of tension 
in a region that already has enough tension.
    Senator Fischer. Do they believe that this interim deal is 
going to slow Iran's progress in any way?
    Mr. Clapper. You're speaking about these other governments?
    Senator Fischer. Exactly.
    Mr. Clapper. I think they generally have concerns about 
whether it will or not.
    Senator Fischer. Would you agree with that, General?
    General Flynn. Yes, I do.
    Senator Fischer. What does your intelligence tell you and 
how do you believe these nations are going to react if they 
believe that Iran is very close to obtaining and delivering a 
nuclear weapon?
    Mr. Clapper. If that point were reached--and they're not 
near that point as we sit here today--obviously, that would be 
of great concern to all of us. So, obviously, the objective 
here is to forestall that.
    Senator Fischer. Right. But do you have any intelligence 
that would give you an inclination on how those countries would 
react?
    Mr. Clapper. As I said, if Iran actually obtained a nuclear 
weapon or were on the brink of obtaining one, I think they 
would go to general quarters and be quite alarmed about it.
    Senator Fischer. Thank you.
    Also, Director--we're going to pivot to the Chinese and the 
Russians now. In your testimony before the SSCI, you 
highlighted the Chinese military modernization. Are they 
modernizing their nuclear forces as well?
    Mr. Clapper. Yes, they are.
    Senator Fischer. I understand that the Russians are 
investing heavily in modernizing their nuclear forces; is that 
correct?
    Mr. Clapper. Yes, it is.
    Senator Fischer. Why? Do you have any idea why these two 
countries are doing that?
    Mr. Clapper. In the case of the Russians, this is the 
foundation of their claim to great power status. So whatever 
other deficiencies they may have in their military, they are 
going to sustain a modern intercontinental nuclear strike 
capability.
    In the case of the Chinese, it is a much smaller capability 
which they view as more defensive. Since it is smaller, they 
don't feel they're players in an arms control environment. 
They've professed no first use. So their perspective is 
different, but it's just part of their overall campaign to 
modernize their military across the board.
    Senator Fischer. Are either of these countries elevating 
the role that nuclear weapons would play within their total 
arsenal that they have?
    Mr. Clapper. In the case of the Russians, actually I think 
it's probably less predominant, if that's what your question 
is, than say during the Cold War. It's a much smaller force 
than they had during the Cold War. So in that sense, and given 
in the case of the Russians their attempts to modernize their 
conventional forces, I'd say it's less prevalent than it was.
    Senator Fischer. I have an article here that says that 
reducing the role of nuclear weapons in U.S. security strategy 
is a U.S. objective, while Russia is pursuing new concepts and 
capabilities for expanding the role of nuclear weapons in its 
security strategy. This is from the National Intelligence 
Council's Report on Global Trends for 2030 and it came out in 
2012. Do you disagree, then, with that report with regards to 
their assessment of what the Russians are doing?
    Mr. Clapper. No.
    Senator Fischer. I thought I misunderstood you, though.
    Mr. Clapper. I was just comparing historically to the Cold 
War. They are always going to emphasize this. This will always 
be an aspect of their overall national power.
    Senator Fischer. Would you say they're expanding with 
regards to that nuclear power? Are they changing the way that 
they would perhaps use their nuclear weapons in the future?
    Mr. Clapper. That would probably be best left to a closed 
session.
    Senator Fischer. Okay. Mr. Chairman, I have some issues 
here that I need to go over as well.
    If I could conclude quickly here with the issue of U.S. 
Cyber Command (CYBERCOM) and the NSA. There is value in linking 
the two together. Do you support the decision by the President 
not to split the NSA and CYBERCOM, for both of you gentlemen?
    Mr. Clapper. I do support it. When I was in my former job 
as Under Secretary of Defense for Intelligence at DOD, I was a 
proponent for the dual hat arrangement. I also raised it in the 
current context, only to ask whether it would help from an 
optics standpoint to split NSA from CYBERCOM.
    But I think of all the quite compelling reasons for keeping 
them together are still germane, and the President came to that 
conclusion on his own.
    Senator Fischer. Not just the optics, but also the costs. 
Would there be increased cost in your estimation if the two 
were split?
    Mr. Clapper. There could be, but the greater complication 
would be actually effecting such a divorce, because in the 
cyber domain there is so much integration and there's so much 
more efficiency that accrues from having them united as one. 
Ultimately, though, I think the decision as to whether to 
exploit or attack, that I felt 3 or 4 years ago and I still 
feel that way, that the best person to make that judgment is 
the Director of NSA and CYBERCOM as one and not have them as 
competitive entities.
    Senator Fischer. Thank you very much, gentlemen.
    Thank you, Mr. Chair.
    Chairman Levin. Thank you, Senator Fischer.
    Senator Manchin.
    Senator Manchin. Thank you, Mr. Chairman.
    I want to thank both of you again for your service and to 
the men and women who serve with you, to the families who 
support both the military and the civilian side. It's a 
tremendous undertaking that you have and I appreciate it very 
much. The people in West Virginia appreciate you.
    That being said, what we're going through since I've been 
here for 3\1/2\ years--I've had briefings on cyber security and 
what it could do to us, the water and the grid system and our 
food supply and all that. We're going through a really 
difficult time in West Virginia right now with water. It just 
shows me what could happen, and we need some assistance now to 
build some confidence back in. We didn't have an alternative 
intake system. We didn't have a backup system. We had to 
continue to run the water plant even though it ingested the 
chemical MCHM. With that being said, we've lost the confidence 
of the people of West Virginia to where they believe the water 
is safe to drink. We have no official in the Federal Government 
or State government that will say it's safe. They say it's 
appropriate, they use all different words, I'm sure because of 
legal ramifications. But we just didn't--so many things we 
haven't tested.
    With that being said, I think ours is a wakeup call. Thank 
God we had no deaths and we had no serious injuries right now. 
But it's a wakeup call, and I would ask all of you to look very 
carefully at how we best control this around the country and 
help other States in avoiding what we're going through now, and 
hopefully you can assist us in getting back to normality, if 
you will. We're going to come back bigger and better and 
stronger. We have to, to build confidence in the system right 
now, because we have people that are still very much concerned 
and they're not using the water back to normal usage, 
especially expectant mothers, small children, and the elderly.
    With all that being said, I agree with General Alexander, 
the outgoing Director of CYBERCOM, his statement last year that 
the National Guard could play a huge role in cyber. He stated: 
``The Guard provides additional capacity and an ability to work 
with the States. Much like the Guard complements the Active-
Duty Forces today, the Guard can assist the Department of 
Homeland Security in defense of the Nation.''
    They're ideally suited for cyber warfare. As a former 
governor and commander in chief of our National Guard, I know 
the capability they have, the capacity and the ability. They're 
on the front line of defense for every one of our States. Every 
governor will tell you that. They're located in every State. 
They're not limited to a few military bases.
    I just want to know from both of you what we can do to 
assist that, if you believe that that's the direction we should 
go for cyber to help secure our States and our vital 
necessities that we all depend on.
    Mr. Clapper. Sir, first, you made a comment about water and 
your characterization of what happened in your State as a 
wakeup call. I couldn't agree with you more. We increasingly 
see this as a national security issue overseas. It can easily 
be the source of conflict between countries. A case in point is 
the Grand Renaissance Dam that Ethiopia is building and the 
impact that could have on Egypt, just a case in point.
    On the Guard and Reserve role with cyber, I think this is 
another case where they can play a huge role, as they do now 
with ISR, for example. If Admiral Rogers is confirmed for the 
position of Director of NSA and CYBERCOM commander, I think he 
will continue the same emphasis and the same support that 
General Alexander has had for that.
    Senator Manchin. From the IC, does the IC director embrace 
the Guard? Would you support that position that the Guard would 
play a front line of defense in cyber on the Homeland here?
    Mr. Clapper. Yes, sir. That's a little bit far removed from 
where I sit now, but from prior incumbencies I certainly agree 
with that.
    Senator Manchin. It makes all the sense in the world from 
us sitting here watching who do we go to for the front line. It 
would be helpful--General Flynn?
    General Flynn. I would just add, Senator, that the vital 
necessity for the Guard and our Reserve, especially in the 
intelligence aspects of what they do, and especially as it 
relates to the critical infrastructure in all of our States, 
it's an understatement to say that they're vital.
    Senator Manchin. Sometimes the thought process at DOD on 
incorporating them into the full active range as they have 
been, sometimes runs with strong headwinds, if you will. I 
think we're getting past that now, but we really need this.
    We look for your help also in our State of West Virginia on 
trying to get back to normal. If there's anything that you 
could do, we would appreciate it.
    Let me just continue on, if I may. The Wall Street Journal 
widely reported an attack on a California power station. An 
unidentified individual covertly cut the telephone lines from 
an underground location and within 30 minutes 17 giant power 
transformers were shut out with high-powered sniper rifles.
    No one's been arrested or charged with this attack. I'm 
sure that we're pursuing that very heavily, correct?
    Mr. Clapper. The FBI and the State and local officials 
definitely are, yes, sir.
    Senator Manchin. Of the three, are you most concerned about 
our grid, our food supply, or our water supply?
    Mr. Clapper. That's a kind of Hobbesian choice, since 
potentially all of them are at risk. But probably the thing 
that would have the most impact quickly would be a substantial 
attack on our power grid. The incident in California is also a 
wakeup call and very instructive.
    Senator Manchin. General Flynn, if I may. The resurgence of 
AQI's Anbar Province has led Prime Minister Maliki to threaten 
an attack on Fallujah, which is currently under militant 
control, I believe. Portions of Iraq such as Fallujah and 
Ramadi have been cordoned off, with the Iraqi Army setting up 
security checkpoints on blocking off the roads. Iraq seems to 
be facing well-trained and well-funded militants of al Qaeda 
and the Islamic State of Iraq and Syria.
    How imminent of a threat does the resurgence of al Qaeda 
affiliates pose for the regional stability there?
    General Flynn. I think it's increasingly a concern that 
we're going to have to pay very close attention to, not only 
inside of Iraq, but for the whole region, as you're 
highlighting. The scale of what they are involved in right now, 
particularly the al Qaeda element in Iraq, and just the level 
of destruction that they're having, the level of killing that 
they're doing inside of that country is terrible.
    Senator Manchin. Thank you. My time is up.
    Chairman Levin. Thank you very much, Senator Manchin.
    Senator Cruz.
    Senator Cruz. Thank you. Thank you, Mr. Chairman.
    Director Clapper, General Flynn, I want to thank both of 
you for being here and thank you for your service, helping 
protect our Nation. I want to also thank the men and women, 
both military and civilian, that serve with you both.
    There are a number of topics I'd like to discuss and I'd 
like to start, Director Clapper, by focusing on al Qaeda. You 
said previously: ``Sustained counterterrorism pressure, key 
organizational setbacks, and the emergence of other power 
centers of the global violent extremist movement have put core 
al Qaeda on a downward trajectory since 2008.'' I wanted to ask 
you, what, in your view, is the definition of ``core al 
Qaeda''?
    Mr. Clapper. My definition of ``core al Qaeda'' is the 
leadership group that has been essentially in the Federally 
Administered Tribal Areas (FATA) in Pakistan. That is precisely 
what is meant by that, and clearly they have been profoundly 
degraded, but not eliminated by any stretch. So that area, in 
my view, remains the ideological center for al Qaeda, but not 
the operational center any longer.
    Senator Cruz. What is the value of that distinction? Are 
other radical Islamic terrorist groups any less dangerous to 
Americans than what the administration is defining as core al 
Qaeda?
    Mr. Clapper. I think an organization like al Qaeda in the 
Arabian Peninsula (AQAP) poses a much greater sort of tactical 
near-term operational threat to the Homeland than does the 
ideological center of core al Qaeda in the FATA in Pakistan.
    Senator Cruz. Given the recent revelation in the Washington 
Post that the leader of the Ansar Al-Sharia branch in Derna, 
Libya, is the terrorist Abu Sufian Al-Kumu, who is a former 
detainee at Guantanamo Bay and trained in an Osama bin Laden 
camp in Yemen, and was, in fact, on al Qaeda's payroll, 
shouldn't his group also be considered part of core al Qaeda?
    Mr. Clapper. They're not. Of course, with core al Qaeda, 
the central leadership picks and chooses who among the wannabes 
is actually knighted or, if you will, so designated as an al 
Qaeda organization. So there are a lot of these organizations 
that profess extremism, and have in some cases the same goals, 
but they are not actually a part of al Qaeda. Another one is 
the Muhammed Jamal organization in Egypt, a violent 
organization, but not yet a part of al Qaeda formally, to the 
extent that that has meaning.
    Senator Cruz. So the determination of core al Qaeda, who is 
making that? Because it would seem to me the characteristics of 
training with al Qaeda, being on their payroll, and past 
allegiance----
    Mr. Clapper. Zawahiri probably is, as the ideological 
leader, if you had to pick somebody, is in charge of that. Of 
course, he recently essentially excommunicated AQI, or ISIL, as 
it's known. He is the designee for deciding who is and who 
isn't al Qaeda.
    Senator Cruz. I was troubled by some recently declassified 
testimony that Chairman of the Joint Chiefs of Staff Martin 
Dempsey gave to the House Armed Services Committee, in which, 
when General Dempsey was asked about the ability of the 
military to target the terrorists who attacked us in Benghazi, 
General Dempsey's response was that those individuals were not 
participants or in leadership of core al Qaeda and therefore 
were not under the authorization for use of military force, and 
so the military didn't have the ability to target those 
individuals.
    Do you agree with that assessment?
    Mr. Clapper. We have targeted them in an intelligence 
sense, and DOD and CIA participate in tracking these people. I 
don't know about the legalities of whether we could actually 
shoot at them.
    Senator Cruz. Given that these terrorists are professing 
allegiance to al Qaeda, at least portions of them are led by 
Kumu and others with ties directly to bin Laden, and given that 
they murdered four Americans, does it make sense that we should 
be in any way restrained in going after them and bringing them 
to justice?
    Mr. Clapper. Sir, who we can go after in terms of capturing 
or killing is not an intelligence call. Our view is if they are 
terrorists of any stripe we are going to do our best to collect 
as much intelligence on them as we possibly can.
    Senator Cruz. General Flynn, do you have a view on this 
same question?
    General Flynn. I agree with the Director. The only thing I 
would add along your line of questioning is that we also have 
to look at the ideology that exists within these groups. They 
share an ideology and I would add that to the definition of 
core. It's not just the senior leadership in al Qaeda, in 
Pakistan; it's also this shared ideology that many of these 
extremist groups have. I think that that's something that we 
have to consider as we look at every single one of them.
    Senator Cruz. Would you consider the Ansar Al-Sharia branch 
sharing that ideology?
    General Flynn. I would.
    Senator Cruz. One final topic I wanted to address, which is 
Iran. There was some discussion recently. Director Clapper, I'm 
very concerned that the JPA we're going down with Iran is 
making the same mistakes that the United States made with 
respect to North Korea and indeed is being negotiated by many 
of the very same people, and by relaxing the sanctions against 
North Korea we allowed the funds to fly to North Korea, which 
in turn allowed them to develop nuclear weapons.
    Is there any reason we should expect different results in 
Iran than this same policy achieved in North Korea?
    Mr. Clapper. I'm not here to critique U.S. policy. I will 
just say that I don't know how it will come out in Iran. We, 
for our part, are very committed to ensuring that we monitor 
compliance with whatever agreements that are forged.
    Senator Cruz. I would note you said that you didn't want to 
critique U.S. policy, but is there any reason to believe that 
the outcome in Iran would be any different from North Korea as 
a substantive matter?
    Mr. Clapper. Iran is a completely different country than 
North Korea. So, yes, the outcome could be different.
    Senator Cruz. But do the differences make it more or less 
likely that they would comply? Or, phrased differently--and I'm 
at the end of my time, so this will be my last question. 
Phrased differently, in your view if Iran were to succeed in 
acquiring a nuclear weapon, what do you view as the likelihood 
that they would use that nuclear weapon to murder innocent 
people?
    Mr. Clapper. First of all, they are not near to acquiring a 
nuclear weapon and would be even farther from it assuming these 
negotiations pan out. But as to your question, that's an 
imponderable, sir. I can't answer it.
    Senator Cruz. I will say I think the odds are unacceptably 
high and this current path is exceedingly dangerous for our 
national security.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Cruz.
    Senator Vitter.
    Senator Vitter. Thank you, Mr. Chairman.
    Thank you both for your service.
    Director Clapper, I wanted to follow up on some of the same 
issues regarding Iran and specifically our capability of 
knowing for sure if they're cheating, if they're not living by 
any obligations. You testified here today on the negative 
impacts of sequester on the IC. In addition, we have a lot of 
examples before those budget circumstances, before sequester, 
of not knowing what was going on in other countries real time, 
of not fully appreciating what North Korea was doing in the 
past, of not knowing that Qadafi had chemical weapons before 
his downfall and we got in there--I think you've testified 
specifically about that--of not knowing today--we've talked 
about whether Russia's violating some of our agreements with 
them, like the INF--of not knowing everything going on in Syria 
in real time.
    Is our capability in Iran qualitatively better than all 
those other places pre-sequester and pre-budget impacts?
    Mr. Clapper. I would call it comparable, and I'd be happy 
to discuss in more detail what our actual intelligence 
capabilities are against Iran in a closed session.
    Senator Vitter. That reinforces my question. If they're 
comparable, and given the past track record of not knowing 
precisely what was going on in those places until well after 
the fact, how can you state that we're certain that our IC is 
capable of detecting if Iran doesn't meet its agreements and 
starts moving forward on a nuclear weapon?
    Mr. Clapper. All of that insight is not dependent on the 
IC. It is also heavily dependent on the authorities for more 
intrusive observation and surveillance by the IAEA. Under the 
provisions of the JPA they will have very intrusive insight 
into Iran. So that would make a big difference to me. If we 
didn't have that, that would make a major difference.
    Senator Vitter. But for that to be foolproof you have to 
know exactly where to look and exactly what questions to ask; 
would that be correct? Certainly those provisions in Iran with 
IC capabilities----
    Mr. Clapper. I didn't understand the question, sir. I'm 
sorry.
    Senator Vitter. Certainly all of that's related, the work 
of the IC and those provisions?
    Mr. Clapper. Yes, it is, and I'd prefer to discuss that 
relationship in closed session.
    Senator Vitter. Okay. Let me just underscore my concern, 
particularly given the history in North Korea, Syria, Russia 
right now, Libya, and plenty of other places.
    A final question on Iran. I think you've testified today 
that cyber is your single biggest concern. Does that equation 
change if Iran gets a nuclear weapon?
    Mr. Clapper. Assad in Syria?
    Senator Vitter. Cyber.
    Mr. Clapper. Oh, cyber.
    Senator Vitter. Cyber.
    Mr. Clapper. The question is, sir? I'm sorry.
    Senator Vitter. Does that statement, does that rank as your 
most serious concern, does that change if Iran gets a nuclear 
weapon?
    Mr. Clapper. I'd have to rethink that, I guess, if that 
were to happen.
    Senator Vitter. Thank you.
    Chairman Levin. Thank you, Senator Vitter.
    Let's have a three-question second round for starters, and 
if we need more than that we'll have a third round.
    First on Iran. What's the IC's assessment of the nature and 
extent of Iranian influence within the Maliki Government in 
Iraq?
    Mr. Clapper. There is some influence. There's also some 
standoffishness, I guess that is what I'd call it. But clearly 
it is in Iran's best interest to have a friendly, cooperative 
Shia-led government in Iraq. So the Iranians will exert 
influence in any number of ways.
    Chairman Levin. Has it been growing, would you say?
    Mr. Clapper. I think it's level to what it has been for a 
couple years.
    Chairman Levin. Now, there's been a number of articles 
written about business people from various countries knocking 
on the door in Iran, and the administration made it pretty 
clear the other day that we're going to enforce our current 
sanctions, as they always said they would, during this 
negotiation period. Providing they're knocking on the door, but 
the door is locked tight so that there's no leakage during this 
negotiation period, wouldn't the fact that there's a lot of 
interest in the outside business community to come into Iran 
put some additional pressure on Iran to negotiate a settlement 
which we would find acceptable?
    Mr. Clapper. Absolutely, I think it would be an attraction, 
and that probably supports the Rouhani camp, if you will, those 
who are interested in trying to change the economy and improve 
it in Iran. That would, I think, be an argument or a debate 
point for them against the hardliners.
    Chairman Levin. I want to switch you to Pakistan. This has 
to do with the financial network that supports the Haqqani 
network. I assume that the IC tracks the Haqqani financial 
network and the banks and the businesses which support that 
Haqqani network. Why haven't we been able to shut down that 
financial support?
    Mr. Clapper. Sir, it would probably be best to discuss that 
in a closed session.
    Chairman Levin. Okay, we'll add that to the list.
    Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    General Flynn, do you share the concerns expressed by 
General Dunford today in his statement about the release of 
these detainees at Parwan Prison?
    General Flynn. I do.
    Senator Graham. You served a tour of duty in Afghanistan, 
is that correct?
    General Flynn. I served three.
    Senator Graham. Three, okay. Dealing really quite frankly 
with this very issue, detainees and the threats they presented?
    General Flynn. I'm sorry, Senator?
    Senator Graham. You had familiarity with the detainees?
    General Flynn. Absolutely, yes, absolutely.
    Senator Graham. Okay, thank you.
    Mr. Clapper, I appreciate your candor and your service to 
our country. President Rouhani has tweeted that 117 delegations 
have visited Iran seeking to do business in the future. Do you 
know if that's accurate or not?
    Mr. Clapper. I do not.
    Senator Graham. Could you do an assessment to the 
committee, in whatever appropriate fashion, as to whether or 
not our European allies and other countries throughout the 
world are now engaging Iran more aggressively in terms of 
business opportunities?
    Mr. Clapper. Yes, we will.
    [The information referred to follows:]

    [Deleted.]

    Senator Graham. Because I take a different view than my 
good friend Senator Levin. I believe that the smart money is 
that the sanctions are pretty much over and everybody's trying 
to get in line to do business with Iran, and that we're losing 
our leverage. But that's just my opinion.
    But I would ask you this question to reinforce again. If 
the Iranians are allowed to enrich uranium as a final deal, 
could you please let us know, in whatever appropriate forum, 
the effect that might have on the Mideast in terms of spreading 
proliferation of nuclear weapons capability and whether or not 
the Sunni Arab countries will follow suit? Could you get that 
pretty quickly?
    Mr. Clapper. We'll try to provide a written assessment of 
that, which I think would be classified.
    [The information referred to follows:]

    [Deleted.]

    Senator Graham. In 1 minute, if, in fact, enrichment of 
uranium spread throughout the Mideast, even under the color of 
peaceful nuclear power program purposes, would you agree with 
me that that would be a very bad scenario for the national 
security of the United States and Israel, if nations throughout 
the Mideast turned to enriching uranium?
    Mr. Clapper. Yes, particularly if it were for other than 
peaceful purposes, obviously.
    Senator Graham. The point is, do you think the Iranians 
were trying to build a bomb before we got involved?
    Mr. Clapper. They had not made the determination to go to 
that step. They certainly have approached this from a threshold 
capability, whether it's reactors, enrichment, or the delivery 
capability. So for the Iranians, the decision is a political 
one, not a technical one. They certainly have the expertise now 
if they so chose.
    Senator Graham. They have the expertise if they so chose. 
How long would it take them if they made that decision?
    Mr. Clapper. That depends on a lot of factors, which are 
best discussed in closed session.
    Senator Graham. All right. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Graham.
    Gentlemen, we appreciate your testimony, your service. I 
join in a number of colleagues who've also asked you to express 
to the men and women with whom you work our appreciation for 
their service and the families that support all of you.
    We'll be in touch about a closed meeting. We will stand 
adjourned.
    [Whereupon, at 12:15 p.m., the committee adjourned.]

    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Carl Levin
                              north korea
    1. Senator Levin. Director Clapper and General Flynn, a year ago 
North Korea was engaged in a spate of provocative behavior. It had 
conducted its third nuclear weapon test, launched a satellite that 
demonstrated improved long-range missile technologies, and conducted 
cyber attacks against South Korea. What progress has North Korea made 
in the last year on its nuclear weapons and ballistic missile 
capabilities?
    Director Clapper. [Deleted.]
    General Flynn. [Deleted.]

    2. Senator Levin. Director Clapper and General Flynn, since North 
Korea has never tested its road-mobile intercontinental ballistic 
missile (ICBM), do you assess that it would not have confidence in the 
operational performance of that missile?
    Director Clapper. [Deleted.]
    General Flynn. [Deleted.]

    3. Senator Levin. Director Clapper and General Flynn, do you assess 
that North Korea would still have to conduct additional development and 
testing before it has confidence in an operational nuclear warhead 
capability for an ICBM?
    Director Clapper. [Deleted.]
    General Flynn. [Deleted.]

    4. Senator Levin. Director Clapper and General Flynn, how 
sophisticated are North Korea's cyber capabilities and how have they 
developed in the last year?
    Director Clapper. [Deleted.]
    General Flynn. [Deleted.]

    5. Senator Levin. Director Clapper and General Flynn, should we be 
concerned that North Korea will begin engaging in similar cyber 
activities as China, including military espionage, against the United 
States?
    Director Clapper. [Deleted.]
    General Flynn. [Deleted.]

                                 china
    6. Senator Levin. Director Clapper, in your written testimony, in 
the context of China's role in maritime territorial disputes and 
China's efforts to expand its regional control, you stated that 
``Beijing is pursuing a new type of major power relations with 
Washington, but China is simultaneously working at least indirectly to 
counterbalance U.S. influence. Within East Asia, Beijing seeks to fuel 
doubts about the sustainability of the U.S. rebalance and Washington's 
willingness to support its allies and partners in the region.'' How has 
China worked to undermine the perception that Washington is committed 
to the Asia-Pacific rebalance?
    Director Clapper. [Deleted.]

    7. Senator Levin. Director Clapper, has sequestration and budget 
limitations played a role in undermining the perception of a present 
and engaged United States in the region?
    Director Clapper. [Deleted.]

    8. Senator Levin. Director Clapper, has China successfully 
undermined any of the partner building engagements that the United 
States has pursued in the region?
    Director Clapper. [Deleted.]

    9. Senator Levin. Director Clapper, most of the maritime issues 
with China have focused on territorial disputes in the East China and 
South China seas. The Indian Ocean poses similar challenges and 
threats; however, very little attention is paid to this important part 
of the region. What are some specific examples of the logistical 
support arrangements that China is pursuing in the Indian Ocean region 
and with which countries?
    Director Clapper. [Deleted.]

    10. Senator Levin. Director Clapper, should we be similarly 
concerned about anti-access/area-denial activities by China in the 
Indian Ocean, especially given the PLA Navy's recent exercises through 
the Lombok Strait?
    Director Clapper. [Deleted.]
                                 ______
                                 
                Questions Submitted by Senator Tim Kaine
                              afghanistan
    11. Senator Kaine. Director Clapper and General Flynn, reports have 
emerged describing secret talks between President Karzai and Taliban 
leaders. U.S. efforts at initiating such negotiations stalled in the 
fall of 2013 when the Taliban presented numerous preconditions to 
negotiations including the release of certain Taliban prisoners from 
Guantanamo. What is the Intelligence Community's (IC) assessment of 
these talks and their potential for success?
    Director Clapper. [Deleted.]
    General Flynn. [Deleted.]

    12. Senator Kaine. Director Clapper and General Flynn, does the 
pursuit of a parallel track of negotiations with the Taliban serve as a 
hedge for President Karzai and contribute to his reluctance to sign the 
Bilateral Security Agreement (BSA)?
    Director Clapper. [Deleted.]
    General Flynn. [Deleted.]

                        national security agency
    13. Senator Kaine. Director Clapper, the underpinning of our 
relationship with allied nations is trust. Following the 
recommendations of the President's Review Group on Intelligence and 
Communications Technologies, the President said he will not monitor 
leaders of friends and allies unless there is a compelling national 
security purpose. My question is about our work with allied 
intelligence agencies. What damage, if any, has the disclosure of 
National Security Agency surveillance programs been to that mutual 
trust, and how has it impacted relationships with allied intelligence 
services to gather information about mutual threats?
    Director Clapper. [Deleted.]

    14. Senator Kaine. Director Clapper, the IC has many tools at its 
disposal to report, collect, and analyze information. The President's 
Review Group on Intelligence and Communications Technologies 
recommended significant reforms to one of those tools, the bulk 
collection of telephony metadata pursuant to section 215 of the USA 
PATRIOT Act. Please detail if, and how, the section 215 program has 
been effective in warning us against terrorist threats?
    Director Clapper. [Deleted.]

    15. Senator Kaine. Director Clapper, is maintaining the section 215 
program in its current form essential to our national security?
    Director Clapper. [Deleted.]

    16. Senator Kaine. Director Clapper, do you believe there are 
alternatives to bulk data collection that would be more specific to 
targeting intelligence collection, while also protecting the privacy 
and civil liberties of citizens?
    Director Clapper. [Deleted.]
                                 ______
                                 
             Questions Submitted by Senator Roger F. Wicker
                                  iran
    17. Senator Wicker. Director Clapper, recently in the Senate you 
testified that the Joint Plan of Action (JPA) regarding Iran's nuclear 
program would have a real impact on the progress of Iran's nuclear 
capability. Yet, it is also the assessment of the IC that Iran already 
has the ``scientific, technical, and industrial capacity to eventually 
produce nuclear weapons.'' What is the current state of Iran's 
weaponization program?
    Director Clapper. [Deleted.]

    18. Senator Wicker. Director Clapper, does Iran have the technical 
capability to produce a nuclear weapon if it decides to do so today or 
6 months from now?
    Director Clapper. [Deleted.]

    19. Senator Wicker. Director Clapper, what do you mean precisely 
when you say that the JPA will have a real impact on the progress of 
Iran's nuclear capability?
    Director Clapper. [Deleted.]

    20. Senator Wicker. Director Clapper, does the JPA simply slow 
progress that otherwise would have been made, or do you see some real 
reversal in the Iranian program?
    Director Clapper. [Deleted.]

    21. Senator Wicker. Director Clapper, some outside experts, 
including Gregory Jones of the Nonproliferation Policy Education Center 
and David Albright of the Institute for Science and International 
Security, have estimated that Iran could produce sufficient weapons 
grade uranium for the core of a weapon in less than 2 months if it 
decided to do so. Does this timeframe generally conform with the IC's 
assessment?
    Director Clapper. [Deleted.]

    22. Senator Wicker. Director Clapper, you also testified as it 
relates to Iran's nuclear program that: ``the key thing we're 
interested in and most concerned about is the more highly enriched 
uranium--the 20 percent enriched uranium.'' Given the advancements in 
Iran's centrifuge program, including the installation of new advanced 
centrifuges, isn't it true that Iran could enrich uranium to weapons 
grade by starting at 3 percent, in only slightly more time than if it 
had started at 20 percent?
    Director Clapper. [Deleted.]

                         iran and verification
    23. Senator Wicker. Director Clapper, in 2003, Iran, while in 
negotiations with the EU-3, agreed to suspend its uranium enrichment 
program. We all know how that turned out. Iran suspended enrichment for 
a short period, but other elements of its nuclear program accelerated. 
President Rouhani was then Iran's chief nuclear negotiator and later 
famously bragged about deceiving the Europeans. How confident is the IC 
that it would know if Iran was not fully complying with the terms of 
the current JPA?
    Director Clapper. [Deleted.]

    24. Senator Wicker. Director Clapper, will you commit to 
immediately notify this committee of any suspected violation of the 
agreement by the Iranians?
    Director Clapper. [Deleted.]

    25. Senator Wicker. Director Clapper, if Iran is able to prevail in 
its view that it retains the right to research on advanced centrifuges, 
will Iran be able to accelerate progress towards a nuclear weapons 
capability?
    Director Clapper. [Deleted.]

                           iran and sanctions
    26. Senator Wicker. Director Clapper, would you agree that economic 
sanctions imposed by the United States played a major role in driving 
Iran to the negotiating table and agreeing to the JPA?
    Director Clapper. [Deleted.]

    27. Senator Wicker. Director Clapper, is Iran negotiating in large 
part because it desperately needs sanctions relief? If so, what is the 
basis for your assessment (apart from the public statements made by 
Iranian leaders) that the passage of new sanctions, whose 
implementation is delayed to allow negotiations to proceed, would cause 
Iran to leave the talks?
    Director Clapper. [Deleted.]

    28. Senator Wicker. Director Clapper, what would Iran gain if it 
left the talks? Wouldn't it still be in desperate need of sanctions 
relief?
    Director Clapper. [Deleted.]

                  iran and a credible military threat
    29. Senator Wicker. Director Clapper, has the IC assessed the 
impact of the failure of the United States to take military action in 
Syria on the credibility of our threat to use force to stop Iran's 
nuclear program?
    Director Clapper. [Deleted.]

    30. Senator Wicker. Director Clapper, do Iran's leaders believe 
that if negotiations fail, the United States will use military force to 
stop their nuclear quest?
    Director Clapper. [Deleted.]

                       iran and sanctions relief
    31. Senator Wicker. Director Clapper, what impact has the JPA had 
on the Iranian economy?
    Director Clapper. [Deleted.]

    32. Senator Wicker. Director Clapper, what is your assessment of 
the willingness of foreign actors to violate the current sanctions 
regime in order to gain a preferred position with Iran?
    Director Clapper. [Deleted.]

    33. Senator Wicker. Director Clapper, did anyone in the IC conduct 
an assessment of the impact sanctions relief provided to Iran under the 
JPA would have on the Iranian economy, and if so, what did that 
assessment conclude?
    Director Clapper. [Deleted.]

                    other iranian illicit activities
    34. Senator Wicker. Director Clapper, what is the state of Iranian 
support for terrorism?
    Director Clapper. [Deleted.]

    35. Senator Wicker. Director Clapper, since the election of 
President Rouhani or the implementation of the JPA, has the IC seen any 
change in Iranian support for terrorism, including to Hizballah?
    Director Clapper. [Deleted.]

    36. Senator Wicker. Director Clapper, what is the state of Iranian 
aid to Syria and the Assad regime?
    Director Clapper. [Deleted.]

    37. Senator Wicker. Director Clapper, in the last year, has any 
change been observed in Iran's gross human rights violation and the 
repression of its own people?
    Director Clapper. [Deleted.]

    38. Senator Wicker. Director Clapper, what do you make of the 
increased hangings of Iranian citizens?
    Director Clapper. [Deleted.]

    39. Senator Wicker. Director Clapper and General Flynn, does Iran 
continue to advance its ballistic missile program?
    Director Clapper. [Deleted.]
    General Flynn. [Deleted.]

                       syria and foreign fighters
    40. Senator Wicker. Director Clapper, your testimony recently in 
the Senate on Syria was extremely alarming. By your estimates, there 
are 26,000 extremists fighting in Syria and 7,000 foreign fighters. You 
raised concern that you're now seeing the appearance of training 
complexes in Syria to train people to go back to their countries to 
conduct terrorist attacks. To me this sounds a lot like Afghanistan all 
over again. How concerned should we be that, maybe not next year, but 
over the next decade or more, terrorists trained in Syria are going to 
carry out attacks directly against America or our allies, including 
Israel?
    Director Clapper. [Deleted.]

                  russian support for the assad regime
    41. Senator Wicker. General Flynn, what is the status of Russian 
military support for the Assad regime?
    General Flynn. [Deleted.]
                                 ______
                                 
              Questions Submitted by Senator Kelly Ayotte
                       russian treaty compliance
    42. Senator Ayotte. Director Clapper and General Flynn, has the 
U.S. IC known about the potential Russian violation of the 
Intermediate-Range Nuclear Forces (INF) Treaty since 2008?
    Director Clapper. [Deleted.]
    General Flynn. [Deleted.]

    43. Senator Ayotte. Director Clapper and General Flynn, did the 
President or his senior advisors know about this potential treaty 
violation before the President signed the New START treaty in April?
    Director Clapper. [Deleted.]
    General Flynn. [Deleted.]

    44. Senator Ayotte. Director Clapper, have you known about this 
potential violation since you became the Director of National 
Intelligence in August 2010?
    Director Clapper. [Deleted.]

    45. Senator Ayotte. Director Clapper, when and in what form did the 
IC or the administration inform the Senate regarding potential Russian 
violations of the INF Treaty?
    Director Clapper. [Deleted.]

    46. Senator Ayotte. Director Clapper, did such a notification occur 
when the Senate was considering ratifying New START in late 2010?
    Director Clapper. [Deleted.]

    47. Senator Ayotte. Director Clapper, has the United States fully 
informed our European allies regarding the potential Russian violation 
of the INF Treaty?
    Director Clapper. [Deleted.]

                       role of iranian sanctions
    48. Senator Ayotte. Director Clapper, what has been the primary 
motivation leading the Iranians to make modest concessions on its 
nuclear program in the interim agreement?
    Director Clapper. [Deleted.]

    49. Senator Ayotte. Director Clapper, you stated in your written 
testimony that, ``Iran's perceived need for economic relief has led it 
to make concessions on its nuclear program . . . '' Do you therefore 
agree that the sanctions regime is one of the primary reasons the 
Iranians are at the negotiating table?
    Director Clapper. [Deleted.]

    50. Senator Ayotte. Director Clapper, you also wrote that, ``Iran 
wants to improve its nuclear and missile capabilities while avoiding 
severe repercussions--such as a military strike or regime-threatening 
sanctions.'' Based on this assessment, would you agree that an ideal 
outcome from the Iranian perspective would be one that eliminated or 
reduced the impact of sanctions and the threat of a military strike--
while permitting them to continue development of their nuclear and 
missile capabilities?
    Director Clapper. [Deleted.]

    51. Senator Ayotte. Director Clapper, do you assess that continued 
sanctions and the threat of additional sanctions will play an important 
role in encouraging the Iranians to honor their commitments and make 
the difficult concessions necessary for a final agreement?
    Director Clapper. [Deleted.]

 iran's intercontinental ballistic missile and nuclear weapons programs
    52. Senator Ayotte. Director Clapper, when you testified before the 
Senate Armed Services Committee last year, you stated, ``the Iranians 
are pursuing development of two systems that potentially could have 
intercontinental capability . . . the belief is about the first time 
they'd be ready to do that would be as early as 2015.'' Has Iran 
continued to pursue the development of systems with intercontinental 
capability since your testimony early last year?
    Director Clapper. [Deleted.]

    53. Senator Ayotte. Director Clapper, do you still believe that 
Iran could have an ICBM as early as next year that could strike the 
United States?
    Director Clapper. [Deleted.]

    54. Senator Ayotte. Director Clapper, in your testimony you state 
that, ``Iran would choose a ballistic missile as its preferred method 
of delivering nuclear weapons . . . '' Why do you believe that?
    Director Clapper. [Deleted.]

    55. Senator Ayotte. Director Clapper, why do you believe Iran has 
``the means and motivation to develop longer-range missiles, including 
an ICBM''?
    Director Clapper. [Deleted.]

                         iran's nuclear program
    56. Senator Ayotte. Director Clapper, in your written testimony you 
state that, ``Iran has made progress in a number of areas--including 
uranium enrichment, nuclear reactors, and ballistic missiles--from 
which it could draw if it decided to build missile-deliverable nuclear 
weapons.'' You also state that, ``Iran has the scientific, technical, 
and industrial capacity to eventually produce nuclear weapons.'' If the 
Iranian leadership decided to make a sprint toward a nuclear weapon 
capability, how long do you assess that would take?
    Director Clapper. [Deleted.]

    57. Senator Ayotte. Director Clapper, according to an October 2013 
report from the Institute for Science and International Security that 
was co-authored by David Albright, Iran possessed the ability to 
achieve nuclear break-out in just over 1 month (1.3 to 2.6 months) with 
the low enriched uranium stockpile it had as of last August. Is that 
assessment consistent with your own?
    Director Clapper. [Deleted.]

    58. Senator Ayotte. Director Clapper, if Iran has mastered the 
technology to build a missile-deliverable nuclear weapon and the only 
thing standing between them and this capability is a political decision 
by the Supreme Leader, what do you assess are the primary factors 
impacting the Iranian leadership's political calculus?
    Director Clapper. [Deleted.]

    59. Senator Ayotte. Director Clapper, is it conceivable that Iran 
could have both a nuclear weapon and an ICBM to deliver that weapon to 
the United States in the next few years?
    Director Clapper. [Deleted.]

                  unpredictability of future conflicts
    60. Senator Ayotte. Director Clapper and General Flynn, over the 
course of your long careers, is this the most uncertain national 
security environment you have seen?
    Director Clapper. [Deleted.]
    General Flynn. [Deleted.]

    61. Senator Ayotte. Director Clapper, do you place high confidence 
in our ability to predict what kind of conflicts the United States will 
have to engage in going forward to protect our national security?
    Director Clapper. [Deleted.]

            russian delivery of s-300 anti-aircraft missiles
    62. Senator Ayotte. General Flynn, have the Russians delivered any 
S-300 anti-aircraft missiles to the Assad regime in Syria?
    General Flynn. [Deleted.]

           china's development of a fifth generation fighter
    63. Senator Ayotte. General Flynn, last year in your prepared 
statement for the Senate Armed Services Committee, you said that China 
tested a fifth generation fighter prototype in 2011 and rolled out and 
tested a smaller fifth generation fighter in 2012. Were there any 
significant developments in 2013?
    General Flynn. [Deleted.]

    64. Senator Ayotte. General Flynn, what is your assessment of the 
Russian fifth generation fighter program?
    General Flynn. [Deleted.]

    65. Senator Ayotte. General Flynn, do these Chinese and Russian 
fifth generation fighters present a potential challenge to U.S. air 
superiority if we do not move forward with our own fifth generation 
fighter program?
    General Flynn. [Deleted.]

             north korean threat to mainland united states
    66. Senator Ayotte. Director Clapper and General Flynn, does North 
Korea currently possess an ICBM that can strike the United States 
(Hawaii and Alaska)?
    Director Clapper. [Deleted.]
    General Flynn. [Deleted.]

    67. Senator Ayotte. Director Clapper and General Flynn, does North 
Korea have the ability to strike Los Angeles?
    Director Clapper. [Deleted.]
    General Flynn. [Deleted.]

    68. Senator Ayotte. Director Clapper and General Flynn, when do you 
expect North Korea will have that capability, if they do not have it 
now?
    Director Clapper. [Deleted.]
    General Flynn. [Deleted.]

              threat to homeland from extremists in syria
    69. Senator Ayotte. Director Clapper, you testified at the House 
Intelligence Committee that, ``The strength of the insurgency in Syria 
is now estimated at somewhere between 75,000 or 80,000 or up to 110,000 
to 115,000 insurgents, who are organized into more than 1,500 groups of 
widely varying political leanings.'' You went on to testify that, 
``Complicating this further are the 7,500 or so foreign fighters from 
some 50 countries who have gravitated to Syria.'' Are there American 
extremists fighting in Syria?
    Director Clapper. [Deleted.]

    70. Senator Ayotte. Director Clapper, have some of these 
individuals returned to the United States?
    Director Clapper. [Deleted.]

    71. Senator Ayotte. Director Clapper, on February 7, Jeh Johnson, 
the Secretary of the Department of Homeland Security, stated that the 
civil war in Syria has become a matter of U.S. Homeland security over 
concerns about a small number of Americans who have gone to fight with 
Syrian rebels and returned home. How concerned should we be that those 
extremists may try to commit terrorist attacks on U.S. soil again?
    Director Clapper. [Deleted.]

                           departure of assad
    72. Senator Ayotte. Director Clapper, in your written testimony you 
state that, ``President Assad remains unwilling to negotiate himself 
out of power,'' and `` . . . plans to win a new 7-year term . . . '' in 
the upcoming elections that are to occur this year. What would be 
necessary to create a tipping point in Syria that would result in the 
fall of Assad?
    Director Clapper. [Deleted.]

       vulnerability of intelligence community to insider threats
    73. Senator Ayotte. Director Clapper and General Flynn, according 
to a February 9, 2014, New York Times article, Edward Snowden ``gained 
access to roughly 1.7 million of the country's most highly classified 
documents . . . [using] inexpensive and widely available software.'' Is 
that accurate?
    Director Clapper. [Deleted.]
    General Flynn. [Deleted.]

    74. Senator Ayotte. Director Clapper and General Flynn, can you 
provide any more details?
    Director Clapper. [Deleted.]
    General Flynn. [Deleted.]

    75. Senator Ayotte. Director Clapper and General Flynn, how 
vulnerable is the IC to insider attacks like this?
    Director Clapper. [Deleted.]
    General Flynn. [Deleted.]

    76. Senator Ayotte. Director Clapper and General Flynn, how could 
something like this have happened nearly 3 years after the WikiLeaks 
disclosures?
    Director Clapper. [Deleted.]
    General Flynn. [Deleted.]

    77. Senator Ayotte. Director Clapper and General Flynn, what has 
been learned from the Snowden debacle and how are you implementing what 
you have learned?
    Director Clapper. [Deleted.]
    General Flynn. [Deleted.]

    78. Senator Ayotte. Director Clapper and General Flynn, do we have 
sufficient oversight over IC contractors?
    Director Clapper. [Deleted.]
    General Flynn. [Deleted.]

                                 [all]
</pre></body></html>
